<html>
<title> - THE SECURITY AND FREEDOM THROUGH ENCRYPTION (SAFE) ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
         THE SECURITY AND FREEDOM THROUGH ENCRYPTION (SAFE) ACT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON TELECOMMUNICATIONS,
                     TRADE, AND CONSUMER PROTECTION

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 850

                               __________

                              MAY 25, 1999

                               __________

                           Serial No. 106-28

                               __________

            Printed for the use of the Committee on Commerce


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 57-448CC                    WASHINGTON : 1999



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

   Subcommittee on Telecommunications, Trade, and Consumer Protection

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL G. OXLEY, Ohio,              EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               BART GORDON, Tennessee
PAUL E. GILLMOR, Ohio                BOBBY L. RUSH, Illinois
CHRISTOPHER COX, California          ANNA G. ESHOO, California
NATHAN DEAL, Georgia                 ELIOT L. ENGEL, New York
STEVE LARGENT, Oklahoma              ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming               BILL LUTHER, Minnesota
JAMES E. ROGAN, California           RON KLINK, Pennsylvania
JOHN SHIMKUS, Illinois               THOMAS C. SAWYER, Ohio
HEATHER WILSON, New Mexico           GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ROY BLUNT, Missouri
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Arnold, Thomas, Vice President and Chief Technology Officer, 
      Cybersource Corporation....................................    41
    Dawson, David D., Chairman and CEO, V-One Corporation........    58
    Gillespie, Ed, Executive Director, Americans for Computer 
      Privacy....................................................    21
    Holahan, Paddy, Executive Vice President, Marketing, 
      Baltimore Technologies, International Finance Services 
      Centre.....................................................    54
    Hornstein, Richard, General Counsel, Network Associates, Inc.    31
    Lee, Hon. Ronald D., Associate Deputy Attorney General, 
      Department of Justice......................................    17
    McNamara, Hon. Barbara A., Deputy Director, National Security 
      Agency.....................................................    27
    Reinsch, Hon. William A., Under Secretary of Commerce for 
      Export Administration, Department of Commerce..............    11
    Schultz, E. Eugene, Trusted Security Advisor, Global 
      Integrity Corporation......................................    47
Material submitted for the record by:
    Goodlatte, Hon. Bob, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    88
    Schultz, E. Eugene, Trusted Security Advisor and Research 
      Director, Global Integrity Corporation, letter dated June 
      1, 1999, to Hon. W.J. Tauzin, enclosing response for the 
      record.....................................................    89

                                 (iii)



         THE SECURITY AND FREEDOM THROUGH ENCRYPTION (SAFE) ACT

                              ----------                              


                         TUESDAY, MAY 25, 1999

              House of Representatives,    
                         Committee on Commerce,    
                    Subcommittee on Telecommunications,    
                             Trade, and Consumer Protection
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. W.J. ``Billy'' 
Tauzin (chairman) presiding.
    Members present: Representatives Tauzin, Oxley, Stearns, 
Gillmor, Deal, Largent, Cubin, Rogan, Shimkus, Ehrlich, Bliley 
(ex officio); Markey, Eshoo, Wynn, Luther, Sawyer, McCarthy, 
and Dingell (ex officio).
    Staff present: Mike O'Rielly, majority professional staff; 
Cliff Riccio, legislative clerk; and Andy Levin, minority 
counsel.
    Mr. Tauzin. The hearing will please come to order.
    Let me welcome you again. We have assembled a very large 
but extraordinarily intelligent and informed panel for our 
subcommittee as we begin thinking in advance about how, in 
fact, to enter the world of or--rather, the world will be more 
and more in a digital, highly encrypted age.
    We have learned over the past few years that encryption can 
play an integral role in the development of the digital 
economy. Individual consumers are looking for certainty and 
trust when they operate on-line. Our business community wants 
to integrate encryption into their products and into their 
daily practices. They also want an opportunity to foil the 
hacker, the spy, the crook, or competing company before it is 
too late. Encryption is becoming the modern day door lock. It 
literally is the dead bolt of the next millennium.
    Unfortunately, for all the benefits in encryption, there is 
a downside. For every legitimate company and person that uses 
an encryption product, there is a good chance that product can 
be used for illegal purposes as well. As complex, as 
mathematically dynamic as they become, encryption products do 
not discriminate. They treat each user the same, protect each 
bit of information the same. Thus, the encryption product used 
to protect the transfer of the new fashion designs from Milan 
to New York can also be used by terrorists to protect plans for 
the next attack on innocent civilians.
    The Clinton administration and previous administrations 
before it have treated encryption products guardedly. They see 
the potentially harmful effects of encryption products and want 
to keep these products from being used without proper caution 
or proper approval. To be more accurate, the administration's 
encryption policy reflects diverging purposes. On the one hand, 
the administration, led by the intelligence community, wants to 
contain encryption products from being used abroad more often 
and interfering with their ability to conduct intelligence 
gathering. On the other hand, the law enforcement community 
wants to manipulate the design of encryption products to ensure 
they can obtain access to the encrypted material as needed with 
proper authorization.
    The current policy, based on good and proper intentions, is 
a failure. I believe that it is impossible to contain the use 
of encryption products. In fact, the only encryption products 
that we are containing are American products from being used 
internationally.
    The world economy is now interdependent. The digital 
economy is even more dependent on interacting, communicating 
and conducting business globally. Instead of recognizing this 
fact, our containment strategy has put ankle-bracelets on 
American companies. We expect them to thrive and compete, but 
we put a roadblock in their way. I am glad to see we have a 
foreign encryption producer here today to talk about 
international treatment of encryption and how their business is 
going.
    The law enforcement community makes a stronger case for 
their position, but it, too, does not survive scrutiny. If 
there was successful, U.S. encryption products would dominate 
the world, and they would contain a vital component that allows 
for the decryption of sensitive material on command of a court 
order. In their view, the faster acceptable American encryption 
products are created and used, the better.
    Unfortunately, this position ignores some very simple 
facts: the back-door or recoverable mechanisms cannot be forced 
on current encryption manufacturers. In some market segments, 
recoverable products could be successful; in others, it will 
not. In the meantime, the benefits of encryption are delayed or 
prevented from reaching the needed user. Our law enforcement 
community cannot force foreign producers in fact to build 
recoverable products.
    I am reminded of an analogy told by a high-technology 
company on the subject of encryption. When asked whether they 
could build recoverable products, he said this was like you 
asking the creators of the atomic bomb to develop a mechanism 
to put the world back together if it turns out that it 
shouldn't have been detonated, or it is like asking a farmer to 
put the egg back together after it has been cooked, eaten and 
digested.
    So I come from the perspective that there are two truths 
about the debate over encryption products: One, we are 
unsuccessfully hamstringing U.S. encryption producers and those 
that want to incorporate encryption into their products based 
on false pretenses; and, two, the only way that current policy 
is going to change is for Congress to take action.
    The administration likes to play both sides of the issue, 
and when it looks as though the political pressure is too hot, 
they make slight changes to the policy. They modified their 
policy late last year to provide relief for certain market 
segments, but what happens if you are not in one of those 
targeted segments? The simple answer is, you are out of luck; 
and this is no longer acceptable. That is why I am a supporter 
and cosponsor of H.R. 850.
    H.R. 850 would relax current restrictions to permit export 
of encryption of any strength without being recoverable. I 
would be remiss if I didn't point out that while H.R. 850 is a 
step in the right direction, the bill is missing certain 
concepts. The Commerce Committee did a great job, I think, on 
the development of an encryption high-tech laboratory to 
promote cooperation and the sharing of knowledge between law 
enforcement and the encryption-producing community. It is our 
hope that this concept will be continued.
    In addition, encryption products have the ability to 
protect and secure today's communications network, the 
telecommunications network and the Internet, in ways that are 
necessary, especially as the dependency of these networks on 
foreign networks increases. With our jurisdiction over commerce 
generally, and our expertise on communications policy 
specifically, I hope we will take the necessary time to improve 
this bill before us to reflect this aspect of the debate.
    I should add, parenthetically, as you know, the Ninth 
Circuit has entered into this debate. The Ninth Circuit has 
generally declared the export ban on encryption products to be 
unconstitutional on the theory that encryption is, in fact, a 
part of free speech, that without encrypted products, our free 
speech in this country and around the world would not 
adequately be protected as the Constitution envisioned.
    In that regard, the administration faces the prospect of a 
decision on whether to appeal that decision. I will be joining 
with a number of members in a letter to the administration 
urging them not to appeal the Ninth Circuit decision, rather, 
to work with us in this committee and in this Congress to pass 
H.R. 850 with, as I said, with the work of this committee 
perfecting it in the process; and I would urge other members to 
consider joining me in that request to the administration to 
join us in this legislative effort, rather than to pursue a 
long and extended appeal of the Ninth Circuit decision to the 
Supreme Court.
    I look forward to hearing the witnesses and recognize now 
the ranking minority member from Massachusetts, my good friend, 
Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman. Thank you so much for 
having this hearing today.
    This issue is a very difficult one from a public policy 
perspective. Policymakers are asked to balance personal 
security and freedom with national security and freedom to 
enable better privacy protection but to also help law 
enforcement fight crime and to simultaneously salute our clear, 
economic interests in promoting commercial exporting 
opportunities of encrypted products and services. During 
committee deliberations on this encryption legislation in the 
last session of Congress, I successfully offered an amendment 
that tried to strike a balance.
    There is no member of this committee who is unsympathetic 
to the plight of law enforcement during this time of profound 
and rapid technological change. There is no member of this 
committee who is unwilling to place certain restrictions on the 
most highly sophisticated encryption that would pose national 
security risks. The problem is that our export controls today 
have not fully kept up with advances in technology or with the 
general availability of that technology in commercial products.
    Last session I suggested that in headlong pursuit of trying 
to help law enforcement officials fight crime we ought not rush 
into adopting rules, regulations or instigating government 
intrusion into the high-tech marketplace unless we are sure 
that the proposed solution solves the problem.
    I remain convinced that proposals from the law enforcement 
community need additional work and further analysis. I 
understand their frustration; and, last session, my amendment 
tried to get law enforcement the additional tools they need to 
fight crime. I suggested that the high-tech industry should 
assist law enforcement and create a national electronic 
technologies center, a net center, to serve local, State, and 
Federal law enforcement authorities by providing information 
and assistance regarding the encryption technologies and 
techniques.
    I still believe that this initiative is preferable to a 
policy that would place for the first time controls on the 
domestic use of encryption by American citizens and thereby 
mandate how every American citizen protects his or her 
electronic security. I pledge to continue to try to work with 
the national security and law enforcement communities in trying 
to fashion a common-sense encryption policy.
    The high-tech industry has been highly organized in its 
effort to liberalize and update U.S. policy toward the export 
of encryption software and related policies. It has correctly 
identified the commercial imperative by opening up 
opportunities for U.S. companies to compete overseas in these 
critical, knowledge-based industries.
    The industry has also been quick to point out that strong 
encryption can help thwart crime. Moreover, the high-tech 
industry has noted that strong encryption can also avail 
customers of greater privacy protection; and the industry has 
been eager to assist consumers by creating products that permit 
people to safeguard their personal conversations or data files.
    For all of these efforts, I wholeheartedly commend the 
high-tech industry. I only wish that the industry would be 
equally zealous in protecting the privacies of consumers when 
its commercial interests are more complicated, whether it is 
the Intel Pentium III chip or unique identifiers in Windows 
software or E-commerce products yet to come. With respect to 
transactional on-line privacy, the industry has been less 
attentive to balancing security interests with personal privacy 
while consumers are on-line.
    A recent survey conducted by the Georgetown Business School 
of on-line websites found that upwards of 90 percent of the 
sites collected personal information from consumers. However, 
for the privacy criteria generally perceived as embodying fair 
information practices, such as consumer notice, consumer 
choice, access, security and contract information, the raw 
numbers from the survey are sobering. Only 9.5 percent of the 
entire survey sample contained these basic privacy criteria. 
Even at the top 100 most visited websites, only 19 percent have 
privacy policies consisting of accepting fair information 
practice criteria.
    It is one thing to post your privacy policy, but it is an 
entirely separate issue as to whether or not that posted policy 
is anything more than a grudging acknowledgment that a website 
collects and discloses personal information without any 
consumer control over such collection of disclosure.
    I hope we can make progress on that issue, as well as 
making progress on the encryption policy. It is the flip side 
of the same coin, and I believe that the industry has the same 
obligation to consumers in protecting them against companies 
compromising personal information as they do protecting them 
from the government compromising their personal information. 
From the consumer's perspective, there is no difference; and I 
am going to ask the witnesses today to tell me how they stand 
on this issue.
    I thank you, Mr. Chairman.
    Mr. Tauzin. Thank you, Mr. Chairman, Mr. Markey.
    We are pleased now to welcome the chairman of the full 
committee, the gentleman from Richmond, Virginia, Mr. Bliley. 
Since he is the most important member here, we will encrypt his 
testimony. We will supply you with it encoded.
    Mr. Bliley, for an opening.
    Chairman Bliley. Thank you, Mr. Chairman. I want to thank 
you for yielding to me and holding this hearing.
    The subcommittee meets to consider H.R. 850, a bill to 
provide export relief for certain encryption production. This 
is not a new issue. The Commerce Committee reported export 
relief legislation 2 years ago.
    In 1997, we learned firsthand how contentious and important 
this issue is to all parties involved. The law enforcement and 
intelligence communities argued passionately that the current 
policy is workable and necessary for them to do what we expect 
from them. On the other hand, the high-tech community, the 
companies that are fueling our Nation's economies and producing 
dramatic innovation, argues strongly that the current policy is 
based on faulty logic and is directly harmful to their ability 
to compete internationally. They also point out that, while 
they are harmed by U.S. policy, American consumers and the 
growth of electronic commerce are harmed just as well.
    The Commerce Committee has been a leader in opening the 
landscape for electronic commerce. We take seriously our role 
in promoting electronic commerce; and, for instance, I have 
introduced legislation dealing with the electronic signatures 
and the scope of data base protection, both of which the 
committee will turn to very soon. I support the effort to 
revise our Nation's export policy with regards to encryption to 
reflect a current availability of encryption products and the 
benefits of stronger products.
    The administration's policy of today is unworkable and an 
impediment to the U.S. encryption producers and users. We need 
the policy to change. It is hard to restrict U.S. companies 
from selling 128-bit encryption products when the same product 
can be bought from an Israeli, French or Irish company. The 
administration has tried to minimize opposition to its policy 
by providing limited relief for certain sectors in certain type 
of companies.
    This policy is partly based on the idea that containing 
U.S. encryption products will aid our national security. The 
administration has attempted to sell this approach in an 
international forum with little success or resulting in vague 
promises.
    The current piecemeal encryption policy does nothing for 
the multiple companies that want to integrate encryption into 
their products as an add-on future. For instance, foreign 
software companies selling word processing products are using 
the U.S. restrictions as a marketing tool to sell their 
products over American companies. This current policy also lets 
uncertainty rule the day. We have been in contact with numerous 
electronic commerce firms that are trying to fight through the 
new rules to figure if they qualify or don't qualify for 
licensing exception and thus are able to provide service 
consumers want.
    With that said, I am always interested in trying to find a 
compromise, if possible. If there is room for agreement that 
can help law enforcement or protect national security without 
codifying the current policy, I want to know about it.
    We will move encryption legislation soon in this committee, 
and is H.R. 850 the best approach to do this? Should changes be 
made to the bill? Should we consider another approach like the 
one introduced by Senator McCain in the Senate?
    I look forward to hearing from the panelists today on these 
important issues; and thank you again, Mr. Chairman, for 
yielding me the time.
    Mr. Tauzin. I thank you, Mr. Chairman, the leader of the 
Virginia high-tech crowd. I read about you guys in The 
Washington Post.
    I am pleased now----
    Chairman Bliley. Don't believe everything you read in the 
Post.
    Mr. Tauzin. The Chair is pleased now to welcome the ranking 
minority member of the full committee, the Honorable John 
Dingell from Michigan.
    Mr. Dingell. Mr. Chairman, thank you for the recognition; 
and, Mr. Chairman, thank you for holding this hearing today. It 
is very important. This is not an easy subject. The committee 
has grappled with this matter for a number of years. 
Unfortunately, we have had little success in finding the right 
solution.
    As each day goes by, technological advances create a 
greater need for a coherent national policy. I hope that, as 
the need for that solution becomes more compelling, this 
committee will redouble its efforts to find a sensible, 
rational middle ground that balances the crucial interests at 
stake.
    We lead the world in production of computer hardware and 
software. Technology is an engine which drives the global 
economy and drives the U.S. economy. We should not idly sit by 
and let U.S. companies lose in the marketplace because they 
cannot deliver the kind of secure products and services 
customers demand.
    But as we will hear from our witnesses today, I am sure, 
the advent of increasingly sophisticated technologies is a 
double-edged sword. It can make global commerce and 
communications more secure. It can also make national security 
and law enforcement less so. We all know too well even in the 
post-Cold-War era the wars against international terrorism, 
espionage and human rights abuses continue unabated, and 
significant threats exist to this country from activities of 
people, not its friends, both in the military and espionage 
sense, and also from the standpoint of crime, drugs and matters 
of that sort.
    Mr. Chairman, we have an important duty to see to it that 
we protect all of the vital interests of the United States in 
foreign commerce and communications. Thus, we have an important 
need to address the concerns of the administration with regard 
to security, which is very difficult. I am not quite sure how 
it can done or how it will be done, but I hope that we will 
work very hard on this particular point. And I am prepared to 
work with you to try and craft a sensible, national encryption 
policy we can all support.
    I yield back the balance of my time.
    Mr. Tauzin. I thank the gentleman from Michigan.
    And the Chair is now pleased to recognize the vice chairman 
of the subcommittee, the gentleman from Ohio, Mr. Oxley.
    Mr. Oxley. Thank you, Mr. Chairman, and welcome to our 
distinguished witnesses.
    Mr. Chairman, I take a back seat to no one when it comes to 
matters of international free trade, U.S. export promotion, and 
support for our high-tech industries. You will find not a 
stronger advocate for U.S. firms seeking to penetrate foreign 
markets.
    American companies are world leaders in encryption and 
other cutting edge technologies. They should be able to export 
their products to our trade partners around the globe. In fact, 
I would support the legislation before us if it were needed and 
took into serious account U.S. national security interests.
    There is no doubt in my mind that American firms have the 
ability to produce the most powerful, most impenetrable 
encryption products in the world.
    I do not question the value of this technology for purposes 
of protecting electronic commerce, consumer privacy, and 
proprietary information. We need this technology, and so do our 
trading partners.
    We do not, however, need this legislation. It is 
unnecessary, given the administration's regular review and 
modernization of U.S. encryption policy. More importantly, the 
bill as drafted, it represents a real theft to national 
security and public safety in the United States.
    I would refer the members to the closed briefing that we 
received last year from the various security agencies, 
including the FBI and the CIA. I would certainly recommend that 
we have a similar briefing before we move on this bill.
    Mr. Chairman, there can be no doubt that the power of 
encryption technology in criminal hands or the hands of enemies 
of the United States can be turned to ill purposes with 
devastating consequences for members of a free society. I am 
speaking here of terrorists, antigovernment militants, rogue 
regimes, organized crime syndicates, drug cartels, child 
pornographers, kidnapers, pedophiles.
    Not only would this legislation assist those who would use 
this technology to conceal their crimes from surveillance by 
our intelligence and law enforcement agencies, it would also 
undercut international efforts to control the proliferation of 
unbreakable encryption.
    The enactment of H.R. 850 would make powerful encryption 
all the more available to our adversaries. It would undermine 
the agreement reached last December to improve multilateral 
export controls under the Wassenaar Agreement. The 33 
signatories to that agreement represent the bulk of encryption-
producing countries.
    Furthermore, this legislation is not necessary. The 
administration has provided significant relief from the export 
controls where it can safely do so, which I applaud.
    Fifty-six-bit encryption products may be exported after a 
one-time review. Products above 56 bits may be exported for use 
by the subsidiaries of American firms, except those located in 
terrorist nations. They may be exported to 45 friendly nations 
to be used by banking, financial, medical, insurance, and on-
line companies. Products above 56 bits may also be exported to 
other commercial firms if they are recoverable, as in the 
industry-developed ``doorbell'' approach.
    Mr. Chairman, this is the kind of careful, reasoned 
approach to relaxing our export controls that is called for in 
a matter of this seriousness. I find it highly ironic that on 
the day that we receive the recommendations of the bipartisan 
commission report on high-tech transfers to China, which 
includes suggestions to strengthen our export system, we are 
considering legislation to undermine our multilateral export 
control system for encryption. It is unwise, and I fear we will 
live to regret it.
    I yield back the balance of my time.
    Mr. Tauzin. Thank the gentleman.
    The Chair is now pleased to recognize the gentleman also 
from Ohio, Mr. Sawyer, for an opening statement.
    Mr. Sawyer. Thank you, Mr. Chairman, for the recognition 
and for having this hearing.
    It has been almost 2 years since the subcommittee held its 
last hearing on this subject. The full committee passed it at 
the end of September in 1997. This bill never came to the 
floor, as you well know.
    Not much has changed since that time in terms of the United 
States' policy and allowing companies to manufacture, use, and 
sell stronger encryption products. We continue to limit the 
availability of strong encryption, while discouraging 
exportation of encryption software.
    What really has changed is we have a new chairman of the 
Rules Committee. I am not sure what his positions on this kind 
of legislation are, but it may make a difference.
    I hope the subcommittee and the full committee will once 
again have the resolve to address the issues that are raised by 
H.R. 850.
    Let me just say that I recognize the concerns of the law 
enforcement community. I think we need, as several members have 
mentioned, to find ways to address those concerns and make sure 
they have the tools to do their jobs effectively. But it just 
seems to me that for some time the genie has been out of the 
bottle. In fact, we have a bottle whose neck is very tightly 
sealed, the cork is embedded and very much in place, but there 
is no bottom left on the bottle. And that is a reality that we 
simply have to be able to address.
    We are in a new era, as everybody is fond of saying. We 
have simply got to alter our policy to give consumers greater 
insurance that their communications and data are as private as 
possible and so that we might compete with our international 
counterparts, particularly American companies that find 
themselves doing business throughout the world, in settings 
where they need to be as protected as they like to feel at 
home.
    Mr. Chairman, let me thank you again for scheduling this 
hearing. I look forward to hearing from our witnesses.
    Mr. Tauzin. I thank my friend; and the Chair now yields for 
an opening statement to the gentleman from Illinois, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I just want to welcome the panel, and I will turn back my 
balance of time to get started.
    Mr. Tauzin. The Chair will recognize the gentleman from 
Maryland, Mr. Ehrlich, for an opening statement.
    Mr. Ehrlich. I have no opening statement. I would like to 
make a brief comment.
    As a new member of the committee, this is certainly one of 
the more difficult issues that has been brought to my 
attention. I look forward to the comments of the panel, the 
impressive panel before us. What makes it very difficult, 
people for whom I have great respect in this area have quite 
diverse views, to say the least. So I look forward to a very 
good debate today.
    Thank you, I yield back.
    Mr. Tauzin. I thank the gentleman.
    I might point out the Chair has presented to me a letter 
from the Louisiana Sheriff's Association in favor of H.R. 850, 
I don't know how it is in Maryland. The Sheriffs have a good 
voice in Louisiana.
    The gentleman from Georgia, Mr. Deal.
    Mr. Deal. Mr. Chairman, I don't have an opening statement.
    Mr. Tauzin. The gentleman from Oklahoma, Mr. Largent.
    Mr. Largent. No.
    [Additional statements submitted for the record follow:]
Prepared Statement of Hon. Cliff Stearns, a Representative in Congress 
                       from the State of Florida
    Mr. Chairman: Thank you for calling this hearing on the important 
issue of encryption and the legislation before sponsored by our 
colleague, Mr. Goodlatte.
    After being briefed by FBI Director Freeh during the last Congress 
before the mark-up of the same legislation, I was quite concerned with 
the security implications of allowing unimpeded export of encryption.
    With the current atmosphere of widespread espionage being committed 
by the Communist government of China, I am even more concerned with the 
export of such encryption products. just imagine the Chinese encrypting 
the nuclear secrets, missile technology, or computer codes they have 
stolen from us.
    I want to be assured that the passage of this legislation will not 
lead to dangerous China becoming more dangerous with the ability to 
import U.S. encryption products.
    Of course under this Administration, the Chinese have probably 
already stolen whatever encryption material they could.
    I voted in support of the Goodlatte bill last Congress in 
Committee, but supported the effort of Mr. Oxley in his amendment to 
restrict exportation for reasons of security and law enforcement. I 
look forward to the testimony of the witnesses in regard to efforts to 
amend this legislation to further protect U.S. national security.
    I also look forward to the witness testimony regarding the 
compromise plan that was put forward into use by the Department of 
Commerce and whether new legislation is truly needed.
    Finally, I would like the witnesses to address the economic impacts 
that restriction of encryption products has on U.S. businesses and 
whether current U.S. policy is simply forcing U.S. encryption producers 
to move off shore and sell their products unimpeded.
    Thank you Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    Thank you, Mr. Chairman, for holding this important hearing on H.R. 
850, the Security And Freedom through Encryption (SAFE) Act.
    I was a cosponsor of H.R. 695, originally introduced by Rep. Bob 
Goodlatte (R-VA) in the last Congress. Unfortunately that bill wasn't 
passed into law.
    However, I have once again joined Congressman Goodlatte in 
supporting legislation, this year in the form of H.R. 850, to ensure 
the confidentiality of electronic messages and provide for a realistic 
and clear national encryption policy.
    Among other things, H.R. 850 would somewhat ease U.S. export 
controls on encryption products, thereby providing U.S. individuals and 
companies with a greater ability to compete in the international 
marketplace.
    This Administration has an unfortunate reputation for not providing 
a level playing field for American businesses to compete with overseas 
competitors in a global market.
    I will be interested to hear from the witnesses today to learn what 
the Administration is doing to provide and maintain a business climate 
that encourages the development of information technology and 
encryption software and hardware.
    If we expect e-commerce and other electronic transfers to continue 
to grow by leaps and bounds we must ensure that those transfers are 
safe and secure.
    Currently, there are no federal restrictions on domestic encryption 
use, and H.R. 850 would not change this situation. However, last year 
there was a move in the full Commerce Committee to amend the bill to 
place certain restrictions on domestic encryption use.
    Instead of adopting domestic restrictions, I'm pleased that the 
Commerce Committee approved a substitute amendment which would have, in 
part, reaffirmed the policy of no domestic restrictions and would have 
required the Commerce Department to conduct an expedited study of the 
issue of mandating a system for encryption recovery.
    Encryption policy is a difficult balancing act. It forces us to 
walk a razor thin line between guaranteeing national security and 
protecting people's privacy.
    I believe H.R. 850 is an appropriate and realistic approach to 
solving this vital national encryption issue.
    Mr. Chairman, it is my hope that the Committee moves quickly to 
pass this important piece of legislation. I yield back the balance of 
my time.
                                 ______
                                 
  Prepared Statement of Hon. Anna Eshoo, a Representative in Congress 
                      from the State of California
    Thank you, Chairman Tauzin, for calling this hearing on H.R. 850, 
the SAFE Act.
    I'm pleased that my constituent Tom Arnold representing 
CyberSource, is testifying before our Committee today. After working 
for NASA at the Ames Research Center in Mountain View, Mr. Arnold went 
to the private sector. We look forward to your testimony.
    The SAFE Act currently has 252 cosponsors, far more than a majority 
of the Members of this House. A majority of the members of this 
Committee are cosponsoring this bill. And this Legislation is virtually 
the same bill that passed the full Commerce Committee last Congress.
    Most if not all of us on the Commerce Committee have heard the 
arguments for and against this legislation.
    What some may not realize is the development of a cottage industry, 
directly linked to the Administration's export control policy. We will 
hear today about foreign companies like Siemens, Phillips, and Entrust 
who face little or no restrictions on exporting encryption products.
    CYBERNETICA, an Estonian data security company, is marketing its 
encryption product as having ``No Export Restrictions.''
    These companies are flourishing due to our Administration's 
encryption policy. More importantly, U.S. companies are suffering.
    Consumer demands and technological innovations have driven the 
development of encryption technology globally. Commerce Secretary Daley 
reported that consumers spent more than $9 billion online last year. 
Further, Forrester Research has predicted that E-commerce sales will 
reach $108 billion by 2003.
    Recent studies also show that the Administration's encryption 
policy threatens to cost our economy from $60 to $90 billion dollars 
and 200,000 jobs over the next few years.
    This legislation ensures that U.S. jobs are not lost to foreign 
companies due to our outdated export control policy.
    In a global economy that is increasingly not restricted by 
boundaries, we no longer can maintain an export control policy 
restricted solely to within our borders.
    Strong encryption is a key building block of the emerging 
information based economy. It is essential to high growth areas of the 
New Economy such as E-commerce, online banking, and maintaining the 
security of critical information.
    Just over two weeks ago, the Ninth Circuit Appeals Court affirmed 
an earlier decision that in the name of national defense, the U.S. 
government should not restrict the very liberties it is supposed to be 
defending, exemplifying the judicial branch's understanding of the 
encryption debate.
    It is now time for the Legislative Branch to follow suit and pass 
the SAFE Act.
    I look forward to working with you Mr. Chairman on passing this 
bill through our Committee expeditiously.

    Mr. Tauzin. Then the Chair is very pleased to welcome our 
panel now.
    I understand some of you, Ms. McNamara and Mr. Reinsch, 
have time delays, so we will try and go through this quickly. 
Let me urge you, with a large panel, we have your written 
statements in front of us, which we can read and review. If you 
would use your 5 minutes wisely, by summarizing, by 
conversationally giving us your point of view and hitting the 
high points, what you want us to remember about your testimony 
today, we would appreciate it. That will give us time to engage 
you in a dialog as soon as we can and give you time to make 
your appointments this morning.
    We will begin by introducing the Honorable Ronald D. Lee, 
Associate Deputy Attorney General, United States Department of 
Justice. And, Mr. Lee, we welcome your testimony, sir.
    Mr. Lee. Thank you, Mr. Chairman. With the Chair's 
indulgence, I would ask that Mr. Reinsch precede me.
    Mr. Tauzin. If that is--I have no objection.
    Mr. Reinsch, do you want to go first? You are on, sir.
    Mr. Reinsch. We have a traveling show, Mr. Chairman; and we 
usually present it in the same order.
    Mr. Tauzin. This is William Reinsch, the Under Secretary of 
Commerce for Export Administration, the United States 
Department of Commerce.
    Mr. Reinsch.

   STATEMENT OF HON. WILLIAM A. REINSCH, UNDER SECRETARY OF 
   COMMERCE FOR EXPORT ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr. Reinsch. Thank you. I wouldn't want the subcommittee to 
think that we are incapable of innovation, but I think there is 
some flow to our comments that might make more sense if 
delivered in the right order.
    Let me make an abbreviated version of my statement. I 
appreciate you putting the full one in the record.
    It is a pleasure to be back, Mr. Chairman, to discuss one 
of my favorite subjects. We think we made some progress, 
notwithstanding the comments of some of the members of the 
committee, on our policy since the last time I appeared. It is 
obvious, though, even from this morning's remarks, that 
encryption remains a hotly debated issue.
    We continue to support a balanced approach which considers 
privacy and commerce as well as protecting important law 
enforcement and national security equities. We have been 
consulting closely with industry and its customers to develop a 
policy that provides that balance in a way that also reflects 
the evolving realities of the marketplace.
    The Internet and other digital media are becoming 
increasingly important to the conduct of international 
business. My full statement supplies a number of statistics on 
that point, and I won't go into that in detail.
    It is clear, though, that in addition to the rapid growth 
of E-commerce, businesses also maintain their records and other 
proprietary information electronically. They conduct day-to-day 
communications and business transactions through the Internet 
and E-mail. An inevitable by-product of this growth is the need 
for strong encryption to provide the necessary secure 
infrastructure for digital communications, transactions and 
networks; and we support that. That is precisely why developing 
a new policy has been difficult--because we don't want to 
hinder the legitimate use of encryption, particularly for 
electronic commerce.
    During the past 3 years, through extensive consultations 
with the Congress, people at this table and many others in the 
industry, we have concluded, among other things, there is no 
one-size-fits-all solution; and we have put out a variety of 
revisions to our policy to try to address the many different 
aspects of encryption.
    Last September 22nd, we published a regulation implementing 
our decision to allow the export, under a license exception, of 
unlimited strength encryption to banks and financial 
institutions located in 46 countries, which allows U.S. 
companies new opportunities to sell encryption products to the 
world's leading economies.
    A week earlier, on September 16th, the Vice President 
unveiled an overall update to our policy that addresses a 
number of the concerns that were expressed today by opening 
large markets and further streamlining exports.
    That update permits the export of 128-bit encryption 
products and higher with or without key recovery to a number of 
industry sectors. Now banks, financial institutions, health 
facilities and on-line merchants can secure their sensitive 
financial, medical and on-line transactions in an electronic 
form. This update also allows U.S. companies to export 128-bit 
or greater encryption products, including technology to its 
subsidiaries located worldwide, to protect its proprietary 
information and to develop new products.
    Many of the updates permit the export of encryption to 
these end users under a license exception. That is, after a 
technical review it could be exported by manufacturers, 
resellers and distributors without the need for a license or 
other additional review.
    Our policy is to approve exports of strong encryption to a 
list of countries or a set of end users, rather than permit 
exports globally, to help protect national security interests. 
However, we do have a general policy of approval through 
encryption licensing arrangements, similar to bulk licenses, 
which allow unlimited shipments of strong encryption to these 
sectors worldwide.
    Furthermore, our update allows the export of 128-bit or 
greater recovery capable or recoverable encryption products 
under encryption licensing arrangements. Such products include 
those that are readily available in the marketplace, such as 
general purpose routers, firewalls and virtual private 
networks. These recoverable products are usually managed by a 
network or corporate security administrator.
    There has been some talk in the opening statements about 
our international efforts. In December, through the hard work 
of Ambassador Aaron, the President's special envoy, the 
Wassenaar Arrangement members agreed on several changes 
relating to encryption controls.
    Specific changes to multilateral encryption controls 
include removing multilateral controls on all encryption 
products at or below 56 bits and certain consumer items 
regardless of key length.
    Most importantly, the Wassenaar members agreed to remove 
encryption software from the General Software Note and replace 
it with a new Cryptography Note. Drafted in 1991, when banks, 
governments and militaries were the primary users of 
encryption, the General Software Note allowed countries to 
export mass market encryption software without restriction. 
That was created to release general purpose software on 
personal computers, but it inadvertently also released 
encryption. We believe it was essential to modernize the GSN 
and close that loophole. Under the cryptography note, mass 
market hardware has been added, and a 64-bit key length or 
below has been set as an appropriate threshold. This enables 
governments to review the dissemination of 64 bit and above 
encryption.
    Let me be clear, Mr. Chairman, this does not mean that 
encryption products of more than 64 bits cannot be exported. As 
I just said, our own policy permits that, as do the policies of 
most other Wassenaar members. It does mean there has to be a 
national review.
    Mr. Chairman, let me just say, with respect to H.R. 850, 
briefly, it will come as no surprise to you that the 
administration opposes this bill, as we did before; and my full 
statement goes into greater detail on that.
    Let me just say that we believe the bill in letter and 
spirit will destroy the balance we worked so hard to achieve. 
It would jeopardize our law enforcement and national security 
interests; and we believe that the best way to make progress on 
this issue is through further constructive dialog with the 
Congress, with the industry, and with its many customers.
    Thank you very much.
    [The prepared statement of William A. Reinsch follows:]
 Prepared Statement of William A. Reinsch, Under Secretary for Export 
                 Administration, Department of Commerce
    Thank you, Mr. Chairman, for the opportunity to testify on the 
direction of the Administration's encryption policy. We have made a 
great deal of progress since my last testimony before this Committee on 
this subject.
    Even so, encryption remains a hotly debated issue. The 
Administration continues to support a balanced approach which considers 
privacy and commerce as well as protecting important law enforcement 
and national security equities. We have been consulting closely with 
industry and its customers to develop a policy that provides that 
balance in a way that also reflects the evolving realities of the 
market place.
    The Internet and other digital media are becoming increasingly 
important to the conduct of international business. There were 43.2 
million Internet hosts worldwide last January compared to only 5.8 
million in January 1995. One of the many uses of the Internet which 
will have a significant effect on our everyday lives is electronic 
commerce. According to a recent study, the value of e-commerce 
transactions in 1996 was $12 million. The projected value of e-commerce 
in 2000 is $2.16 billion. To cite one example, travel booked on 
Microsoft's Website has doubled every year since 1997, going from 
500,000 to an estimated 2.2 million this year. Many service industries 
which traditionally required face-to-face interaction such as banks, 
financial institutions and retail merchants are now providing cyber 
service. Customers can now sit at their home computers and access their 
banking and investment accounts or buy a winter jacket with a few 
strokes of their keyboard.
    Furthermore, most businesses maintain their records and other 
proprietary information electronically. They now conduct many of their 
day-to-day communications and business transactions via the Internet 
and E-mail. An inevitable byproduct of this growth of electronic 
commerce is the need for strong encryption to provide the necessary 
secure infrastructure for digital communications, transactions and 
networks. The disturbing increase in computer crime and electronic 
espionage has made people and businesses wary of posting their private 
and company proprietary information on electronic networks if they 
believe the infrastructure may not be secure. A robust secure 
infrastructure can help allay these fears, and allow electronic 
commerce to continue its explosive growth.
    Developing a new encryption policy has been complicated because we 
do not want to hinder its legitimate use--particularly for electronic 
commerce; yet at the same time we want to protect our vital national 
security, foreign policy and law enforcement interests. We have 
concluded that the best way to accomplish this is to continue a 
balanced approach: to promote the development of strong encryption 
products that would allow lawful government access to plaintext under 
carefully defined circumstances; to promote the legitimate uses of 
strong encryption to protect confidentiality; and continue looking for 
additional ways to protect important law enforcement and national 
security interests.
    During the past three years, we have learned that there are many 
ways to assist in lawful access. There is no one-size-fits-all 
solution. The plans for recovery encryption products we received from 
more than sixty companies showed that a number of different technical 
approaches to recovery exist. In licensing exports of encryption 
products under individual licenses, we also learned that, while some 
products may not meet the strict technical criteria of our regulations, 
they are nevertheless consistent with our policy goals.
    Additionally, we learned that the use of strong non-recovery 
encryption within certain trusted industry sectors is an important 
component of our policy in order to protect private consumer 
information and allow our US high tech industry to maintain its lead in 
the information security market while minimizing risk to national 
security and law enforcement equities. Taking into account all that we 
have learned and reviewing international market trends and realities, 
in 1998 we made several changes to our encryption policy that I will 
summarize for you.
    On September 22, 1998, we published a regulation implementing our 
decision to allow the export, under a license exception, of unlimited 
strength encryption to banks and financial institutions located in 
countries that are members of the Financial Action Task Force or which 
have effective anti-money laundering laws. This regulation also allows 
exports, under a license exception, of encryption products that are 
specially designed for financial transactions. This policy recognizes 
the need to secure and safeguard our financial networks, and that the 
banking and financial communities have a history of cooperation with 
government authorities when information is required to combat financial 
and other crimes.
    As I mentioned earlier, we have been looking for ways to make our 
policy consistent with both market realities and national security and 
law enforcement concerns. For more than a year, the Administration has 
been engaged in a dialogue with U.S. industry, law enforcement, and 
privacy groups on how our policy might be improved to find technical 
solutions, in addition to key recovery, that can assist law enforcement 
in its efforts to combat crime. At the same time, we wanted to find 
ways to assure continued U.S. technology leadership, promote secure 
electronic commerce, and protect important privacy concerns. The 
purpose of this dialogue was to find cooperative solutions that could 
assist law enforcement while protecting national security, plus 
assuring continued U.S. technology leadership and promoting the privacy 
and security of U.S. firms and citizens in electronic commerce. We 
believed then and now that the best way to make progress on this issue 
is through a constructive, cooperative dialogue, rather than seeking 
legislative solutions. Through our dialogue, there has been increased 
understanding among the parties, and we have made progress.
    The result of this dialogue was an update to our encryption policy 
which Vice President Gore unveiled last September 16. The regulations 
implementing the update were published on December 31. This will not 
end the debate over encryption controls, but we believe the regulation 
addresses some private sector concerns by opening large markets and 
further streamlining exports.
    The update reduced controls on exports of 56-bit products and, for 
certain industry sectors, on exports of products of unlimited bit 
length, whether or not they contain recovery features. In developing 
our policy we identified key sectors that can form the basis of a 
secure infrastructure for communicating and storing information: banks, 
a broad range of financial institutions, insurance companies, on-line 
merchants, and health facilities. Many of the updates permit the export 
of encryption to these end-users under a license exception. That is, 
after the product receives a technical review, it can be exported by 
manufacturers, resellers and distributors without the need for a 
license or other additional review. Specifically, the new policy allows 
for:

<bullet> exports of 56-bit software and most hardware to any end user 
        under a license exception;
<bullet> exports of strong encryption, including technology, to U.S. 
        companies and their subsidiaries under a license exception to 
        protect important business proprietary information;
<bullet> exports of strong encryption to the insurance and medical/
        health sectors in 46 countries under a license exception for 
        use in securing proprietary medical and health information;
<bullet> exports of strong encryption to secure on-line transactions 
        between on-line merchants and their customers in 46 countries 
        under a license exception.
<bullet> ``recovery capable'' or ``recoverable'' encryption products of 
        any key length, such as the ``Doorbell'' products developed by 
        a number of companies, can now be approved under a kind of bulk 
        license called an ``encryption licensing arrangement'' to 
        recipients in located in 46 countries. Such products include 
        systems that are managed by a network or corporate security 
        administrator.
    I would note that these provisions apply to exports of products 
with or without key recovery features. One of the aspects of our policy 
update is to permit exports of strong encryption with or without key 
recovery to protect electronic commerce while also minimizing the risk 
to national security and law enforcement. For example, in some cases we 
have limited our approval policy to a list of countries or a set of end 
users, rather than permit exports on a global basis, to help protect 
national security interests.
    We have also expanded our policy to encourage the marketing of a 
wider variety of ``recoverable'' products that may not be key recovery 
in a narrow sense but which may be helpful to law enforcement acting 
pursuant to strict legal authorities. Again, these are typically 
systems managed by a network or corporate administrator. We also 
further streamlined exports of key recovery products by no longer 
requiring a review of foreign key recovery agents and no longer 
requiring companies to submit business plans.
    This past year, we also made progress on developing a common 
international approach to encryption controls through the Wassenaar 
Arrangement. Established in 1996 as the successor to COCOM, it is a 
multilateral export control arrangement among 33 countries whose 
purpose is to prevent destabilizing accumulations of arms and civilian 
items with military uses in countries or regions of concern. Wassenaar 
provides the basis for many of our export controls.
    In December, through the hard work of Ambassador David Aaron, the 
President's special envoy on encryption, the Wassenaar Arrangement 
members agreed on several changes relating to encryption controls. 
These changes go a long way toward increasing international security 
and public safety by providing countries with a stronger regulatory 
framework for managing the spread of robust encryption.
    Specific changes to multilateral encryption controls include 
removing multilateral controls on all encryption products at or below 
56 bit and certain consumer items regardless of key length, such as 
entertainment TV systems, DVD products, and on cordless telephone 
systems designed for home or office use.
    Most importantly, the Wassenaar members agreed to remove encryption 
software from Wassenaar's General Software Note and replace it with a 
new cryptography note. Drafted in 1991, when banks, government and 
militaries were the primary users of encryption, the General Software 
Note allowed countries to permit the export of mass market encryption 
software without restriction. The GSN was created to release general 
purpose software used on personal computers, but it inadvertently 
encouraged some signatory countries to permit the unrestricted export 
of encryption software. It was essential to modernize the GSN and close 
the loophole that permitted the uncontrolled export of encryption with 
unlimited key length. Under the new cryptography note, mass market 
hardware has been added and a 64-bit key length or below has been set 
as an appropriate threshold. This will result in government review of 
the dissemination of mass market software of up to 64 bits.
    I want to be clear that this does not mean encryption products of 
more than 64 bits cannot be exported. Our own policy permits that, as 
does the policy of most other Wassenaar members. It does mean, however, 
that such exports must be reviewed by governments consistent with their 
national export control procedures.
    Export control policies without a multilateral approach have little 
chance of success. Agreement, by the Wassenaar members, to close the 
loophole for mass market encryption products is a strong indication 
that other countries are beginning to share our public safety and 
national security concerns. Contrary to what many people thought two 
years ago, we have found that most major encryption producing countries 
are interested in developing a harmonized international approach to 
encryption controls.
    At the same time, we recognize that this is an evolutionary 
process, and we intend to continue our dialogue with industry. Our 
policy should continue to adapt to technology and market changes. We 
will review our policy again this year with a view toward making 
further changes. An important component of our review is input from 
industry, which we are receiving through our continuing dialogue.
    With respect to H.R.850, the Administration opposes this 
legislation as we did its predecessor in the last Congress. The bill 
proposes export liberalization far beyond what the Administration can 
entertain and which would be contrary to our international export 
control obligations. Despite some cosmetic changes the authors have 
made, the bill in letter and spirit would destroy the balance we have 
worked so hard to achieve and would jeopardize our law enforcement and 
national security interests. I defer to other witnesses to describe the 
impact of the bill on their equities, but let me describe two of its 
other problems
    First, I want to reiterate that this Administration does not seek 
controls or restraints on domestic manufacture or use of encryption. We 
continue to believe the best way to make progress on ways to assist law 
enforcement is through a constructive dialogue. As a result, we see no 
need for the statutory prohibitions contained in the bill. Second, once 
again we must take exception to the bill's export control provisions. 
In particular, the references to IEEPA as I understand them might have 
the effect of precluding controls under current circumstances and in 
any future situation where the EAA had expired, and the definition of 
general availability, as in the past, would preclude export controls 
over most software.
    In addition, whether intended or not, we believe the bill as 
drafted could inhibit the development of key recovery even as a viable 
commercial option for those corporations and end users that want it in 
order to guarantee access to their data. The Administration has 
repeatedly stated that it does not support mandatory key recovery, but 
we endorse and encourage development of voluntary key recovery systems, 
and, based on industry input, we see growing demand for them, 
especially corporate key recovery, that we do not want to cut off.
    The Administration does not seek encryption export control 
legislation, nor do we believe such legislation is needed. The current 
regulatory structure provides for balanced oversight of export controls 
and the flexibility needed so that it can continue to promote our 
economic, foreign policy and national security interests while 
adjusting to advances in technology. This is the best approach to an 
encryption policy that promotes secure electronic commerce, maintains 
U.S. lead in information technology, protects privacy, and protects 
public safety and national security interests.
    As this Committee knows better than most, public debate over 
encryption policy has been spirited. Many in the debate have had 
difficulty grasping different views or realizing that there is a middle 
ground. Our dialogue with industry has gone a long way toward bridging 
that gap and finding common ground. We will continue this policy of 
cooperative exchange, which is clearly the best way to pursue our 
policy objectives of balancing public safety, national security, and 
the competitive interests of US companies.

    Mr. Tauzin. Thank you.
    Mr. Reinsch, the reason--I will hear from all the 
witnesses, but if you have to leave before we get to it, one of 
the things that I want you to respond in writing to is, what 
will be the administration's position if the Ninth Circuit 
decision is upheld on that appeal, and how do you plan to 
respond to it? It is going to be a serious question.
    Mr. Reinsch. I can do that right now, Mr. Chairman.
    Mr. Tauzin. I don't want to interrupt. I want to get 
everybody in.
    And the other thing we may want more information on is more 
detail on why you think the draft of H.R. 850 inhibits the 
development of voluntary key recovery systems. We would like to 
understand that argument a little better.
    Mr. Tauzin. The Chair will now turn back to Mr. Lee for his 
testimony.

  STATEMENT OF HON. RONALD D. LEE, ASSOCIATE DEPUTY ATTORNEY 
                 GENERAL, DEPARTMENT OF JUSTICE

    Mr. Lee. Thank you, Mr. Chairman. I have prepared a written 
statement, and I will just try to summarize it here.
    The Department of Justice and law enforcement agree with 
the comments of several members and the Chair that strong 
encryption is coming. It is needed. It is needed to protect the 
privacy of American citizens. It is needed to promote the 
security of, and the confidence that the public places in, our 
information infrastructure.
    We would be remiss, however, if we did not also state our 
deep concern about the threat to public safety posed by the 
widespread use of encryption in the hands of criminals and 
terrorists. Law enforcement agencies, Federal, State and local 
here in the United States, and their counterparts in foreign 
countries, have already begun to encounter the use of 
encryption in attempts to conceal criminal activity.
    We believe that with the growth of encryption and the 
growth of digital media generally, the number and complexity of 
these cases will certainly increase as encryption becomes 
increasingly a feature of our lives.
    We must recognize the very real costs to public safety that 
the use of encryption by criminals poses. The net result is 
easy to state. Agents frequently will not be able to make 
effective use of search warrants, wiretap orders and other 
legal processes, authorized by Congress and ordered by the 
courts after searching review, that are essential to effective 
law enforcement investigations today. It will be harder and 
harder to investigate, to find evidence of criminal activity 
and to prosecute that activity.
    In the light of these challenges, the Department of Justice 
supports the carefully balanced approach to export controls 
that Secretary Reinsch laid out.
    The Attorney General, along with the Director of the 
Federal Bureau of Investigation and other government officials, 
has been engaging industry leaders in a continuing and 
cooperative dialog. This dialog has gone on at several levels; 
and it has provided us both with an opportunity to explain our 
public safety concerns and, just as importantly, perhaps more 
importantly for our learning curve, to learn about innovative 
solutions that industry has presented.
    Both we and industry have found the discussions to be 
candid and productive. We are committed to continuing those 
discussions. We believe that the current balanced approach is 
most conducive to continuing this dialog and these lines of 
communication.
    The rapid elimination of export controls as proposed in the 
Security and Freedom Through Encryption Act would upset this 
balance. We believe that passage of the SAFE Act would cause 
the further spread of robust encryption products that would be 
used by terrorist organizations and other criminals to conceal 
their activities and would frustrate the ability of law 
enforcement to conduct effective investigations.
    We realize that law enforcement has an obligation to 
develop its own resources to deal with this problem, as well as 
reaching out to others. We have begun initiatives such as the 
funding of a centralized technical resource within the FBI 
which will support Federal, State and local law enforcement 
personnel to develop a broad range of expertise, technologies 
and tools. These items will help us respond directly to the 
threat of public safety that the use of strong encryption 
poses. This resource will also help law enforcement stay 
abreast of current technology.
    We look forward with working with Congress, with 
Congressman Markey and others in discussing this topic so that 
law enforcement may continue its mission of protecting public 
safety into the future. We do have to explain, however, that no 
matter what technology, no matter what resources are developed, 
there is no silver bullet, there is no one solution that the 
administration and Congress can point to and say, this offers 
law enforcement what it needs. Widespread use of nonrecoverable 
encryption will quickly overwhelm any possible silver bullet 
that could be developed now or in the future.
    In light of that, we need to rely on the balanced approach 
that we are pursuing. This approach balances the need for 
secure, private communications with the equally important need 
to protect the safety of the public against threats from 
terrorists and criminals. We believe that our counterparts in 
foreign law enforcement share these concerns. We look forward 
to working with you on this important issue now and in the 
future.
    Thank you, Mr. Chairman.
    [The prepared statement of Ronald D. Lee follows:]
Prepared Statement of Ronald D. Lee, Associate Deputy Attorney General, 
                         Department of Justice
    Mr. Chairman, thank you for the opportunity to testify about the 
Department of Justice's views on export controls on encryption, and 
particularly the proposed Security and Freedom through Encryption 
(SAFE) Act, introduced by Mr. Goodlatte as H.R. 850. As you are aware, 
export controls on encryption is a complex and difficult issue that we 
are attempting to address with our colleagues throughout the 
Administration. In my testimony, I will first outline the basic 
perspective and recent initiatives of the Department of Justice on 
encryption issues, and will then discuss some specific concerns with 
the SAFE Act.
    The Department of Justice supports the spread of strong, 
recoverable encryption. Law enforcement's responsibilities and concerns 
include protecting privacy and commerce over our nation's 
communications networks. For example, we prosecute under existing laws 
those who violate the privacy of others by illegal eavesdropping, 
hacking or theft of confidential information. Over the last few years, 
the Department has continually pressed for the protection of 
confidential information and the privacy of citizens. Furthermore, we 
help protect commerce by enforcing the laws, including those that 
protect intellectual property rights, and that combat computer and 
communications fraud. (In particular, we help to protect the 
confidentiality of business data through enforcement of the recently 
enacted Economic Espionage Act.) Our support for robust encryption is a 
natural outgrowth of our commitment to protecting privacy for personal 
and commercial interests.
    But the Department of Justice protects more than just privacy. We 
also protect public safety and national security against the threats 
posed by terrorists, organized crime, foreign intelligence agents, and 
others. Moreover, we have the responsibility for preventing, 
investigating, and prosecuting serious criminal and terrorist acts when 
they are directed against the United States. We are gravely concerned 
that the proliferation and use of non-recoverable encryption by 
criminal elements would seriously undermine these duties to protect the 
American people, even while we favor the spread of strong encryption 
products that permit timely and legal law enforcement access to the 
plaintext of encrypted, criminally-related information.
    The most easily understood example is electronic surveillance. 
Court-authorized wiretaps have proven to be one of the most successful 
law enforcement tools in preventing and prosecuting serious crimes, 
including drug trafficking and terrorism. We have used legal wiretaps 
to bring down entire narcotics trafficking organizations, to rescue 
young children kidnaped and held hostage, and to assist in a variety of 
matters affecting our public safety and national security. In addition, 
as society becomes more dependent on computers, evidence of crimes is 
increasingly found in stored computer data, which can be searched and 
seized pursuant to court-authorized warrants. But if non-recoverable 
encryption proliferates, these critical law enforcement tools would be 
nullified. Thus, for example, even if the government satisfies the 
rigorous legal and procedural requirements for obtaining a wiretap 
order, the wiretap would be worthless if the intercepted communications 
of the targeted criminals amount to an unintelligible jumble of noises 
or symbols. Or we might legally seize the computer of a terrorist and 
be unable to read the data identifying his or her targets, plans and 
co-conspirators. The potential harm to public safety, law enforcement, 
and to the nation's domestic security could be devastating.
    I want to emphasize that this concern is not theoretical, nor is it 
exaggerated. Although use of encryption is still not universal, we have 
already begun to encounter its harmful effects. For example, in an 
investigation of a multi-national child pornography ring, investigators 
discovered sophisticated encryption used to protect thousands of images 
of child pornography that were exchanged among members. Similarly, in 
several major hacker cases, the subjects have encrypted computer files, 
thereby concealing evidence of serious crimes. In one such case, the 
government was unable to determine the full scope of the hacker's 
activity because of the use of encryption. The lessons learned from 
these investigations are clear: criminals are beginning to learn that 
encryption is a powerful tool for keeping their crimes from coming to 
light. Moreover, as encryption proliferates and becomes an ordinary 
component of mass market items, and as the strength of encryption 
products increases, the threat to public safety will increase 
proportionately.
    Export controls on encryption products have been in place for years 
and exist primarily to protect national security and foreign policy 
interests. The nation's intelligence gathering efforts often provide 
valuable information to law enforcement agencies relating to criminal 
or terrorist acts, and we believe that this capability cannot be lost. 
Nonetheless, U.S. law enforcement has much greater concerns about the 
use of non-recoverable encryption products by criminal elements within 
the United States that prevent timely law enforcement access to the 
plaintext of lawfully-seized encrypted data and communications relating 
to criminal or terrorist activity.
    The Department of Justice, and the law enforcement community as a 
whole, supports the use of encryption technology to protect data and 
communications from unlawful and unauthorized access, disclosure, and 
alteration. Additionally, encryption helps to prevent crime by 
protecting a range of valuable information over increasingly widespread 
and interconnected computer and information networks. At the same time, 
we believe that the widespread use of unbreakable encryption by 
criminal elements presents a tremendous threat to both public safety 
and national security. Accordingly, the law enforcement community 
supports the development and widespread use of strong, recoverable 
encryption products and services.
    The Department believes that encouraging the use of recoverable 
encryption products is an important part of protecting business and 
personal data as well as protecting public safety. In addition, this 
approach continues to find support among businesses and individuals 
that foresee a need to recover information that has been encrypted. For 
example, a company might find that one of its employees lost his 
encryption key, thus accidentally depriving the business of important 
and time-sensitive business data. Similarly, a business may find that a 
disgruntled employee has encrypted confidential information and then 
absconded with the key. In these cases, a plaintext recovery system 
promotes important private sector interests. Indeed, as the Government 
implements encryption in our own information technology systems, it 
also has a business need for plaintext recovery to assure that data and 
information that we are statutorily required to maintain are in fact 
available at all times. For these reasons, as well as to protect public 
safety, the Department has been affirmatively encouraging the voluntary 
development of data recovery products, recognizing that only their 
ubiquitous use will provide both protection for data and protection of 
public safety.
    Because we remain concerned with the impact of encryption on the 
ability of law enforcement at all levels of government to protect the 
public safety, the Department and the FBI are engaged in continuing 
discussions with industry in a number of different fora. These ongoing, 
productive discussions seek to find creative solutions, in addition to 
key recovery, to the dual needs for strong encryption to protect 
privacy and plaintext recovery to protect public safety and business 
interests. While we still have work to do, these dialogues have been 
useful because we have discovered areas of agreement and consensus, and 
have found promising areas for seeking compromise solutions to these 
difficult issues. While we do not think that there is one magic 
technology or solution to all the needs of industry, consumers, and law 
enforcement, we believe that by working with those in industry who 
create and market encryption products, we can benefit from the 
accumulated expertise of industry to gain a better understanding of 
technology trends and develop advanced tools that balance privacy and 
security.
    We believe that a constructive dialogue on these issues is the best 
way to make progress, rather than seeking export control legislation. 
Largely as a result of the dialogue the Administration has had with 
industry, significant progress was made on export controls. Recent 
updates were announced by Vice President Gore on September 16, 1998, 
and implemented in an interim rule, which was issued on December 31, 
1998. The Department of Justice supports these updates to export 
controls, which liberalized controls on products that have a bit length 
of 56-bits or less, and permit the export of unlimited-strength 
encryption to certain industry sectors, including medical facilities 
and banks, financial institutions, and insurance companies in most 
jurisdictions. These changes allow these sectors, which possess large 
amounts of highly personal information, to use products that will 
protect the privacy of their clients. We also expanded our policy to 
permit recoverable exports, such as systems managed by network 
administrators, to foreign commercial firms. We learned about these 
systems through our dialogue with industry, and they are largely 
consistent with the needs of law enforcement. In addition, the 
Department, in conjunction with the rest of the Administration, intends 
to continue our dialogue with industry, and will evaluate the export 
control process on an ongoing basis in order to ensure that the balance 
of interests remains fair to all concerned.
    At the same time, the Department of Justice is also trying to 
address the threat to public safety from the widespread use of 
encryption by enhancing the ability of the Federal Bureau of 
Investigation and other law enforcement entities to obtain the 
plaintext of encrypted communications. Among the initiatives is the 
funding of a centralized technical resource within the FBI. This 
resource, when fully established, will support federal, state, and 
local law enforcement in developing a broad range of expertise, 
technologies, tools, and techniques to respond directly to the threat 
to public safety posed by the widespread use of encryption by criminals 
and terrorists. It will also allow law enforcement to stay abreast of 
rapid changes in technology. Finally, it will enhance the ability of 
law enforcement to fully execute the wiretap orders, search warrants, 
and other lawful process issued by courts to obtain evidence in 
criminal investigations when encryption is encountered.
    The proposed Security and Freedom through Encryption Act raises 
several concerns from the perspective of the Department of Justice. 
First, we share the deep concern of the National Security Agency that 
the proposed SAFE Act would harm national security and public safety 
interests through the liberalization of export controls far beyond our 
current policy, and contrary to our international export control 
obligations. We are similarly concerned that a decontrol of unbreakable 
encryption will cause the further spread of robust encryption products 
to terrorist organizations and international criminals and frustrate 
the ability of law enforcement to combat these problems 
internationally.
    The second problem is that the Act may impede the development of 
products that could assist law enforcement to access plaintext even 
when also demanded by the marketplace. The Administration believes that 
the development of such products is important for a safe society. 
Unfortunately, to the extent that this provision would actually 
prohibit government from encouraging development of key management 
infrastructures and other similar technologies, the provision could 
preclude U.S. government agencies from complying with statutory 
requirements and would put public safety and national security at risk. 
For example, it might preclude the United States government from 
utilizing useful and appropriate incentives to use key recovery 
techniques. The government might not be able to require its own 
contractors to use key recovery or demand its use in the legally 
required storage of records regarding such matters as sales of 
controlled substances or firearms.
    It is also important to consider that our allies concur that 
unrestricted export of encryption poses significant risk to national 
security, especially to regions of concern. As recently as December 
1998, the thirty-three members of the Wassenaar Arrangement reaffirmed 
the importance of export controls on encryption for national security 
and public safety purposes and adopted agreements to enable governments 
to review exports of hardware and software with a 56-bit key length and 
above and mass-market products above 64 bits, consistent with national 
export control procedures. Thus, the elimination of U.S. export 
controls, as provided by the proposed Act, would severely hamper the 
international community's efforts to combat such international public 
safety concerns as terrorism, narcotics trafficking, and organized 
crime.
    In light of these factors, we believe that the Administration's 
more cautious balanced approach is the best way to protect our national 
interests, including a strong U.S. industry and promoting electronic 
commerce, while simultaneously protecting law enforcement and national 
security interests. We believe that legislation that eliminates all 
export controls on encryption could upset that delicate balance and is 
contrary to our national interests.
    The recent decision of the United States Court of Appeals for the 
Ninth Circuit in Daniel Bernstein v. United States Department of 
Justice and United States Department of Commerce has not changed our 
view that legislation eliminating export controls is contrary to our 
national interests. The Department of Commerce and the Department of 
Justice are currently reviewing the Ninth Circuit's decision in Daniel 
Bernstein v. United States Department of Justice and United States 
Department of Commerce, and we are considering possible avenues for 
further review, including seeking a rehearing of the appeal en banc in 
the Ninth Circuit. In the interim, the regulations controlling the 
export of encryption products remain in full effect.
    We as government leaders should embark upon the course of action 
that best preserves the balance long ago set by the Framers of the 
Constitution, preserving both individual privacy and society's interest 
in effective law enforcement. We should promote encryption products 
which contain robust cryptography but that also provide for timely and 
legal law enforcement plaintext access to encrypted evidence of 
criminal activity. We should also find ways to support secure 
electronic commerce while minimizing risk to national security and 
public safety. This is the Administration's approach. We look forward 
to working with this Subcommittee as it enters the markup phase of this 
bill.

    Mr. Tauzin. Thank you, Mr. Lee.
    I want to turn to Mr. Ed Gillespie, the Executive Director 
of Americans for Computer Privacy here in Washington, DC. Ed, 
for your testimony, sir.

 STATEMENT OF ED GILLESPIE, EXECUTIVE DIRECTOR, AMERICANS FOR 
                        COMPUTER PRIVACY

    Mr. Gillespie. Thank you, Mr. Chairman. Thank you for this 
opportunity to testify in support of H.R. 850, the SAFE act as 
sponsored by Representatives Goodlatte and Lofgren and 
cosponsored by a bipartisan support of over 250 Members of the 
House.
    I serve as Executive Director for Americans for Computer 
Privacy, a coalition of over 3,500 individuals, 40 trade 
associations, and over 100 companies representing financial 
services, manufacturing, high-tech and transportation 
industries, as well as law enforcement, civil-liberty, taxpayer 
and privacy groups. ACP supports policies that allow American 
citizens to continue using strong encryption without government 
intrusion and advocates the lifting of export restrictions of 
U.S.-made encryption products.
    We applaud the chairman and ranking member of this 
subcommittee and majority of members of the Commerce Committee 
who have cosponsored the bill and respectfully urge the 
subcommittee to report it without amendments for full committee 
consideration.
    ACP believes strong encryption is essential to protecting 
the Nation's infrastructure and ensuring the integrity----
    Is that mine or his?
    Mr. Tauzin. It is a very sophisticated--the technologically 
sufficient system that we are working on.
    Mr. Gillespie. We believe that strong encryption is 
essential to also ensuring the privacy of electronic 
communications of American citizens, businesses and 
organizations; protecting our long-term national security 
interests; safeguarding the public; and maintaining U.S. 
leadership in the development of information technology 
industries.
    The United States must have a clear and realistic national 
policy to assure that industry is able to develop the products 
that will help us to meet our national objectives.
    Traffic on the Internet doubles every 100 days. Predictions 
of business-to-business Internet commerce for the year 2000 
range from $66 billion to $171 billion; and, by 2002, 
electronic commerce between businesses is expected to reach 
$300 billion.
    Consumers worldwide demand to be able to protect their 
electronic information and interact securely, and access to 
products of strong encryption capability has been become 
critical to providing them with confidence that they will have 
this ability.
    Progress was made last year in the development of the 
administration's policy as announced by the Vice President in 
September and contained in the interim final regulations. ACP 
commends the government for the hard work and thoughtful 
consideration that went into the development of that policy and 
those regulations.
    However, the Clinton administration has yet to allow U.S. 
encryption manufacturers to compete on a level playing field in 
the global marketplace. The administration policy remains 
highly problematic and does not represent the clear and 
realistic national policy that this issue requires.
    Primarily, ACP believes that the export policy shortchanges 
our long-term national interest and that it puts at jeopardy 
our current global leadership in this vital technology. Strong 
high-quality encryption products are already widely available 
from foreign makers that renders our export policy and exercise 
in futility. We worry that America will lose this critical 
market to foreign makers. When and if it does, it will be too 
late to change U.S. policy and too late to preserve our 
leadership in this vital arena.
    There can be no doubt that U.S. national security 
objectives are best served by an information technology world 
in which U.S. companies are market leaders in all aspects, 
especially encryption. ACP's industrial members have ample 
evidence of the rapidly growing market share of foreign 
encryption and examples of U.S. businesses losing out to 
foreign manufacturers because of our U.S. export regulations.
    A 1997 study found that 656 non-American encryption 
products are available from 29 foreign countries. These 
encryption manufacturers are located as far from the United 
States as India and as close to our borders as Mexico. The 
products in the study were purchased via routine channels or 
directly from the foreign manufacturer or from a distributor.
    Strong encryption is also available for sale and for free 
on the Internet to anyone in the world with a computer. Here is 
just one example of how you can obtain strong encryption with 
just a few clicks: You can visit the international Pretty Good 
Privacy Site: www.pgpx.com. From that URL, anybody in the world 
can develop strong 128-bit encryption within 47 seconds. And 
because any citizen in the U.S. can download encryption legally 
from the Internet, the Internet makes controlling encryption 
exports a very difficult proposition.
    ACP strongly believes that our long-term national security 
objectives can only be achieved if the United States 
realistically acknowledges the inevitability of a world of 
ubiquitous, strong encryption. Trying to control the 
proliferation of encryption is like trying to control the 
proliferation of math. That is what we are talking here. 
Encryption algorithms are nothing more than sophisticated 
mathematics. And while the U.S. may realistically hope to 
remain the leader in such a field, it cannot realistically 
expect to monopolize it.
    ACP has advocated that the U.S. Government should work 
cooperatively with our Nation's hardware and software 
manufacturers to develop the technical tools and know-how to 
achieve a policy that effectively responds to society's needs 
for law enforcement, national security, critical infrastructure 
protection, privacy preservation and economic well-being. 
However, Congress must pass the SAFE act and establish a clear 
and realistic national policy on encryption. That is the best 
way to preserve U.S. leadership encryption technology upon 
which the successful protection of our critical infrastructure 
and achievement of national security objectives certainly and 
inevitably depends.
    Thank you again, Mr. Chairman; and I will look forward to 
your questions.
    [The prepared statement of Ed Gillespie follows:]
 Prepared Statement of Ed Gillespie, Executive Director, Americans for 
                            Computer Privacy
    Mr. Chairman and members of the Subcommittee, Thank you for the 
opportunity to testify before you on H.R. 850, the SAFE Act, sponsored 
by Representatives Goodlatte and Lofgren and cosponsored by a 
bipartisan group of over 250 House Members. I serve as Executive 
Director of Americans for Computer Privacy (``ACP''), a coalition of 
over 3,500 individuals, 40 trade associations and over 100 companies 
representing financial services, manufacturing, high-tech, and 
transportation industries as well as law enforcement, civil-liberty, 
taxpayer and privacy groups. ACP supports policies that allow American 
citizens to continue using strong encryption without government 
intrusion, and advocates the lifting of export restrictions of U.S. 
made encryption products.
    ACP strongly endorses enactment of the SAFE Act, and we appreciate 
the leadership provided by Representatives Goodlatte and Lofgren and 
the majority of members of the Commerce Committee who cosponsored the 
bill. We respectfully urge the subcommittee to report it without 
amendments for full committee consideration.
    As Vice President Gore said in September 1998 when he announced the 
current administration policy, developing a national encryption policy 
is one of the most difficult issues facing the country. It requires 
balancing many competing objectives--all of which are of great 
importance to the nation. As ACP has noted, strong encryption is 
essential to:

<bullet> Protecting the nation's infrastructure and assuring the 
        integrity of information;
<bullet> Ensuring the privacy of electronic communications of American 
        citizens, businesses and organizations;
<bullet> Protecting our national security interests;
<bullet> Safeguarding the public; and
<bullet> Maintaining U.S. leadership in the development of information 
        technology industry.
    As we move into the new millenium, information technology will play 
an increasingly important role in the way we govern ourselves, 
communicate among peoples, conduct commerce, and operate and protect 
our national infrastructure. Strong encryption is key to the continued 
vitality and growth of all these activities. Accordingly, the United 
States needs a clear and realistic national policy to assure that 
industry is able to develop the products that will help us to meet our 
national objectives.
    Traffic on the Internet doubles every 100 days. Predictions of 
business-to-business Internet commerce for the year 2000 range from $66 
billion to $171 billion, and by 2002, electronic commerce between 
businesses is expected to reach $300 billion. During 1997, one leading 
manufacturer of computer software and hardware sold $3 million per day 
online for a total of $1.1 billion for the year.
    More and more individual consumers also are going on-line and 
spending. More than 10 million people in North America alone have 
purchased something over the Internet and at least 40 million have 
obtained product and price information on the Internet only to make the 
final purchase off-line. Imagine the boost in volume of e-commerce if 
all of these consumers had enough confidence in the security of the 
Internet to purchase on-line.
    Consumers worldwide are demanding to be able to protect their 
electronic information and interact securely worldwide, and access to 
products with strong encryption capabilities has become critical to 
providing them with confidence that they will have this ability.
    Significant progress was made last year in the development of the 
Administration's policy announced by the Vice President in September 
and contained in the interim final regulations of December 31, 1998. 
ACP commends the government for the hard work and thoughtful 
consideration that went into the development of that policy and those 
regulations. Last year, ACP had several productive meetings with the 
Administration's inter-agency task force, including representatives 
from law enforcement and the Justice Department. Those meetings were 
conducted in good-faith on both sides and led to a greater 
understanding on both sides of the needs and concerns of the other. The 
Clinton Administration incorporated many of our interim recommendations 
into its updated export policy, including: export relief for encryption 
products that use symmetric algorithms up to and including 56-bits; 
products that use asymmetric algorithms up to and including 1024-bits; 
and relief for various sectors of the business community.
    The Clinton Administration, however, has yet to allow U.S. 
encryption manufacturers to compete on a level playing field in the 
global marketplace. The Administration policy remains highly 
problematic and does not represent the clear and realistic national 
policy that this issue requires.
    First, the Administration has entered into an agreement with 32 
other countries--the Wassenaar Arrangement--containing certain export 
controls on encryption. Unfortunately, the Administration's encryption 
export regulations impose greater restrictions on American companies 
than those called for under the arrangement. As a minimal interim step, 
we believe the Administration should at least eliminate all controls on 
encryption software and hardware for products up to 64-bits, and should 
eliminate all reporting requirements on higher- level encryption 
exports. Such actions would make U.S. controls consistent with the 
revised Wassenaar Arrangement.
    We also believe that the Administration's efforts to develop a 
global approach to this issue through the Wassenaar Arrangement are 
doomed to failure. We recognize that this is a global problem and if it 
were truly possible to achieve universal agreement that was fairly 
enforced, industry would no doubt be supportive. But Wassenaar only has 
33 members and does not include encryption-producing countries such as 
China, India, South Africa, or Israel. Further, the Administration 
should recognize that the Wassenaar Arrangement is only as effective as 
the implementing regulations adopted by the member countries. Some of 
the member nations will promulgate regulations that are less 
restrictive than those of the United States, thereby providing those 
nations with a competitive advantage over domestic encryption 
manufacturers. In short, the Wassenaar Arrangement is a toothless 
tiger.
    As an example, I would point to a December 6, 1998 New York Times 
article that highlights the difficulty the Wassenaar Arrangement has 
encountered in attempting to restrict sales of combat aircraft and 
tanks to Ethiopia and Uganda; clearly, the problems associated with 
Wassenaar would be compounded when attempting to restrict products that 
fit on a compact disk or can be sent over the Internet.
    Second, the Interim Rule falls short on a number of short-term 
points. For example, the Interim Rule does not fulfill the mandate 
promised by Vice President Gore on September 16 to allow all 56-bit 
encryption products to be eligible for export to all end-users (except 
terrorist states). In reality, the Interim Rule does not allow the 
export of 56-bit encryption chips, integrated circuits, toolkits, and 
executable or linkable modules for export under license exception 
except to U.S. subsidiaries.
    Further, the Interim Rule is so complex that a number of the 
benefits in the new policy are undermined by provisions of the Interim 
Rule. For example, the reporting requirements are so onerous to 
companies that reporting costs may exceed the price of some products, 
much less the profit. It is simply impractical to expect manufacturers 
to collect reporting data on mass-market encryption products. My 
personal experience is that I never return registration cards on coffee 
makers, answering machines, or software products--I expect most people 
in this room have similar experiences.
    We have made these points in a letter providing our official 
comments on the regulations to the Administration. However, the 
Administration's new policy, as grateful as we are for this limited 
progress, remains flawed even on its own terms.
    Beyond this, in the encryption debate in the larger sense, we 
continue to have good-faith disagreements with the Administration about 
its current policy, which Congress should address in this legislation.
    Primarily, ACP believes that the export policy short-changes our 
long-term national interest in that it puts at jeopardy our current 
global leadership in this vital technology. Strong, high-quality 
encryption products already are widely available from foreign makers. 
That renders our export policy an exercise in futility. We worry that 
America will lose this critical market to foreign makers. When and if 
it does, it will be too late to change U.S. policy and too late to 
preserve U.S. leadership in this vital arena.
    If we do lose that U.S. leadership position, what will that mean? 
It will mean that the national security agencies will be confronting 
ubiquitous encryption made not by U.S. companies, but by foreign 
companies. Where then will the national security agencies go for 
technical help on encryption, if the most sophisticated encryption 
experts and product-makers reside abroad? It will also mean that the 
protection of our critical national infrastructure may depend on 
foreign-made encryption--and that's unacceptable.
    We must retain leadership in this vital technology if we are to 
meet our long-term national security objectives. That is why we must 
assess our encryption export policies from a long-term, not a short-
term, perspective.
    In the long run, there can be no doubt that U.S. national security 
objectives are best served by an IT world in which U.S. companies are 
market leaders in all aspects, especially encryption. ACP's industrial 
members have ample evidence of the rapidly growing market share of 
foreign encryption and examples of U.S. businesses losing out to 
foreign manufacturers because of the U.S. export regulations. For 
example, a December 1997 study conducted by Trusted Information System 
found that 656 non-American encryption products are available from 29 
foreign countries. These encryption manufacturers are located as far 
from the U.S. as China and as close as Mexico. The products in the 
study were purchased via routine channels, either directly from the 
foreign manufacturer or from a distributor.
    RSA Data Security has lost business opportunities with major 
foreign conglomerates such as Lloyds TSB PLC, SAP AG, and Siemens Ag 
because of U.S. export control regulations. U.S. software companies 
estimate they have lost millions of potential users of their software 
due to the encryption regulations. ACP believes these foreign customers 
are purchasing strong, non-American encryption products. These foreign 
products are also of high quality and we do not accept the belief that 
these foreign entities are forgoing strong encryption just because they 
can't get American-made encryption.
    Further, foreign encryption manufacturers are marketing their 
products by using U.S. encryption regulations against American 
companies. For example, Baltimore Technologies, an Irish encryption 
manufacturer that President Clinton highlighted during his trip to 
Dublin last year, specifically points out the shortcomings of U.S. 
encryption products in the marketing of their product, WebSecure. The 
opening paragraph of its website states that the export versions of 
U.S. browsers ``are limited to 40 bits of encryption, which is not 
secure enough for most applications.'' In contrast, WebSecure provides 
128-bit encryption for ``real security.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Located at the following URL: www.baltimore.com/products/
websecure/index.html
---------------------------------------------------------------------------
    Strong encryption is also available for sale and for free on the 
Internet to anybody in the world with a computer. Here is just one 
example of the ease with which a person outside the United States can 
obtain strong encryption with a few clicks on their computer: They can 
visit the international Pretty Good Privacy site: www.pgpi.com. From 
that URL, anybody in the world can download strong, 128-bit encryption 
within 47 seconds. And because any citizen in the U.S. can download 
encryption legally from the Internet, and anyone in the world with a 
computer has access to the Internet, the Internet makes controlling 
encryption exports a very difficult proposition.
    ACP also believes it is vital to our national interests that our 
critical infrastructure is secure and we praise President Clinton for 
recognizing this vulnerability in his speech earlier this year. We 
wish, however, that the President recognized the importance that strong 
encryption produced by U.S. high technology companies plays in 
protecting our infrastructure. How does the United States protect its 
critical infrastructure? With strong encryption, that's how. And the 
current export controls are threatening the health of the very industry 
in which the protection of our critical infrastructure relies.
    We do not believe we have all the answers to questions about 
national security, but ACP strongly believes that our long term 
national security objectives can only be achieved if the United States 
realistically acknowledges the inevitability of a world of ubiquitous, 
strong encryption. Trying to control the proliferation of encryption is 
like trying to control the proliferation of mathematics. For that is 
what we are talking about here. Encryption algorithms are nothing but 
sophisticated mathematics. And while the United States may 
realistically hope to remain the leader in such a field, it cannot 
realistically expect to monopolize it.
    We are joined in this view by the Center for Strategic and 
International Studies (``CSIS''). CSIS recently conducted a study of 
our nation's technical vulnerabilities; the study was chaired by 
William Webster, the former director of the FBI and Central 
Intelligence and former U.S. Circuit Judge. The subsequent report, 
entitled Cybercrime . . . Cyberterrorism . . . Cyberwarfare . . . 
Averting an Electronic Waterloo, calls for the ``intelligence gathering 
communities--law enforcement and foreign intelligence--to examine the 
implications of the emerging environment and alter their traditional 
sources and means to address the SIW [strategic information warfare] 
needs of the twenty-first century. Continued reliance on limited 
availability of strong encryption without the development of 
alternative sources and means will seriously harm law enforcement and 
national security.''
    For instance, ACP proposed last year the creation of a ``NET 
Center'' (and, since then, ``Tech Center'' has been created) to help 
law enforcement officials understand how to deal with encryption and 
other technological advances when encountered in a criminal setting. We 
have been cooperating with law enforcement agencies on these projects 
in an educational sense, and we are pleased with the development of 
this forward-thinking strategy.
    On the national security side, Senator Bob Kerrey recently 
suggested that (1) the President should convene a public-private panel 
to examine the implications of this new technological age for our 
national security, and (2) the creation of a new national laboratory 
for information technology to perform research and to act as a forum 
for further discussions on technological breakthroughs. These views may 
deserve further exploration, and ACP wants to play a leading role in 
crafting industry cooperation.
    ACP wishes to emphasize that it recognizes a legitimate 
governmental need to obtain access to the plain text of communications 
when authorized by proper legal authority. ACP and its members are 
responsible citizens of the nation and the globe and have no wish to 
facilitate the commission of crime, the spread of terrorism or the 
acquisition and delivery of weapons of mass destruction. Similarly, we 
are committed to strengthening the nation's infrastructure, enhancing 
the privacy of American citizens and ensuring the security of 
electronic commerce. We believe that these sometimes competing 
objectives can be met, but only if government does not seek to force 
solutions on the industry that are not compatible with the development 
of technology and market demands.
    ACP has advocated that the U.S. Government should work 
cooperatively with our nation's hardware and software manufacturers to 
develop the technical tools and know-how to achieve a policy that 
effectively responds to society's needs for law enforcement, national 
security, critical infrastructure protection, privacy preservation, and 
economic well-being.
    I would also like to point out that earlier this month, the Ninth 
Circuit Court of Appeals upheld a district court ruling in Bernstein v. 
U.S. Department of Justice which found that the export controls at 
issue here are an unconstitutional prior restraint on speech. The 
Appeals Court affirmed the lower court's decision, and concluded that 
the Government's policy on encryption unconstitutionally burdens speech 
because it ``applies directly to scientific expression, vests boundless 
discretion in government officials, and lacks adequate procedural 
safeguards.''
    The Ninth Circuit Court of Appeals also found, ``In this 
increasingly electronic age, we are all required in our everyday lives 
to rely on modern technology to communicate with one another. This 
reliance on electronic communication, however, has brought with it a 
dramatic diminution in our ability to communicate privately. Cellular 
phones are subject to monitoring, email is easily intercepted, and 
transactions over the internet are often less than secure. Something as 
commonplace as furnishing our credit card number, social security 
number, or bank account number puts each of us at risk. Moreover, when 
we employ electronic methods of communication, we often leave 
electronic ``fingerprints'' behind, fingerprints that can be traced 
back to us. Whether we are surveilled by our government, by criminals, 
or by our neighbors, it is fair to say that never has our ability to 
shield our affairs from prying eyes been at such a low ebb. The 
availability and use of secure encryption may offer an opportunity to 
reclaim some portion of the privacy we have lost. Government efforts to 
control encryption thus may well implicate not only the First Amendment 
rights of cryptographers intent on pushing the boundaries of their 
science, but also the constitutional rights of each of us as potential 
recipients of encryption's bounty. Viewed from this perspective, the 
government's efforts to retard progress in cryptography may implicate 
the Fourth Amendment, as well as the right to speak anonymously, see 
McIntyre v. Ohio Elections Comm'n, 115 S. Ct. 1511, 1524 (1995) , the 
right against compelled speech, see Wooley v. Maynard, 430 U.S. 705, 
714 (1977), and the right to informational privacy, see Whalen v. Roe, 
429 U.S. 589, 599-600 (1977).''
    In closing, Secretary of Defense William Cohen gave a speech at 
Microsoft earlier this year in which he stated: ``To maintain peace and 
stability in this uncertain world, we have mapped out a strategy 
defined by three words: Shape, Respond, Prepare.'' ACP and its member 
companies are willing to do our part in helping the Government prepare 
for an uncertain 21st century, and we look forward to working with the 
Government on these projects.
    However Congress must pass the SAFE Act and establish a clear and 
realistic national policy on encryption. That is the best way to 
preserve U.S. leadership in encryption technology, upon which the 
successful protection of our critical infrastructure and achievement of 
our national security objectives certainly and inevitably depend.

    Mr. Tauzin. Thank you, Mr. Gillespie.
    We are now pleased to recognize the Honorable Barbara 
McNamara, Deputy Director, National Security Agency. I want to 
tell how pleased we are that you grace this hearing. We thought 
NSA folks were all in dark suits and dark glasses, and you look 
great today. Thanks for being here.

    STATEMENT OF HON. BARBARA A. MCNAMARA, DEPUTY DIRECTOR, 
                    NATIONAL SECURITY AGENCY

    Ms. McNamara. Thank you very much, I am glad I can lighten 
your life. Thank you for the opportunity to appear before you 
today. And you do have my statement for the record.
    Mr. Tauzin. Yes, ma'am.
    Ms. McNamara. NSA plays a critical role in our national 
security. We as an agency have two missions. One is to ensure 
that the U.S. Government communications are secure and 
protected against prosecution by foreign hostile services. For 
that mission and that mission alone, we could support and do 
support a very strong U.S. industry in order to provide that 
service to the U.S. Government.
    But we also have another mission, and that other mission is 
the one that I would like to speak to you today about. It is a 
mission to provide foreign intelligence to the U.S. Government 
and policy makers and military commanders. We have a 
responsibility and do intercept and analyze the communication 
signals of foreign adversaries to produce critically unique and 
actionable intelligence reports for our national leaders and 
military commanders.
    Very often time is of the essence. Intelligence is, first 
and foremost, perishable. It is worthless if we cannot get it 
to the decisionmakers in time to make a difference.
    Signals intelligence proved its worth in World War II. The 
United States broke the Japanese naval code and learned of 
their plans to invade Midway Island, significantly aided the 
U.S. defeat of the Japanese fleet and helped shorten the war.
    Today, NSA provides exactly that same service to U.S. 
forces and coalition forces operating today in the Balkans. We 
have that responsibility to perform that support to our troops 
wherever it is that they operate in the world. Demands on NSA 
for timely intelligence support have only grown since the 
breakup of the Soviet Union and have expanded into national 
security areas of terrorism, weapons proliferation, and 
narcotics trafficking.
    Currently, many of the world's communications are 
unencrypted. And let me address, Congressman Sawyer's comments 
about the genie being out of the bottle. We acknowledge that 
there is strong encryption out there. In fact, my colleague 
here on my right addressed PGP. It is out there. But it is not 
being used broadly, and we know it is not being used broadly 
because that is our business. It is out there, it is not being 
used broadly and will not be used until a global security 
management infrastructure allows it to be used commonly across 
international borders.
    If not controlled, encryption will spread and be widely 
used by foreign adversaries that have traditionally relied upon 
unencrypted communications. As a result, much of the crucial 
information we are able to provide today could quickly become 
unavailable to U.S. decisionmakers. The SAFE Act mandates the 
immediate decontrol of most encryption exports which will 
greatly complicate our mission because it will take too long to 
decrypt a message if, indeed, we can decrypt it at all and 
respond to our global mission.
    The bill would also prevent us from conducting a meaningful 
review of a proposed encryption export. These reviews provide 
us with valuable insight into what is being exported, to whom 
and for what purpose.
    Congressman Oxley and Mr. Reinsch addressed the 
liberalization that occurred last year on the part of the 
administration, and Mr. Reinsch also addressed the 
international agreement.
    Let me say in answer to your statement, Mr. Chairman, that 
what about--or your question--what about the other sectors that 
are not addressed in the liberalization that occurred last 
year? We do not automatically deny export of strong products to 
anyone. In fact, sectors of nations--we have approved export of 
very strong encryption products to areas of the world that are 
not part of the sectors that Mr. Reinsch described.
    It is not automatic denial. We view them all in an 
individual licensed approach. So I would just like to put that 
statement on the record.
    In summary, the SAFE act will harm national security by 
making NSA's job of providing critical actionable intelligence 
to our leaders and military commanders difficult, if not 
impossible, thus putting our Nation's national security at 
considerable risk. The United States cannot have an effective 
decisionmaking process or a strong fighting force or a 
responsive law enforcement community or a strong counter- 
terrorism capability unless the information required to support 
them is available in time to make a difference.
    Let me close by taking advantage of Mr. Oxley's statement 
earlier. I would be more than pleased to talk in more detail in 
a classified hearing.
    [The prepared statement of Hon. Barbara A. McNamara 
follows:]
 Prepared Statement of Barbara A. McNamara, Deputy Director, National 
                            Security Agency
    Mr. Chairman, thank you for giving me the opportunity today to 
discuss the important issue of encryption. I will be discussing the 
national security needs for export controls on encryption and why we 
oppose legislation that would effectively lift those controls. I will 
then address specific concerns NSA has with provisions of the SAFE Act. 
However, I would like to begin by briefly introducing the National 
Security Agency (NSA) and its mission.
    The National Security Agency was founded in 1952 by President 
Truman. As a separately organized agency within the Department of 
Defense, NSA provides signals intelligence to a variety of users in the 
Federal Government and secures information systems for the Department 
of Defense and other U.S. Government agencies. NSA was designated a 
Combat Support Agency in 1988 by the Secretary of Defense in response 
to the Goldwater-Nichols Department of Defense Reorganization Act.
    The ability to understand the secret communications of our foreign 
adversaries while protecting our own communications--a capability in 
which the United States leads the world--gives our nation a unique 
advantage. The key to this accomplishment is cryptology, the 
fundamental mission and core competency of NSA. Cryptology is the study 
of making and deciphering codes, ciphers, and other forms of secret 
communications. NSA is charged with two complementary tasks in 
cryptology: first, exploiting foreign communications signals and 
second, protecting the information critical to U.S. national security. 
By ``exploitation,'' I am referring to signals intelligence, or the 
process of deriving important intelligence information from foreign 
communications signals; by ``protection'' I am referring to providing 
security for information systems. Maintaining this global advantage for 
the United States requires preservation of a healthy cryptologic 
capability in the face of unparalleled technical challenges.
    It is the signals intelligence (SIGINT) role that I want to address 
today. Our principal responsibility is to ensure a strong national 
security environment by providing timely information that is essential 
to critical military and policy decision making. NSA intercepts and 
analyzes the communications signals of our foreign adversaries, many of 
which are guarded by codes and other complex electronic 
countermeasures. From these signals, we produce vital intelligence 
reports for national decision makers and military commanders. Very 
often, time is of the essence. Intelligence is perishable; it is 
worthless if we can not provide it in time to make a difference in 
rendering vital decisions.
    For example, SIGINT proved its worth in World War II when the 
United States broke the Japanese naval code and learned of their plans 
to invade Midway Island. This intelligence significantly aided the U.S. 
defeat of the Japanese fleet. Subsequent use of SIGINT helped shorten 
the war. NSA continues today to provide vital intelligence to the 
warfighter and the policy maker in time to make a difference for our 
nation's security. Demands on us in this arena have only grown since 
the break-up of the Soviet Union and have expanded to address other 
national security threats such as terrorism, weapons proliferation, and 
narcotic trafficking, to name a few.
    Because of these growing serious threats to our national security, 
care must be taken to protect our nation's intelligence equities. 
Passage of legislation that immediately decontrols the export of strong 
encryption will significantly harm NSA's ability to carry out our 
mission and will ultimately result in the loss of essential 
intelligence reporting. This will greatly complicate our exploitation 
of foreign targets and the timely delivery of intelligence to decision 
makers because it will take too long to decrypt a message--if indeed we 
can decrypt it at all.
    Today, many of the world's communications are unencrypted. 
Historically, encryption has been used primarily by governments and the 
military. It was employed for confidentiality in hardware-based systems 
and was often cumbersome to use. As encryption moves to software-based 
implementations and the infrastructure develops to provide a host of 
encryption-related security services, encryption will spread and be 
widely used by other foreign adversaries that have traditionally relied 
upon unencrypted communications. The immediate decontrol of encryption 
exports would accelerate the use of encryption by many of these 
adversaries and as a result, much of the crucial information we are 
able to gather today could quickly become unavailable to us. Immediate 
encryption decontrol will also deprive us of the opportunity to conduct 
a meaningful review of encryption products prior to their export. In 
the past, this review process has provided us with valuable insight 
into what is being exported, to whom, and for what purpose. Without 
this review and the ability to deny an export application, it will be 
impossible to control exports of encryption to individuals and 
organizations that threaten the United States. For instance, immediate 
decontrol will undermine international efforts to prevent terrorist 
attacks, and catch terrorists, drug traffickers, and proliferators of 
weapons of mass destruction.
    Please do not confuse the needs of national security with the needs 
of law enforcement. The two sets of interests and methods vary 
considerably and must be addressed separately. The law enforcement 
community is primarily concerned about the use of non-recoverable 
encryption by persons engaged in illegal activity. At NSA, we are 
primarily focused on preserving export controls on encryption to 
protect national security.
    While our mission is to provide intelligence to help protect the 
country's security, we also recognize that there must be a balanced 
approach to the encryption issue. The interests of industry and privacy 
groups, as well as of the Government, must be taken into account. 
Encryption is a technology that will allow our citizens to fully 
participate in the 21st Century world of electronic commerce. It will 
enhance the economic competitiveness of U.S. industry. It will combat 
unauthorized access to private information and it will deny adversaries 
from gaining access to U.S. information wherever it may be in the 
world.
    To promote this balanced approach, we are engaged in an ongoing and 
productive dialogue with industry. The recent Administration update to 
the export control regulations addresses many industry concerns and has 
significantly advanced the ability of U.S. vendors to participate in 
overseas markets. Of equal significance, the Wassenaar nations, 
representing most major producers and users of encryption, agreed 
unanimously in December 1998 to control strong hardware and software 
encryption products. The Wassenaar Agreement clearly shows that other 
nations agree that a balanced approach is needed on encryption policy 
and export controls so that commercial and national security interests 
are addressed. Both are positive developments because they open new 
opportunities for U.S. industry while still protecting national 
security. These are examples of the kinds of advances possible under 
the current regulatory structure, which provides greater flexibility 
than a statutory structure to adjust export controls as circumstances 
warrant in order to meet the needs of Government and industry. We want 
U.S. companies to effectively compete in world markets. In fact, it is 
something we strongly support as long as it is done consistently with 
national security needs. NSA supports the recent updates to the 
Administration's policy. The export provisions were carefully designed 
to open up large commercial markets while trying to minimize potential 
risk to national security. We believe significant progress was made.
    As you review the SAFE Act, it is very important that you 
understand the significant effect certain provisions of this bill will 
have on national security. If enacted, the bill would effectively 
decontrol most commercial computer software encryption and specified 
hardware encryption exports to all destinations, even regions of 
instability. It would also deprive the Government of the opportunity to 
conduct a meaningful review of a proposed export to assure it is 
compatible with U.S. national security interests and would also 
eliminate the ability to deny an export application if national 
security concerns are not adequately addressed.
    The bill would permit exports of encryption based on products that 
are permitted to be exported for foreign financial institutions. The 
criteria for exporting encryption to these institutions should not be 
the basis for decontrolling other encryption exports. Allowing 
favorable treatment for specific classes of end-users may be 
appropriate in cases such as those involving banks and other financial 
institutions which are well regulated and have a good record of 
providing access to lawful requests for information. Requiring the 
blanket approval of exports to all other end-users in a country would 
eliminate important national security end-use considerations for these 
exports.
    In summary, the SAFE Act will harm national security by making 
NSA's job of providing vital intelligence to our leaders and military 
commanders difficult, if not impossible, thus putting our nation's 
security at some considerable risk. Our nation cannot have an effective 
decision-making process, a strong fighting force, a responsive law 
enforcement community, or a strong counter-terrorism capability unless 
the intelligence information required to support them is available in 
time to make a difference. The nation needs a balanced encryption 
policy that allows U.S. industry to continue to be the world's 
technology leader, but that policy must also protect our national 
security interests.
    Thank you for the opportunity to address the Subcommittee and I 
would be happy to answer any questions you may have.

    Mr. Tauzin. And we have noted Mr. Oxley's request, and we 
will probably give you that opportunity, Mrs. McNamara.
    We are pleased now to welcome Mr. Richard Hornstein, the 
General Counsel of Network Associates, Inc. of Santa Clara, 
California.
    Mr. Hornstein.

   STATEMENT OF RICHARD HORNSTEIN, GENERAL COUNSEL, NETWORK 
                        ASSOCIATES, INC.

    Mr. Hornstein. Good morning.
    My name is Richard Hornstein. I am the General Counsel of 
Network Associates. We are the world's leading provider of 
security products, software products. We are based in Santa 
Clara, California. Last year, Network Associates did 
approximately $1 billion of revenue. We have 2,700 employees 
worldwide, and we have offices located in 30 countries 
throughout the world.
    I am also here to speak on behalf of the Business Software 
Alliance, the BSA. The BSA's members include, among others, 
Adobe, Lotus Development and Microsoft.
    We would like to thank you, Mr. Chairman, as well as 
ranking member Mr. Markey, for your strong support in this and 
previous Congresses. We also want to thank the other 19 
subcommittee members who are among the approximately 253 
cosponsors of the SAFE act.
    You may not know what Network Associates is. We were just 
recently born about a year ago through a merger of several 
companies, but probably you do know our products. Our products 
include Virus Scan, an antivirus product; Pretty Good Privacy, 
or PGP, an encryption, virtual private network; PKI products; 
Gauntlet firewall, that product is used by the NSA; Cybercop, 
which is an intrusion detection product.
    These products we sell as individual point products, and we 
also sell them as an integrated suite. We look to providing to 
our customers solutions for their needs, and more and more our 
customers are demanding comprehensive solutions for their 
corporate needs.
    If I can give you an example of how these products work. If 
you look upon a corporation as a village and if the village is 
going to need around it a castle wall to protect it, that will 
be a firewall. They would need soldiers to travel inside around 
the castle patrolling, checking I.D., making sure people aren't 
going where they are supposed to. That would be intrusion 
protection.
    When the king needs to travel from his castle, travel 
across the countryside and go visit another castle, that will 
be either a virtual private network of communication or an 
encrypted E-mail message. I mean, this is in simplistic forms, 
really, what we are talking about here.
    What I am looking at right now is, for us to grow as a 
company, we need to grow on a global basis. The time to market 
for our products is today. Our customers right now are looking 
for answers and solutions for us to provide today.
    Foreign companies out there with comparable products are 
out there selling to our customers, the customers who buy Virus 
Scan today. Checkpoint, an Israeli company, is selling firewall 
products on a worldwide basis. They have $150 million of 
revenue.
    Baltimore Technologies, my counterpart is sitting down 
here, which is the UK Irish company, is selling virtual private 
networks and encryption products. They are a serious threat to 
our viability as an entity.
    What I would like to do is give you a couple of examples of 
some deals that right now that we are looking at and 
questioning whether or not we actually will be able to get 
these deals.
    One is with a company called DaimlerChrysler. It is a 
German company that is a major worldwide automaker. They also 
are a major U.S. company through their acquisition of Chrysler 
Motors. They are a customer of mine from the past because they 
lead license Virus Scan.
    There is a seven-figure deal on the table today to license 
by a pretty good privacy PGP product. However, in competing on 
the bid on this product, on the sale of this product, I am up 
against a company called Eudomoako. Eudomoako is a German 
software security company. They did $35 million last year in 
revenue, and they are going rapidly right now all throughout 
Europe.
    Right now, DaimlerChrysler, as I understand it in 
discussions with my sales folks, is stating that, yes, I can 
get your product, but I can't support--under the current rules, 
any sort of support that will be necessary for such a deal, 
hundreds of thousands of nodes today being sold to this 
customer, hundreds of thousands of nodes, would require 
technical support across the network. The only people 
appropriate to give such support are my engineers back in Santa 
Clara. They could not communicate with the German MIS 
departments without violating the technical assistance rules, 
exposing us to economic penalties and potential criminal 
sanctions.
    A similar deal is for a company called Robert Bosch. This 
is an equipment company based out of Switzerland. Tens of 
thousands of nodes, six-figure deal, and I am in jeopardy of 
losing them to a company called Ascom, which is a billion 
dollar revenue Swiss hardware and software security company 
which is making inroads in the growing market.
    Once these products are sold by our foreign competitors, it 
is like plumbing. You can't pull them out of the house. They 
are not going to replace me if in 2 or 3 years we liberalize 
these rules.
    A third example is a company called Orient Overseas 
Container Line. This is a Pac Rim company. There, again, 
another company of mine that uses Virus Scan. This is, again, 
another six-figure deal.
    I am up against in that transaction with Checkpoint, an 
Israeli company that sells a firewall--world-class firewall 
product and a VPN solution; and they are also bundling in the 
PKI Search Server, which is a Canadian product.
    In speaking with my salesperson, as I understand it, Orient 
Overseas is not probably going to buy our product. Why? 
Because, in marketing, Checkpoint is looked to be the world 
leader. They are an Israeli company, and they are looked to be 
a dominant of 50 percent of the Pac Rim's market on firewalls 
and VPN products, virtual private networks.
    Also, because of their VPN product or at least the network 
product has to be registered when such sales are made with the 
U.S. Government, the privacy concerns of my foreign customers 
are violated, and they don't want to buy my products because 
they don't to have a product that is being registered with any 
foreign government.
    In closing, I would like to thank you for allowing me to 
speak here at this proceeding. I would like to thank you for--
those of you for supporting the SAFE act. I can be available 
for any questions at your leisure.
    Thank you very much.
    [The prepared statement of Richard Hornstein follows:]
   Prepared Statement of Richard Hornstein, Vice President of Legal 
  Affairs, Taxation and Corporate Development, Network Associates On 
                Behalf Of The Business Software Alliance
                              introduction
    Good Morning. My name is Richard Hornstein, and I am Vice President 
of Legal Affairs, Taxation and Corporate Development at Network 
Associates, Inc., at its headquarters in Santa Clara, California. 
Network Associates, Inc., is the leading independent worldwide supplier 
of enterprise-wide network security and management software. The array 
of security products offered by Network Associates includes: PGP e-mail 
and file (the leading e-mail encryption product providing secure 
encrypted communications for over six million users worldwide), the 
Gauntlet firewall (one of the leading commercial software firewall 
products originally developed for use by the NSA), PGP VPN (a 
revolutionary new Internet desktop communication product allowing users 
to communicate securely over the Internet distributing audio, video and 
text information on a secure encrypted channel across the Internet), 
and Cybercop (an intrusion software product which protects the computer 
network from internal/external intruders).
    I greatly appreciate the opportunity to appear today before this 
Committee on behalf of Network Associates and the Business Software 
Alliance (BSA). Since 1988, BSA has been the voice of the world's 
leading software developers before governments and with consumers in 
the international marketplace. BSA promotes the continued growth of the 
software industry through its international public policy, education 
and enforcement program in 65 countries throughout North America, 
Europe, Asia and Latin America. Its members represent the fastest 
growing industry in the world. BSA worldwide members include Adobe, 
Attachmate, Autodesk, Bentley Systems, Corel Corporation, Lotus 
Development, Macromedia, Microsoft, Network Associates, Novell, 
Symantec and Visio. Additional members of BSA's Policy Council include 
Apple Computer, Compaq, Intel, Intuit and Sybase. BSA websites: 
www.bsa.org; www.nopiracy.com.
    But we really are here today to speak on behalf of the tens of 
millions of users of American software and hardware products. The 
American software and hardware industries have succeeded because we 
have listened and responded to the needs of computer users worldwide. 
We develop and sell products that users want and for which they are 
willing to pay.
    One of the most important features computer users are demanding is 
the ability to protect their electronic information and to interact 
securely worldwide. American companies have innovative products which 
can meet this demand and compete internationally. But there is one 
thing in our way--the continued application of overbroad, unilateral, 
export controls by the U.S. Government.
    The Security and Freedom through Encryption (SAFE) Act, H.R. 850, 
modernizes U.S. export laws regarding software and hardware with 
encryption capabilities to permit American companies to compete on a 
level international playing field and to provide computer users with 
their choice of adequate protection for their confidential information 
and critical infrastructures.
    For these reasons, BSA strongly supports the SAFE Act. We urge the 
Committee to report the SAFE Act unamended and look forward to its 
passage by the House this year.
    We want to thank both you, Mr. Chairman, as well as Ranking Member 
Mr. Markey, for your strong support in this and previous Congresses. We 
also want to thank the 19 other Subcommittee members who are among the 
253 cosponsors of the SAFE Act.
    This morning I want to make four points:

<bullet> The worldwide standard is 128-bit encryption;
<bullet> Mass market software and hardware is uncontrollable;
<bullet> U.S. manufacturers face unnecessarily a significant 
        competitive disadvantage; and
<bullet> BSA strongly supports the SAFE Act because without relaxation 
        of export controls, our critical infrastructures remain at 
        risk. The inevitable result of the Administration's current 
        policy will be widespread deployment, not of weak American 
        software and hardware, but of foreign designed and manufactured 
        strong encryption software and hardware throughout our 
        infrastructures both in America and abroad.
   widespread deployment of encryption is not only desirable, it is 
                                critical
Secure Networks And Confidential Information In The Internet Age Are 
        The Key To Privacy And Commerce
    American individuals and companies are rapidly becoming networked 
together through private local area networks (LANs), wide area networks 
(WANs) and public networks such as the Internet. Combined, these 
private and public networks are the economic engine driving electronic 
commerce, transactions and communications. This engine is being choked 
by the lack of availability of strong encryption products.
    Traffic on the Internet doubles every 100 days. Predictions of 
business-to-business Internet commerce for the year 2000 range from $66 
billion to $171 billion, and by 2002, electronic commerce between 
businesses is expected to reach $300 billion. During 1997, one leading 
manufacturer of computer software and hardware sold $3 million per day 
online for a total of $1.1 billion for the year.
    More and more individual consumers also are going on line and 
spending. Five years from today, we anticipate nearly 60 percent of all 
Americans to be using the Internet. More than 10 million people in 
North America alone have already purchased something over the Internet, 
and at least 40 million have obtained product and price information on 
the Internet only to make the final purchase off-line. Altogether last 
year, consumers spent nearly $8 billion online. Nearly 1.5 million 
Americans join the online population every month, and the number of 
worldwide online users is expected to reach 248 million by 2002.
    The incredible participation by American consumers in the Internet 
phenomenon clearly demonstrates that the need for strong encryption is 
no longer merely the purview of our national security agencies 
concerned about securing data and communications from interception by 
foreign governments. Today, every American even merely dabbling on the 
Internet requires access to strong encryption. Imagine the boost in 
volume of e-commerce if all of these consumers had enough confidence in 
the security of the Internet to purchase on-line. Yet in 1996 the 
Computer Security Institute/FBI Computer Crime Survey indicated that 
our worldwide corporations will be increasingly under siege: over half 
from within the corporation, and nearly half from outside of their 
internal networks.
    Network users must have confidence that their communications and 
data--whether personal letters, financial transactions or sensitive 
business information--are secure and private. Electronic commerce is 
transforming the marketplace--eliminating geographic boundaries and 
opening the world to buyers and sellers. Companies, governments and 
individuals now realize that they can no longer protect data and 
communications from others by relying on limiting physical access to 
computers and maintaining stand-alone centralized mainframes. Instead, 
users expect to be able to pick up their e-mail or modify a document 
from any computer anywhere in the world simply by using their Internet 
browsers. Thus, consumers worldwide are demanding to be able to protect 
their electronic information and interact securely worldwide, and 
access to products with strong encryption capabilities has become 
critical to providing them with confidence that they will have this 
ability.
Full Deployment Of Strong Encryption Is Vital For Protecting America's 
        Critical Infrastructures
    Governments also are recognizing that without encryption, the 
electronic networks that control such critical functions as airline 
flights, health care functions, electrical power and financial markets 
remain highly vulnerable. The U.S. General Accounting Office in its 
report issued in May of 1996 entitled ``Information Security: Computer 
Attacks at Department of Defense Pose Increasing Risks'' found that 
computer attacks are an increasing threat, particularly through 
connections on the Internet, such attacks are costly and damaging, and 
such attacks on Defense and other U.S. computer systems pose a serious 
threat to national security.
    As the President said on January 22, 1999, before the National 
Academy of Sciences, ``[w]e must be ready--ready if our adversaries try 
to use computers to disable power grids, banking, communications and 
transportation networks, police, fire and health services--or military 
assets. More and more, these critical systems are driven by, and linked 
together with, computers, making them more vulnerable to disruption.''
    The President has been so concerned that he established a 
Commission on Critical Infrastructure Protection to provide him with 
guidance and issued two Presidential Directives based on the 
Commission's recommendations.
    In the Report of the President's Commission on Critical 
Infrastructure Protection entitled Critical Foundations: Protecting 
America's Infrastructures (October 1997), the Commission emphasized 
that ``Strong encryption is an essential element for the security of 
the information on which critical infrastructures depend.'' In fact 
``[p]rotection of the information our critical infrastructures are 
increasingly dependent upon is in the national interest and essential 
to their evolution and full use. A secure infrastructure requires the 
following:

<bullet> Secure and reliable telecommunications networks.
<bullet> Effective means for protecting the information systems 
        attached to those networks . . .
<bullet> Effective means of protecting data against unauthorized use or 
        disclosure.
<bullet> Well-trained users who understand how to protect their systems 
        and data.''
    An earlier blue ribbon National Research Council (NRC) Committee 
similarly concluded in its (May 1996) CRISIS Report (``Cryptography's 
Role in Securing the Information Society'') that encryption promotes 
the national security of the United States by protecting ``nationally 
critical information systems and networks against unauthorized 
penetration.''
    Thus, the NRC Committee found that on balance the advantages of 
widespread encryption use outweighed the disadvantages and that the 
U.S. Government has ``an important stake in assuring that its important 
and sensitive . . . information . . . is protected from foreign 
government or other parties whose interests are hostile to those of the 
United States.''
    In recognition of the risks and threats to information, on January 
15, 1999, the National Institute of Standards and Technology (NIST) 
established a new draft Federal Information Processing Standard (FIPS 
46-3) to require the use of stronger encryption in government systems. 
NIST stated that it ``can no longer support the use of the DES for many 
applications'' and that all new systems must use the significantly 
stronger Triple DES ``to protect sensitive, unclassified data''. Under 
the FIPS, all existing systems are now expected to develop a strategy 
to transition to Triple DES, with critical systems receiving a 
priority.
    Information security is critical to the integrity, stability and 
health of individuals, corporations and governments. While cryptography 
is but one element of security, it is the keystone of secure, 
distributed systems. Frankly, there is no substitute for good, 
widespread, strong cryptography when attempting to prevent crime and 
sabotage through these networks. The security of any network, however, 
is only as good as its weakest link. Thus, private businesses who are 
responsible for running our critical infrastructures and the millions 
of consumers transacting business over these infrastructures--
depositing money in banks and purchasing airline tickets--must have 
access to the strongest security. This access cannot be limited to only 
American companies, however, as America's infrastructures cannot be 
protected if they are networked with foreign infrastructures limited to 
weak encryption.
    In the long-term, we believe it is in America's best interest to 
have America's critical infrastructures and national security be 
protected by widespread reliance on strong American encryption products 
both here and abroad. The SAFE Act's encryption policy will ensure that 
Americans can use and sell any encryption that they want domestically, 
prohibit both Federal and State governments from imposing encryption 
standards or techniques, and relax export controls on products with 
encryption capabilities in a manner that is based on technological and 
market realities. Just because law enforcement and national security 
interests wish that they could turn back the clock and limit consumers' 
access to strong encryption approved by the government, it will not 
happen, especially on a worldwide basis. This is especially true for 
mass market software and hardware, which by its inherent nature is 
uncontrollable.
    america's export policy should promote widespread deployment of 
 american products with encryption capabilities in the worldwide market
Relaxation Of Export Controls On Encryption Products Is Vital For 
        Ensuring America's Global Competitiveness
    American companies do have exciting and innovative products that 
can meet the demand for 128-bit encryption and compete internationally. 
But unless the current unilateral U.S. export restrictions are changed 
to allow the use of strong encryption, American individuals and 
businesses will not be active participants in this new networked world 
of commerce--let alone continue to be the leaders in its development. 
Furthermore, American companies will no longer be providing the world, 
and its critical infrastructures, with the answers to their security 
problems. Instead foreign companies will. It is unclear how U.S. 
national security or law enforcement will be aided or how our critical 
infrastructures will be secure when foreign encryption products 
dominate the world market.
    The computer software and hardware industries are American success 
stories, but they are being threatened. America's software and hardware 
industries are important contributors to U.S. economic security. 
Information technology industries now are directly responsible for over 
one-third of real growth of the U.S. economy. Between 1980 and 1992, 
the computing and software industry grew at an annual rate of over 28%, 
while overall domestic growth was less than 3%. From 1990 through 1996, 
the software industry grew at a rate of 12.5%, nearly 2.5 times faster 
than the overall U.S. economy.
    More than 7 million people work in IT industries. In 1996, the 
software industry provided a total of over 619,000 direct jobs and $7.2 
billion in tax revenues for the U.S. economy. The software industry is 
expected to create an average of 45,700 new jobs each year through 
2005. If piracy were to be eliminated in the United States, the number 
of new software jobs created would double to an average of 93,000 a 
year.
    Moreover, the computer software industry has achieved tremendous 
success in the international marketplace with global sales of packaged 
(i.e., non-custom) software reaching over $118.4 billion in 1996, and 
rising to $135.4 billion in 1997. American produced software accounts 
for 70% of the world market, with exports of U.S. programs constituting 
half of the industry's output.
    The incredible growth of the industry and its exporting success 
benefits America through the creation of jobs here in the United 
States. Many of these jobs are in highly skilled and highly paid areas 
such as research and development, manufacturing and production, sales, 
marketing, professional services, custom programming, technical support 
and administrative functions. In the U.S. software industry, workers 
enjoy more than twice the average level of wages across the entire 
economy--$57,319 versus $27,845 per person.
    All of these revenues and jobs are dependent upon American software 
and hardware producers remaining the market leaders around the world, 
especially as the major growth markets continue to be outside the 
United States. Strong export controls on products with encryption 
capabilities are crippling the ability of these companies to compete 
with foreign providers and are only ensuring that foreign products are 
securing worldwide critical infrastructures, not American products.
Unilateral U.S. Export Controls Harm American Interests
    Currently, there are no restrictions on the use of cryptography 
within the United States. However, the U.S. Government maintains strict 
unilateral export controls on computer products that offer strong 
encryption capabilities.
    American companies are forced to limit the strength of their 
encryption to the 56-bit key length level set late in 1998. The 
recently announced regulations will also permit companies to export 
stronger encryption on a sector-by-sector, user-by-user basis. However, 
this policy ignores the fact that:

<bullet> The minimum strength now required by new Internet applications 
        is 128-bit encryption;
<bullet> The most widely used encryption program, PGP, with over six 
        million users worldwide, uses the Swiss developed IDEA 
        encryption algorithm, with a 128-bit key;
<bullet> American companies cannot export encryption products to a vast 
        majority of non-U.S. commercial entities. Foreign manufacturers 
        provide 128-bit encryption alternatives and add-ons--filling 
        the market void created by U.S. export controls;
<bullet> Providing sector-by-sector relief is unworkable for mass 
        market products and does not reflect commercial realities for 
        sales of custom products;
<bullet> 56-bit encryption has been demonstrated to be vulnerable to 
        commercial let alone governmental attack. (In the beginning of 
        this year at the RSA Encryption Conference, a 56-bit DES 
        encoded message was broken by private companies and individuals 
        working together in 22 hours and 15 minutes--imagine what a 
        hostile government with serious resources could do.); and
<bullet> New developments in technology are introduced everyday that 
        speed up decryption time. Adi Shamir, an Israeli computer 
        scientist, recently announced ``Twinkle'', which is a proposed 
        method for quickly unscrambling computer-generated codes that 
        have until now been considered secure, at the International 
        Association for Crypytographic Research's latest meeting in 
        Prague.
    Export controls also have made American companies less competitive 
and opened the door for foreign software and hardware developers to 
gain significant market share ``decreasing our national and economic 
security.
Without Export Relief, Foreign Consumers Will Purchase Their Products 
        From Foreign Suppliers, Keeping U.S. Manufacturers At A 
        Competitive Disadvantage
    As a result of U.S. unilateral export controls, encryption 
expertise is being developed off-shore by foreign manufacturers who now 
provide hundreds of encryption alternatives and add-ons. The 
Administration's export controls are in no way preventing foreigners, 
let alone those with criminal intent, from obtaining access to 
encryption products. In fact, foreign software and hardware 
manufacturers have seized the opportunity to create sophisticated 
encryption products and to capture sales.
    As long ago as 1995, the General Accounting Office confirmed that 
sophisticated encryption software is widely available to foreign users 
on foreign Internet sites. In 1996, a Department of Commerce study 
again confirmed the widespread availability of foreign manufactured 
encryption programs and products. An on-going industry study by Trusted 
Information Systems (TIS Study) highlights the ever-increasing 
availability of foreign developed and manufactured products as it 
discovered there were 656 foreign programs and products available from 
29 countries as of December 1997.
    Further demonstrating the worldwide availability, use and 
sophistication of encryption abroad is the Department of Commerce's 
National Institute of Standards and Technology (NIST) efforts to work 
with the private sector to develop an Advanced Encryption Standard 
(AES). Individuals and companies from eleven different countries 
proposed 10 out of the 15 candidate algorithms submitted to NIST: 
Australia's LOKI97; Belgium's RIJNDAEL; Canada's CAST-256 and DEAL; 
Costa Rica's FROG; France's DFC; Germany's MAGENTA; Japan's E2; Korea's 
CRYPTON; and the United Kingdom, Israel and Norway's SERPENT 
algorithms. Only 5 out of the 15 candidate algorithms were submitted by 
U.S.-based individuals or companies.
    If an encryption product is combined with other applications such 
as Internet browsers and application servers, U.S. companies will 
generally lose both sales. In fact, companies risk losing sales of 
entire systems because of inability to provide necessary security 
features. This permits foreign manufacturers to gain entry into 
companies as well as gain credibility--providing the foreign 
manufacturers with further opportunity to take away future sales in the 
same and other product lines.
    I would like to mention a few specific examples with respect to 
foreign availability of encryption products. The Apache Group, based in 
the U.K., announced in April 1997 that its Apache Unix Internet Server 
software with very strong encryption had a 29% market share of Web 
server software. Today the Apache web server serves over half--50%--of 
the domains on the Internet.
    Companies such as Brokat Informationssysteme, a German company, are 
developing products that are more than simply add-ons to American 
products. Brokat's modular e-services platform, Twister, which 
companies use to offer their customers secure and simple electronic 
services via various electronic channels, such as the Internet or 
mobile communications networks, is already being used by more than 
1,500 companies worldwide. Brokat's sales outside of Germany, including 
to the United States, have now increased to be 56 percent of the 
company's total sales. The American market research institute Meridien 
Research described BROKAT as the leading company worldwide for Internet 
banking solutions. Apparently, in just a few years, we have already 
begun to loose our dominance of this critical infrastructure to a 
German company founded only in 1994.
    The merger of two foreign companies, Zergo Holdings (U.K.) and 
Baltimore Technologies (Ireland), into a new company called Baltimore 
only further illustrates that foreign companies are flourishing solely 
because there is no U.S. competition. According to the Gartner Group in 
a Research Note dated January 28, 1999, the new company is ``a 
competitive participant in providing e-commerce and enterprise 
security, with 11 international offices and a global partner network . 
. . with customers in 40 countries.''
U.S. Encryption Export Controls Hurt American Companies Without Helping 
        Law Enforcement Or National Security
    U.S. export controls have had the effect of creating an encryption 
expertise outside the United States that is gathering momentum. 
Unfortunately, every time research and development of an encryption 
technique or product moves off-shore, U.S. law enforcement and national 
security agencies lose. We believe that continuing down this path will 
be ultimately more harmful to our national security and law enforcement 
efforts as American companies will no longer be the world leaders in 
creating and developing encryption products.
    In fact, as long ago as 1996, the NRC Committee concluded that as 
demand for products with encryption capabilities grows worldwide, 
foreign competition could emerge at levels significant enough to damage 
the present U.S. world leadership in information technology products. 
The Committee felt it was important to ensure the continued economic 
growth and leadership of key U.S. industries and businesses in an 
increasingly global economy, including American computer, software and 
communications companies. Correspondingly, the Committee called for an 
immediate and easy exportability of products meeting general commercial 
requirements--which is currently 128-bit level encryption!
    To summarize:

<bullet> Foreign competitors not subject to outdated U.S. export 
        controls are ready to take sales and customers from U.S. 
        companies today.
<bullet> Complex and cumbersome U.S. export controls make American 
        companies less competitive. They significantly increase the 
        costs of developing, marketing and selling products with 
        encryption capabilities, delay the introduction of new products 
        or features, and encourage foreign customers to purchase from 
        foreign suppliers due to the uncertainty and delay in obtaining 
        a comparable American product.
<bullet> Current export controls do not keep strong encryption out of 
        the hands of foreign customers; they just keep U.S. products 
        out of their hands.
<bullet> In the future, if export controls on encryption are not 
        relaxed, both American and foreign infrastructures will be 
        secured by foreign encryption products, creating a significant 
        problem for American law enforcement and national security 
        agencies.
                           the bernstein case
    The absurdity of the existing export control regime is further 
highlighted by the recent decision of the 9th Circuit Court of Appeals 
in Bernstein v. DOJ. In that case, the court held that the existing 
restrictions on the export of source code, the language in which 
programmers communicate their ideas to one another, are an 
unconstitutional prior restraint on first amendment rights of free 
speech. So now we have a situation where it is permissible to export 
jobs (because one can export source code to teach foreign programmers), 
but not American products (because one cannot embody that source code 
in a product). We are only further accelerating the placement of 
foreign security products throughout the world in all industry 
infrastructures.
    More generally, Judge Fletcher's opinion raises some very valid, 
more general questions and points out how important encryption is to 
the mainstream life of Americans rather than merely to obscure 
technologists. Judge Fletcher states:
        In this increasingly electronic age, we are all required in our 
        everyday lives to rely on modern technology to communicate with 
        one another. This reliance on electronic communication, 
        however, has brought with it a dramatic diminution in our 
        ability to communicate privately. Cellular phones are subject 
        to monitoring, email is easily intercepted, and transactions 
        over the internet are often less than secure. Something as 
        commonplace as furnishing our credit card number, social 
        security number, or bank account number puts each of us at 
        risk. Moreover, when we employ electronic methods of 
        communication, we often leave electronic ``fingerprints'' 
        behind, fingerprints that can be traced back to us. Whether we 
        are surveilled by our government, by criminals, or by our 
        neighbors, it is fair to say that never has our ability to 
        shield our affairs from prying eyes been at such a low ebb. The 
        availability and use of secure encryption may offer an 
        opportunity to reclaim some portion of the privacy we have 
        lost. Government efforts to control encryption thus may well 
        implicate not only the First Amendment rights of cryptographers 
        intent on pushing the boundaries of their science, but also the 
        constitutional rights of each of us as potential recipients of 
        encryption's bounty. Viewed from this perspective, the 
        government's efforts to retard progress in cryptography may 
        implicate the Fourth Amendment, as well as the right to speak 
        anonymously, . . . , the right against compelled speech, . . . 
        , and the right to informational privacy. While we leave for 
        another day the resolution of these difficult issues, it is 
        important to point out that Bernstein's is a suit not merely 
        concerning a small group of scientists laboring in an esoteric 
        field, but also touches on the public interest broadly defined.
  bsa strongly supports the safe act because it provides freedom for 
  americans to use and sell any encryption domestically and provides 
                  greatly needed export control relief
The SAFE Act Preserves Americans' Domestic Encryption Freedom
    The SAFE Act ensures that Americans may use and sell whatever kind 
of encryption they want domestically. It ensures that the U.S. 
government may not require or provide other incentives for Americans to 
use encryption products ``approved'' by the government or meeting 
certain standards. Also, the Act does not permit the government to link 
electronic signatures to the use of certain types of encryption 
products.
The SAFE Act Provides Law Enforcement With Important Safeguards
    Importantly, the SAFE Act does permit the Secretary of Commerce to 
continue preventing exports to countries of terrorist concern or other 
embargoed countries pursuant to the Trading With The Enemy Act or the 
International Emergency Economic Powers Act. The bills also contain 
safeguards when relaxing export controls for strong encryption 
products--the Secretary of Commerce is not required to permit such 
exports if there is substantial evidence that the software or hardware 
will be diverted or modified for military or terrorist use or re-
exported without requisite U.S. authorization.
The SAFE Act Recognizes That Mass Market Products Are Uncontrollable 
        And Should Be Exportable
    U.S. export controls still ignore the realities of mass-market 
software and hardware distribution. Mass-market hardware manufacturers 
and software publishers sell products through multiple distribution 
channels such as OEMs (i.e., hardware manufacturers that also pre-load 
software onto computers), value-added resellers, retail stores and the 
emerging channel of on-line distribution. Thus, mass market products 
are available to the general public from a variety of sources.
    The mass-market distribution model presupposes that hardware 
manufacturers and software publishers will take full advantage of these 
multiple channels to ship identical or substantially similar products 
worldwide (allowing only for differences resulting from localization) 
irrespective of specific customer location or characteristics. As mass 
market products are uncontrollable, BSA believes U.S. companies should 
be able to export the current market standard of 128-bit encryption. 
Unfortunately, the Administration has only proposed permitting easy 
exports of 56-bit encryption even if foreign products exist in the 
marketplace.
    Uncontrollable products at 56-bits cannot suddenly become 
controllable products at 128-bits. The SAFE Act recognizes as a 
fundamental proposition that the United States should not try to 
control the export of something that is, by its very nature, 
uncontrollable. Trying to control the uncontrollable squanders the 
limited resources of companies trying to comply with unrealistic export 
controls as well as the resources of the government as it tries to 
enforce unenforceable export controls, undermining the credibility of 
the entire system of export controls.
The SAFE Act Permits Exports Of Custom Software And Hardware
    The SAFE Act ensures that if strong encryption products have been 
permitted to be exported to foreign banks, then custom software and 
hardware with comparable encryption capabilities should be exportable 
to other foreign commercial purchasers in that country. The U.S. should 
not control exports of competitive custom products embodying world 
encryption standards. Note that the type of software and hardware we 
are talking about here is a ``custom'' product (if it were generally 
available it would not need an individual license under the bill's 
other provisions).
    the administration's concerns about the safe act ignore legal, 
                    technical and market realities.
The Administration Took The First Step Towards Developing A Sensible 
        Long-Term Encryption Policy, But They Still Have Not Gone Far 
        Enough.
    The BSA members welcome the Administration's efforts to relax 
export controls on select products used by select users. We especially 
appreciate the Administration's apparent abandonment of its key escrow 
policy that would have required all encryption exports (except for 40-
bit and less encryption) to be capable of providing third parties with 
immediate access to the plaintext of stored data or communications 
without the knowledge of the user. Foreign companies and consumers 
simply would not purchase such products as a multitude of foreign 
products without key escrow are readily available.
    However, the Administration's actions are merely a first step. 
Ultimately, any truly successful, sensible encryption policy must be 
based on technological and market realities, and should not create 
winners and losers in the encryption marketplace on a sector-by-sector 
basis. It would recognize that:

<bullet> The worldwide encryption standard is 128-bit encryption;
<bullet> Mass market software and hardware is inherently 
        uncontrollable; and
<bullet> It is in America's national and economic security interests to 
        have American designed and manufactured encryption products 
        deployed worldwide.
    We believe it is preferable for Congress to put encryption policy 
on a statutory basis rather than continuing to leave it up to 
inconsistent Administration regulations--sending a strong message 
around the world that encryption is important for a strong defense, for 
protecting the privacy of citizens and for preventing crime.
The SAFE Act Is Entirely Consistent With U.S. Obligations Under The 
        Wassenaar Arrangement
    Please do not be fooled by any claims from the Administration that 
the Wassenaar Arrangement is the multilateral agreement to restrict 
strong encryption that they have been touting was just around the 
corner for the past several years.
    The Wassenaar Arrangement is a non-binding agreement among 30 
countries to report on their sensitive exports that has not been 
approved by Congress; therefore, there is nothing requiring Congress to 
comply with the Agreement. Also, many countries, such as Israel and 
South Africa, who export strong encryption are not signatories to the 
Arrangement.
    Regardless, the SAFE Act is still consistent with its terms. The 
countries agreed to decontrol all 56-bit encryption and 64-bit mass 
market software and hardware with encryption and to permit, but not 
require, participating countries to restrict exports of encryption 
stronger than 64-bits. They also agreed to remove any reporting 
requirements--the sole official means for actually monitoring what 
countries are doing.
    The Administration already permits certain categories of strong 
encryption to be exportable under a license exception after a one-time 
review. The SAFE Act merely adds strong, mass market encryption 
products to these categories by permitting exports of such products 
under a license exception after a one-time, 15 day technical review.
    We are skeptical that countries will individually control 128-bit 
encryption or do anything more than technically comply with the 
Arrangement, while still permitting easy exports of strong encryption. 
Even France, traditionally the country which placed the greatest 
restrictions on its own citizens by limiting them to the easily broken 
40-bit level of encryption, has recognized that technology has 
progressed. Near the end of 1998, France relaxed controls on the 
domestic use of encryption and is now permitting, and in fact 
encouraging, the use of 128-bit encryption by its citizens.
The SAFE Act Provides For Continued Export Controls On Encryption 
        Products
    The SAFE Act only relaxes export controls on encryption products 
that are ``generally available'' in the commercial marketplace and 
custom products if they have been approved for use by foreign banks or 
are commercially available from foreign companies. It does not 
eliminate export controls on military application encryption products. 
Under the SAFE Act, encryption products are ``generally available'' if 
they are widely available for sale to the public (i.e., sold over the 
Internet, through a telephone transaction or at retail selling points), 
are not specifically tailored for specific purchasers or users and do 
not require further substantial support by the supplier for 
installation except for basic help line services. Thus, the SAFE Act's 
definition of ``generally available'' consists of the same elements 
required for 56-bit encryption software to qualify for mass market 
treatment under the current Department of Commerce's regulations.
The SAFE Act Ensures That Americans Can Manufacture, Buy, Sell Or Use 
        Any Type Of Encryption Domestically
    The SAFE Act explicitly affirms that Americans can sell or use any 
encryption domestically. It does nothing to inhibit the development of 
key recovery for American consumers or corporations. As I stated 
before, consumers are demanding and we are developing and selling them 
recoverable products.
    It is disingenuous to state that restricting the government from 
mandating the use of key recovery type products, except for the 
government's own internal uses, and preventing the government from 
requiring American citizens to use recoverable encryption if they want 
to do business with the government will somehow ``inhibit'' the 
development of key recovery. It only ``inhibits'' the government from 
using its great powers to effectively force American citizens to use a 
government approved type of encryption.
    Thus, the SAFE Act importantly provides statutory prohibitions that 
prevent the U.S. Government from achieving domestic controls on 
encryption through regulation or other governmental powers which it 
cannot otherwise achieve legislatively.
The SAFE Act Maintains The Status Quo On The Administration's Powers 
        Under The International Emergency Economic Powers Act, The 
        Trading With The Enemy Act, And The Export Administration Act 
        of 1979
    The SAFE Act permits the President to stop exports to terrorist 
nations and to impose embargoes on certain countries under the Trading 
With The Enemy Act, The International Emergency Economic Powers Act and 
The Export Administration Act. It also permits the Secretary of 
Commerce to stop the export of specific encryption products to specific 
individuals or organizations in specific countries if there is 
substantial evidence that such products will be used for military or 
terrorist purposes. The SAFE Act, however, does ensure that the 
President may not use his authority to further extend encryption 
controls beyond those contemplated in the SAFE Act.
                       the time for action is now
    To keep American vendors on a level international playing field and 
American computer users adequately protected, U.S. export controls must 
be immediately updated to reflect technological and international 
market realities.
    Thank you.

    Mr. Tauzin. Thank you very much.
    We are now pleased to welcome Mr. Tom Arnold, the Vice 
President and Chief Technology Officer of CyberSource 
Corporation, San Jose, California.
    Mr. Arnold, you have got a mike coming the other way.

STATEMENT OF THOMAS ARNOLD, VICE PRESIDENT AND CHIEF TECHNOLOGY 
                OFFICER, CYBERSOURCE CORPORATION

    Mr. Arnold. Good morning, Mr. Chairman and members of the 
committee. Thank you very much for the opportunity to speak to 
you today.
    In general, I think you will hear a slightly different 
story from me, not being a provider or a developer necessarily 
of encryption products, not being an exporter of encryption 
products in the industry.
    We are a very small and emerging company right now, and we 
specifically provide real-time electronic commerce transaction 
processing services to Internet merchants. We are in the very 
heart of what is happening in electronic commerce today on the 
public Internet.
    Specifically, just and very briefly, our services today 
include global payment processing, we process in 115 currencies 
today; fraud prevention and detection, which is a major issue 
for us that I will tell you several things about today; tax 
calculation; export compliance rules for our merchants; 
territory management; and delivery of both physical and digital 
products.
    We were founded in 1996 and actually began our existence as 
software.net which is now beyond.com as a merchant selling 
software.
    And I am struck by a very fond reminder that in 1994, when 
software.net began, we opened our doors in November 1994 
believing that we had the greatest little software store on the 
entire public Internet and suddenly realized by February 1995 
that our Internet fraud rate was well over 30 percent and 
growing rapidly. We were rapidly going out of business.
    And we immediately realized that when you open a store in 
the public Internet, it is totally global. You are in the best 
and the worst of neighborhoods simultaneously. So I am coming 
here today also representing the software and information 
industry association, and we are very strong supporters of H.R. 
850.
    Today's CyperSource Corporation, we process transactions 
for over 400 merchants on the Internet and have generated over 
5.8 million transactions specifically. I don't have the revenue 
number for the merchants themselves, but that is the number of 
transactions that have actually been processed since the 
Internet--Christmas in 1998. So we see an extreme ramp-up 
coming up.
    My own background spans both technology and law enforcement 
fields. I actually began as a patrol officer, working in the 
city of San Francisco, and moved my career into law enforcement 
computing very quickly, so I do have a background in those 
areas as well; and then on to NASA Ames Research Center and 
Silicon Graphics and then CyperSource.
    Let me open by stating that the environment for electronic 
merchants is wrought with issues and challenges; and, like any 
community, the Internet population includes its fair share of 
criminals, including crackers, frauds, industrial terrorists, 
spies and professional and casual hackers.
    The Internet is a very convenient and expensive medium for 
someone to go into as far as business, but it is absolutely 
wrought with risks, including the issues of consumer privacy. 
So how do we look at using encryption devices? How does my 
company use encryption today?
    First, we use it to authenticate, authorize and audit for 
transactions coming from a merchant site. These messages help 
us identify who is making a request for a transaction to take 
place.
    Integrity is a major issue. Integrity verifies the fact 
that the message has not been tampered with and can also be 
related to the fact that a message is not replayed against a 
merchant's site. A very common malicious denial of service 
attack is to attack messages in flight, replay them against a 
merchant site; and in a matter of minutes you have taken the 
merchant out of business entirely because this site cannot 
handle the traffic that is suddenly hitting his business.
    Privacy is the most widely recognized use of encryption and 
has been discussed by my colleagues on the panel here today, 
and it involves scrambling the communications in order to 
conceal business information and the confidentiality of 
consumer data, which are the two key points I would like to 
stress here, the business information and the consumer data.
    Nonrepudiation is another issue that we use for--or another 
use for encryption, if you would. And nonrepudiation is a 
mechanism by which the sender of an electronic message 
requesting something to take place cannot later deny in fact 
that they sent us the message and asked us to perform a 
transaction.
    Finally, there is intellectual property protection. And I 
was struck by a news story and I have included it with my 
written testimony which I hope will be added to the record. 
And, in fact, it was a news story out of the San Jose Mercury 
News that I was reading here on the way here describing the 
Dark Net and the fact that copies of those, the Star Wars film, 
are readily available for download right now off the public 
Internet through the dark sites that are out there already.
    So protection of intellectual property is extremely 
important, and using weaker encryption all the way through 
hardened encryption I think are mandatory in this area. For 
instance, weaker technologies can be used to protect a software 
markets newsletter, where the life of a newsletter itself or 
the information that is being protected may only be 24 hours in 
time. But much stronger encryption is required to protect and 
water-marking is required to protect intellectual property or 
material like music or videos that may last for 5 to 10 years.
    So what are the types of the things that we have seen out 
there in our short lives as a business here in processing 
transactions? We have seen this use of competitive and market 
information. We have watched as merchants look at other 
merchants' information on the Net and try to figure out what is 
going on. There is the threat of theft of private sales 
information going on, where transaction information from 
specifically public companies can be watched and viewed to 
determine if they are about to achieve their results. You can 
imagine the stock trading implications as a possibility here. 
There is theft of products and intellectual property. Then 
there is identity theft, which is the theft of consumer 
information, which is specifically the method that was used to 
attack our little software store when we first started, people 
masquerading as another person.
    Many of us in this room today, our identities could be 
being used right now on the public Internet. Our credit card 
information could be being used, and transactions could be 
produced as though they were us. And, in essence, on the public 
Internet, nobody knows you are a dog.
    Attacks by hackers and crackers--and one recent attack 
includes a hacker acquiring information to an on-line 
transaction where a real consumer had just completed a 
transaction requesting a product to be shipped. The hacker then 
went back into the system as that consumer and merely changed 
the shipping address. The product was shipped by the merchant, 
thinking it was going to a changed shipping address, and the 
consumer was billed but never received the product.
    Okay. These types of attacks are absolutely nothing new. 
Twenty-three years ago while I was working as a patrol officer 
I responded to petty larceny, burglary and grand theft calls; 
and today there is hardly a law enforcement presence that can 
effectively address the daunting challenge of the global 
Internet.
    I was actually speaking to a hacker who was stealing 
software, and we were trying to prosecute and locate him. And 
they love to flaunt their capabilities out there in the net, 
and he made a statement to me that has always stuck with me 
and, that is, basically he stated that he was driving a Ferrari 
on the Internet superhighway, while the cops were driving 
broken-down bicycles.
    In a nutshell, merchants need full access to cryptographic 
technologies without any mandatory key escrow or key recovery 
systems to protect us. I am struck by the level of access that 
a lot of hackers have to both public and private systems 
specifically, and I am struck by the concept and the amount of 
effort that it would take to protect any sort of key escrow or 
any sort of recovery system in place related to these business 
transactions. It would be absolutely catastrophic if our 
private keys were compromised without our knowledge of the 
compromise of the keys.
    I can imagine the Fort Knox-like facility that would be 
required to store this information and the huge infrastructure 
required to store the data on the keys for these transactions; 
and the reality is, as my colleague on the panel had stated 
earlier, the sites are available today from the download of 
hardened encryption products.
    Let me leave you with one other thought. On the Internet, 
the hackers are going a little bit deeper underground as it 
stands right now.
    Mr. Arnold. There are now ``Dark Nets'' that are showing 
up. These are private hacker networks and ``warez'' is a term 
that is used as the tools that the hackers use. They have 
crypt-analysis tools. They have cryptographic tools. They have 
password and network cracking tools that are available there.
    As long as you are willing to donate a new tool or a new 
technique or some passwords to the site, they will grant you 
access to the dark site and will allow you to begin downloading 
the products for use for your own nefarious gains.
    So let me leave you with a closing remark that--first off, 
thank you very much for allowing me to speak to you today. My 
written testimony goes into much greater details, and I would 
strongly urge the committee and the Congress to pass the SAFE 
Act. Thank you.
    [The prepared statement of Thomas Arnold follows:]
 Prepared Statement of Thomas Arnold, Chief Technical Officer and Vice 
      President, Engineering, CyberSource<SUP>'</SUP> Corporation
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to speak with you this morning about this important 
topic.
    My name is Tom Arnold and I am the Chief Technical Officer and Vice 
President of CyberSource Corporation based in San Jose, CA. CyberSource 
is a developer and provider of real-time e-commerce transaction 
processing services. Our products and services offer solutions to 
online merchants for global payment processing, fraud prevention, tax 
calculation, export compliance, territory management, delivery address 
verification and fulfillment management. Founded when electronic 
commerce was just beginning to flourish, CyberSource has become a 
leading provider of e-commerce solutions for businesses all around the 
world.
    I am pleased to be testifying this morning on behalf of the 
Software & Information Industry Association (SIIA), the result of a 
merger between the Software Publishers Association and the Information 
Industry Association. SIIA represents 1400 member companies engaged in 
every aspect of e-commerce and strongly supports H.R. 850, the Security 
and Freedom through Encryption (SAFE) Act.
    Let me begin briefly by describing our company's background and my 
experience in developing and supporting electronic commerce on the 
Internet and cover the primary uses and issues related to the open and 
free use of cryptographic technology.
    CyberSource Corporation commenced Internet commerce service 
operations in March 1996, as a division of Software.Net (now 
Beyond.com), a Web site selling software products that could be 
downloaded on-line or purchased for traditional physical delivery. 
While Software.net was on the cutting edge of an exciting trend, it 
faced the challenge of fraud, identify theft, product theft and a host 
of similar problems. Within a few months of opening the online store, 
the number of fraudulent credit card transactions surged beyond 30% of 
Software.net's total transaction volume. It seems online thieves were 
stealing individual identities from various Internet sources, then 
masquerading as the person and using the credit card associated with 
the identity to steal software and other products. The primary problem 
was examining the information provided by a consumer and determining 
immediately if this person is who they claim to be.
    CyberSource has since expanded its offerings to a full suite of 
electronic commerce transaction processing services, which today 
include on-line payment processing; advanced fraud detection and 
screening technologies; export screening; distribution control; sales 
and VAT tax systems; and, digital product deliver systems (software, 
music and video download technologies).
    Today over 400 merchants have chosen to use CyberSource, generating 
millions of transactions per month.
    My own background spans patrolling the streets as a police officer 
to implementing some of the early law enforcement computer systems for 
the State of California. I have worked at NASA Ames Research Center, 
designed and built the first e-commerce platforms at Silicon Graphics 
Corporation, and designed the systems for CyberSource Corporation.
Privacy and Security are Critical Factors to the Success of e-Commerce
    Let me open by stating that the environment for electronic 
merchants is wrought with issues and challenges. The Internet is first 
and foremost a global community and provides a huge opportunity for 
merchants to offer the products and services to the broadest possible 
community of potential customers. Unfortunately, the Internet 
population includes its fair share of criminals, including but not 
limited to hackers, crackers, frauds, industrial terrorists, spies, and 
even casual hackers.
    It is clear that without the ability of companies like mine to 
protect the privacy and security of online consumers and merchants, e-
commerce will not flourish. While the Internet is a convenient, 
inexpensive and increasingly popular medium, companies and individuals 
cannot afford to take advantage of the benefits of the Internet. Simply 
put, no amount of price competitiveness, convenience or marketing will 
entice an online consumer if they fear that their privacy and security 
will be compromised.
    To foster the confidence needed to ensure that e-commerce continues 
to grow, encryption is vital. In short, cryptographic technology is 
used to protect e-commerce transactions in five major functions:

(1) Authentication, authorization and auditing: This is a method for 
        identifying who is making a request, authorizing access or 
        capabilities, and tracking what action is taken.
(2) Integrity: This refers to verification that a message is intact; 
        that the message was not intercepted and tampered with; or, 
        that the message has not been replayed (a common, malicious 
        denial of service attack that can put merchant out of business 
        in a matter of minutes).
(3) Privacy: This is the most widely recognized use for encryption 
        technologies. It involves scrambling the nature of the 
        communication or data so as to conceal business information, 
        ensure privacy of consumer data, conceal financial or payment 
        information, and protect product and pricing information.
(4) Non-repudiation: In the virtual, electronic world, this ensures 
        that any initiated message cannot later be repudiated by the 
        sender of the message. In essence, by guaranteeing that the 
        keys used to generate the encrypted message are certified and 
        remain in the sole control of the sender, and that no keys can 
        be derived through a recovery process that has been attacked, 
        the sender cannot repudiate that they initiated the message. 
        This is a very important concept and is at the heart of 
        electronic commerce.
(5) Intellectual property protection: This includes a spectrum of 
        cryptographic technologies that protect downloaded products to 
        applying digital water-marks. The level and use of hardened 
        encryption versus weaker encryption is directly related to the 
        useful life of the product being protected. For instance, a 
        weaker technology may be used to protect a stock market 
        newsletter that will be out of date by the next morning, while 
        hardened encryption and watermarking might be applied to a 
        piece of music that might have life of five to ten years.
    Under the current encryption export policies, we are generally 
allowed to license the weaker 56-bit encryption methods for export, and 
for certain financial information like a customer's credit card number, 
we may be allowed to use strong encryption in limited markets. However, 
our inability to use robust protection throughout the e-commerce sales 
process unfortunately places our merchants, manufacturers, and 
distributors at risk.
Encryption Export Restrictions Place US Companies at Competitive Risk
    Competitive information, products, and information about customers 
and their transaction are at risk without strong encryption products to 
provide security and protection. Foreign competitors, beyond the reach 
of US law, have full access to hardened encryption technologies. Here 
is a brief list of the risks today:

(1) Consumer information can be acquired by competitors and used to 
        attack markets.
(2) Transaction information about products being sold and the number 
        and size of orders being received. This information could be 
        used, for example, to make stock trades by determining if a 
        public company is going to achieve its sales goals at the end 
        of a quarter.
(3) Products and intellectual property.
(4) Consumer identities acquired by a hacker and used to commit fraud.
(5) Products and valuable intellectual property that is acquired and 
        posted on dark nets. While flying to this hearing, an article 
        in the local San Jose, California paper stated that pirated 
        copies of the new Star Wars films were already available on-
        line.
(6) A list of ever changing attacks by hackers and crackers. One recent 
        attack involved hackers acquiring access to an on-line purchase 
        transaction. This data was used by the hacker to contact the 
        merchant and have the merchant change the shipping address. By 
        the time the problem was discovered, the thief was long gone.
    There is nothing new in these types of attacks on businesses. 
Twenty-three years ago, while working as a patrol officer, I responded 
to petty larceny calls, burglaries, and grand theft. Today, there is 
hardly a law enforcement presence that can handle the global Internet 
environment. I'm reminded of a comment made to me by one hacker 
flaunting his accomplishments when he stated that he was driving a 
Ferrari on the Internet super highway, while the cops were on broken 
down bicycles.
    In a nutshell, merchants need full access to cryptographic 
technologies without mandatory key escrows or key recovery systems to 
protect themselves. Think of these as the deadbolt locks or the alarm 
system on our electronic business.
Encryption Protects a Wide Variety of Information
    I fully respect the needs of the Justice Department and our law 
enforcement agencies to protect US citizens and interests from domestic 
and international threats, from criminal activity, and from terrorist 
acts. Unfortunately, it is clear that the current encryption policies 
restrict only law abiding companies and individuals since cryptographic 
and encryption technology is freely available on the Internet. 
Additionally our foreign competitors routinely use hardened encryption.
    Encryption can be used to protect a wide variety of information, 
sensitive data and transactions. While the need for encryption has 
greatly increased with the growth of online commerce, computer systems 
of all types rely on encryption to provide privacy and protection. 
Encryption is used in network operating systems, communications 
software and hardware, data storage products, and even in common 
products like word processors or spreadsheets. Encryption is an 
incredibly useful technology, and high-tech companies and their 
customers need to be able to use the most robust tools available to 
ensure that their information is secure.
    For online companies, encryption restrictions erect a daunting 
barrier to the expansion of markets. As e-commerce grows, online 
companies are offered a tremendous opportunity yet are denied the 
ability to fully take advantage of this shift in the market. More 
importantly, however, encryption provides companies a means to protect 
their products in ways that can help prevent misuse by even the most 
determined of software thieves.
    To complicate matters even more, hackers and crackers share their 
``warez'' (tools) throughout the public Internet and through ``Dark 
Nets'' (private hacker networks--something like a private club where 
new members have to share some new ``ware'' to gain entry). Some of the 
tools on these sites include: crypt-analysis tools, cryptographic 
tools, password cracking tools, network cracking tools, stolen 
passwords to sensitive networks and sites, and full technical 
information on using the tools. In one case, a major telecommunication 
companies own systems were attacked, and used by hackers to host a 
illegal ``warez'' site for several months. The hackers were freely 
delivering stolen products, credit card numbers, credit card 
generators, personal information on people who threaten the hacker 
world, and information on breaking into numerous sensitive and critical 
computer systems.
    The strong encryption key recovery or key escrow schemes being 
proposed as middle-ground are inherently insecure and must be strictly 
administered. I'm sure members have heard stories about hackers who use 
strong encryption to scramble data files on their machines, thereby 
thwarting law enforcement investigations. What may not have been 
explained is where the hackers obtained the encryption technology and, 
further, the level of access to sensitive systems. Between 1993 and 
1995, a couple of key hackers being pursued by the FBI access to: 
cellular networks, public telephone taps, ability to access private 
email accounts and files. In many of these cases, the hackers used 
social engineering techniques to get people in sensitive positions to 
voluntarily allow access this information and capabilities.
    It is extremely naive to believe that key recovery systems or key 
escrow cannot and will not be compromised, either through insider abuse 
or external penetration. I can think of little worse than the 
undetected lose of private encryption keys from our systems or any 
merchant system. The business impact would be catastrophic. In response 
to this type of threat, any government funded and mandatory key 
recovery or escrow system would surely have to be secured on the scale 
of Fort Knox, or the level of security required to protect our 
Country's most valuable assets. Surely it would be hardly cost 
effective for the number of electronic wire-tap orders where a key 
would be recovered and information monitored. I doubt seriously that 
any hacker, criminal or terrorist would use recoverable encryption 
technology when strong, unrecoverable encryption is available on the 
Internet or Dark Nets.
    For this reason, the use of recoverable encryption and key escrow 
technologies need be voluntary and under the complete supervision of 
the user.
    In conclusion, I'd like to highlight that the Internet community 
offers a great opportunity for merchants. The Internet Christmas 
shopping season of 1998 proved the viability of this marketplace, 
Christmas 1999 promises to be even better.
    As these new opportunities develop, Internet merchants make 
substantial investments in new computer systems and technologies to 
help them address the growth. The advertising outlays to attract new 
customers is also substantial. It may take as much as $128 to get a 
single consumer to press the buy button.
    The risks for merchants in this growing segment of our economy from 
the loss of critical business information and private consumer 
information is extremely high. A major manufacturer of computer 
hardware estimated their loss from theft that resulted from fraud and 
compromise of proprietary consumer information is 7% of their annual 
revenues and is growing faster than sales.
    Merchants need open access to strong encryption to protect their 
investments, technologies, products, and consumer information. As new 
payment or merchandising technologies are implemented, hackers and 
information mercenaries will develop tools to attack these technologies 
for their illicit gain. For these reasons, we fully support the 
Security and Freedom Through Encryption Act and urge its prompt 
passage.
    Thank you.

    Mr. Tauzin. Mr. Arnold, thank you very much. Indeed, your 
written testimony is very illustrative of all of these problems 
on the Internet. Thank you for that.
    I might mention to you that you are correct about on the 
Internet no one knows whether you are a dog. A newspaper in 
Louisiana successfully registered four dogs to vote in 
Louisiana. I don't know whether they were blue dogs or yellow 
dogs.
    Somebody else that I mentioned--remember we took up WIPO? I 
think ``Titanic'' had just been down loaded on the Internet 
that same week. So we have seen this over and over again. But, 
of course, if the critics are right about ``Star Wars,'' it 
might not make a whole lot of difference.
    Dr. Gene Schultz, trusted security advisor of Global 
Integrity Corporation of West Lafayette, Indiana. Dr. Schultz.

   STATEMENT OF E. EUGENE SCHULTZ, TRUSTED SECURITY ADVISOR, 
                  GLOBAL INTEGRITY CORPORATION

    Mr. Schultz. Good morning. I work for Global Integrity 
Corporation, which is a wholly owned subsidiary of SAIC, 
Science Applications International Corporation. It is a very 
large consultantcy. It is international in nature. I am not 
here to represent the interest of anybody who makes any 
encryption product. I hope they make a lot of money in their 
endeavors, but that is not why I am here.
    I am here to speak my conscience. You see, I have an 
unusual background. I have been in the trenches there, and I 
see what is going wrong in computer security. I started and 
managed for 4 years the U.S. Department of Energy's incident 
response team called CIAC.
    After that period of time, I worked out with industry when 
I was at SRI consulting down in Menlo Park, California. We 
worked with some of the largest corporations, not only in the 
United States but in the world.
    I have been a witness to over a thousand different 
security-related incidents in the computer security area. I 
have seen what breaks down. I have seen what goes wrong. I have 
worked with law enforcement. I know many people in the law 
enforcement community.
    And if you read books such as ``At Large'' by David 
Freedman, you will see some of the details of what really goes 
wrong. What really goes wrong isn't that some bad guy goes out 
and uses encryption against you or anything like that. It's 
hard enough for this community to deal with the evidence that 
is at hand in clear text.
    I would like to, therefore, switch the topics just a little 
bit to the area of technology itself and tell you that what we 
have out here in the area of networking isn't what we had 2 or 
3 or 4 or 5 years ago.
    What we have in terms of telecommunications networks, in 
terms of computer networks, are considerably more complex now 
than they were just even a few years ago when encryption or 
restrictions certainly were considered a very, very reasonable 
thing to have.
    You see, today somebody from a major vendor company said 
that the network is the computer, and that's really true. 
Today's computers aren't these stand-alone computers that sit 
on desk tops, and whether or not you have encryption may not 
make that much different because you can control who gets those 
computers by locks, keys, guards, and guns.
    Today's computers are really meant to interface with 
networks. In fact, sometimes they don't work so well if they 
are not interfaced with a network. In addition to that, when 
you set up a computer now, you are opening up the possibility 
that somebody from potentially anywhere in any part of the 
world could possibly make a connection to that computer.
    Your computer could be connected to people from Hong Kong, 
from people from Beijing, people from Melbourne, Australia, and 
on down the line. There are no distinct boundaries in networks 
anymore.
    It used to be that we had a nice little ARPNET and that 
split into what was called NSFNET which we call the Internet 
and MillNet.
    But it's not like that anymore. In fact, networks are 
largely in control of people who are Internet service 
providers. Metropolitan area networks, they are regional 
networks tied together through some massive backbone kind of 
structure.
    Even the Internet as we know it now is rapidly breaking 
down. You see, it is too slow. It doesn't meet our purposes 
very well. And vendors are developing new networks that will 
supersede and far by pass network. We don't really have control 
over this technology as it proliferates.
    In addition to that, I don't need to be very smart to 
attack a computer off the network. I just need to download a 
program from one of the dark sites that Mr. Arnold talked 
about, or one of many others, and simply startup a program and 
it does things for me.
    And so I can be older or younger. It is not true, by the 
way, that hackers are all young people. There are many older 
and experienced hackers out there. But the state-of-the-art of 
attacking networks, it has been proliferating over the last few 
years, much above when, again, we were first concerned about 
the problem with encryption control.
    Network services you get--web services for file transfer 
services generally demand no or at least little identification. 
And probably the worse threat to corporate America today from 
my experience is somebody planning a network capture devise 
that captures the traffic that goes through the network and 
grabs the memo that goes from the CFO to the CEO or the CEO to 
the CIO.
    And because of that--and people don't realize it. They 
think that it is external hackers that are trying to get you. 
But the real threat in which encryption technology can protect 
you lies from within your own organization itself.
    Finally, I would say that networks are radically different 
in that now transactions occur over networks in which it is 
possible to repudiate transactions. No, I didn't buy this; 
don't bill me this. But you keep whatever goods or services 
have been shipped to you.
    I have seen some pretty bad incidents. I was one of the 
principal observers of the break-ins into U.S. military systems 
during Operation Desert Storm and Desert Shield. I saw people 
from foreign countries break into U.S. computers with impunity.
    Had we had a better level of encryption practiced during 
that time, we could have virtually stopped the bad guys from 
getting information about, for instance, our munitions 
movements in the Middle East, about what battleships were 
moving overseas, how many troops were going from which Army 
base here in the United States over to which destination.
    Now we can say, well, yes, that is all within the 
government. But the fact is encryption technology was not that 
advanced in terms of its actual deployment at that time.
    I have seen a company recently that had somebody try to 
break in, did break in, to their network, got into a machine, 
attempted to initiate a $20 million financial transaction. 
Fortunately they failed.
    Better cryptology could have addressed that problem and 
should have addressed that problem, but it was not in place. 
Frankly, that corporation was lucky. I saw another corporation 
in which somebody did break into their network. They did 
transfer files with impunity. The financial loss is 
immeasurable. Many of their pending copyrights were transferred 
off to some unknown location.
    In this particular case, again, encryption could have made 
a big difference. I have seen network capture devises used 
against corporations where people have captured virtually 
everything out of a major corporate network.
    Again, encryption could and should have helped address this 
problem also, in the telecommunications arena. Don't think that 
the only danger is the Internet. We have lots of PBX to 
Internet, PBX to private networks kinds of links.
    In those arenas, again, voice goes across in clear text, 
voice conversations between a CEO and critical business 
partners. We don't use encryption sufficiently because we have 
too many barriers on that encryption.
    We don't have sufficiently strong encryption. And you can't 
fool industry. If they know that somebody is faulty, they are 
not going to invest the money in it. We know also that the 
industry has to put up with the least common denominator.
    They know that the third party business partners are out 
there with weaker crypto. They are going to have to lower their 
crypto capabilities to this weaker capability if they are going 
to maintain encrypted links. Therefore, often they do not.
    Finally, something that has not come out, I believe, up to 
now. I believe that the U.S. Government is sending a strong 
negative message to industry. I think they are saying somehow 
that there is something wrong with this technology, that 
somehow there is something not very good about it.
    It is something that, gee, well, maybe pedophiles, 
terrorists, criminals, and all of this are associated with it. 
I think that industry is very quick to see that if the 
government is not giving it a green light, that it is going to 
be slow to deploy it.
    What we have, in effect, is a situation where we have an 
arid land. We desperately need water, but we are afraid that 
the outlaws are going to get the water, so we poison the well. 
I think that is what happened. Maybe that worked 5 years ago. 
Maybe that worked 10 years ago. But today technology has 
changed.
    We have to come to grips with the changes in technology. We 
are, in fact, worse off now in protecting our critical national 
infrastructure than we were 3, 4, 5 years ago. Technology has 
advanced that far, but the ability to use encryption has not. I 
strongly urge you to pass the SAFE Act.
    [The prepared statement of E. Eugene Schultz follows:]
 Prepared Statement of E. Eugene Schultz, Trusted Security Advisor and 
            Research Director, Global Integrity Corporation
           New Directions and Opportunities for Cryptography
                                abstract
    This paper addresses the issue of U.S. cryptographic restrictions. 
Committees in both the U.S. House of Representatives and Senate are 
considering legislation that relaxes these restrictions. The main 
reasons for closely guarding cryptography (i.e., protecting U.S. 
military and law enforcement interests) have historically been 
legitimate. They now, however, constitute considerably less 
justification for keeping these restrictions. Networks and the 
computing systems that connect to them are now much more complex; they 
are thus more subject to a myriad of attacks. Networking itself is an 
integral part of the U.S. critical infrastructure. The use of strong 
cryptography in securing these networks is now virtually a necessity in 
controlling against attacks and misuse such as stealing files from 
remote systems, preventing perpetrators from stealing plaintext message 
traffic containing valuable information and passwords, and proving that 
someone who initiates a financial or other kind of transaction has 
indeed done so. Strong cryptography is also equally necessary in the 
telecommunications arena, in which valuable data also traverses 
telecommunications links. The current U.S. policy on cryptography has 
played a major role in the commercial sector's inability and 
unwillingness to deploy it where it is needed. The result is 
substantially elevated security-related risk within critical sectors 
(e.g., financial services and hospitals) within the commercial world. 
The fact that the U.S. Government has also sent a distinct, negative 
message to the U.S. commercial arena concerning the use of cryptography 
is perhaps the most serious of the obstacles the Government has 
created. Equally disturbing is that the current U.S. policy will 
eventually ensure that the U.S. loses its leadership in the 
cryptographic arena. It is thus now time to change the U.S. policy on 
cryptography by relaxing current restrictions.
Background
    What should the U.S. do about its policy concerning cryptography? 
Should, as several key agencies of the Government argue, cryptography 
continue to be restricted to the same degree that it has been in the 
past, or should it be more freely available, both within the U.S. and 
internationally?
    Not surprisingly, polarized positions have emerged. Proponents of 
restricting cryptography argue that doing so is in the best interests 
of national security in addition to law enforcement needs. Hostile 
foreign powers and criminals who have access to powerful encryption can 
use it in potentially harmful ways--to maintain a secrecy of 
communications that U.S. interests cannot tolerate, store evidence in a 
form that cannot be deciphered by anyone but themselves (and thus in a 
form that is unusable to law enforcement), and so on. Those who 
advocate these restrictions also propound that cryptography is 
currently not sufficiently cost-effective, useable and manageable to 
justify the risk of making it more freely available.
    This paper advocates a different position--that whereas U.S. 
restrictions on cryptography may have made sense in the past, they are 
no longer appropriate as is. They need to be eased.
Changes in Security-Related Threats
    The computing world has shifted focus considerably during the last 
decade. Whereas a reasonably large proportion of computers was still 
standalone one decade ago, now it is rare to see a standalone computer. 
The computing as well as the telecommunications world is massively 
networked. Networks are extremely difficult to defend from attacks for 
several important reasons:

<bullet> Today's computers are considerably more sophisticated than 
        they were a decade--even a half decade--ago. Today's computers 
        are in fact built for networking. Virtually anyone--friend and 
        foe alike--can obtain one or more of these computers and 
        utilize network services. Unfortunately, this also means that 
        virtually anyone can perpetrate attacks over networks.
<bullet> Networked computers are in most respects a bigger target than 
        computers that do not connect to one or more networks. 
        Depending on how a network is configured and a large number of 
        additional factors, it may be possible for anyone in any part 
        of the entire world to be able to remotely reach a given 
        computer, and thus to attack it.
<bullet> Where networks start and where they end are both nearly 
        impossible to determine. In general, it is difficult to defend 
        something that has a well-defined boundary.
<bullet> The state of the art for attacking computers over networks has 
        evolved dramatically over the last few years. Many software 
        programs that allow even the most naive of computer users to 
        launch powerful attacks over networks are now freely available 
        over the Internet as well as through other sources.
<bullet> Networks offer services that typically demand little or no 
        identification of the people who utilize these services. 
        Avoiding being identified is usually trivial for network 
        attackers. Being anonymous over the net emboldens network 
        attackers.
<bullet> A perpetrator who has access to one point in a network between 
        a computer from which someone sends a message or a file and the 
        computer on which someone receives it can capture traffic that 
        is sent. By default, all such traffic is in plaintext, meaning 
        that whoever captures it can read it right away. Privacy over 
        networks is thus a major concern.
<bullet> Networks make electronic transactions possible, yet dishonest 
        people can order goods and services over the net, then deny 
        ever authorizing the order.
    My experience in the world of computer security spans nearly 15 
years. During this time I have been faced with many challenges and seen 
many eye-opening experiences. One of the most startling sets of 
experiences occurred nine years ago when intruders from the Netherlands 
broke into U.S. military computers with impunity, stealing information 
about weapons systems, U.S. troop movements, ordinance shipments, and 
so forth in the midst of Operation Desert Shield and Operation Desert 
Storm. The U.S. military community had the cryptography available to 
protect the sensitive information that the intruders stole but did not 
use it.
    Approximately five years ago a small number of perpetrators 
installed software programs that captured network traffic that went 
through Internet service providers throughout the U.S. The main target 
(although not the exclusive target) was passwords--the perpetrators 
used the passwords they captured to break into the computer accounts of 
tens of thousands of users, mainly in the U.S.A., but also in other 
countries. The perpetrators obtained so many passwords that they were 
not even able to use a significant proportion of them during the time 
span in which the attacks occurred. Encrypting the traffic that went 
into and out of the Internet service providers' computers would have 
prevented these attacks.
    I recently helped a client corporation respond to what was a very 
potentially serious attack. The client has a number of networks, one of 
which contains computers that initiate and control major financial 
transactions. Someone, apparently not a company employee, obtained 
access to this network through a connection with one of the 
corporation's business partners, then attempted to initiate a multi-
million dollar financial transaction. Fortunately for the corporation, 
the attacker did not know quite enough about the procedures for 
initiating such transactions and thus failed. Use of cryptography that 
strongly assured the identity of the person who initiates these 
transactions would have considerably lessened the probability of 
success in this scenario.
    Another corporation was not so fortunate. A remote attacker broke 
into one of a corporation's networks and transferred many proprietary 
files to another computer that the attacker had taken over. The exact 
amount of financial loss remains unknown, but it is not unreasonable to 
think in terms of tens of millions of dollars. Had the stolen files 
been encrypted with strong cryptography, they would have been of no 
value to the attacker and the people to whom he undoubtedly sold them.
    The fear of attacks such as breakins into computing systems often 
overshadows concern for other types of attacks. In reality the 
potentially most devastating attack in the corporate world is one in 
which someone plants a device or software program that captures all the 
network traffic that goes by a certain part of the network. The 
attacker can capture not only passwords, but also critical data files, 
messages sent between corporate officers, and a variety of other 
sensitive and valuable information. This information is almost without 
exception transmitted in plaintext. Indeed this kind of attack occurred 
several years ago at the headquarters of a major manufacturing 
corporation. Perpetrators planted a device that captured all incoming 
and outgoing network traffic. Luckily, someone discovered the plot to 
capture and sell corporate information before the perpetrators were 
able to sell it. Again, the use of cryptography to prevent plaintext 
traffic from being sent over this network would have deterred the 
perpetrators from carrying out this kind of plot in the first place.
    Computer networks are not the exclusive targets of attack; 
telecommunications links are also vulnerable to being tapped. The 
corporate PBX is a particular target. The fact that voice and data 
traffic is by default sent in plaintext over many telecommunications 
links is once again a cause for major concern. Unbelievably, some 
organizations encrypt network traffic but do not encrypt traffic that 
moves through telecommunications links, even though these links feed 
into the computer networks and vice versa.
Why Restrictions on Cryptography Serve as Obstacles
    In today's hearings we will once again be reminded of reasons for 
restricting cryptography and why, if and when restrictions are relaxed, 
we will have reached what some will call a dramatic, irreverseable 
point in U.S. ability to maintain control of cryptography. On the 
surface, these views make sense, but they do not make as much sense now 
as they did two or three years ago. The problem with the logic of these 
views today is that (as discussed previously) networks are now so much 
bigger, more complex, and more pervasive. Corporate America is now 
considerably more reliant on computer networks than it was only a few 
years previously. And, with a few notable exceptions (mainly in the 
banking and financial services arena), corporate America is not 
deploying cryptography to a great extent. Why? Several reasons stand 
out among the primary probable causes:
    1. Cryptographic presents a myriad of practical difficulties, 
including the problem of cryptographic key management and the fact that 
using cryptography causes slowdowns in system and network performance.
    2. The financial cost of using of cryptography is still rather 
high. For many corporations, the benefits do not currently outweigh the 
cost.
    3. Strong cryptography is for the most part not available to 
corporations, even in the U.S. With magazines and newspapers running 
articles about how someone else has broken one, then another 
cryptographic algorithm, corporations hesitate to make the financial 
investment to widely deploy cryptography that they perceive may be 
flawed.
    4. Businesses are now truly global in nature more than ever before. 
The fact that businesses do not exist in isolation means that a given 
U.S.-based corporation is likely to have offices in other countries 
(something that generally causes only minor complications in terms of 
ability to deploy encryption). More significant, however, is that fact 
that many third-party business partners are headquartered in countries 
in which U.S. cryptographic restrictions are enforced. The U.S.-based 
corporations are thus forced to choose between implementing the 
relatively weak cryptographic solutions generally available to these 
non-U.S. entities (to create a common encryption link with these 
entities) or to not deploy encryption at all. Too often the more 
reasonable choice is the latter.
    5. Whether or not the U.S. Government realizes this, its policies 
on cryptography are sending a distinct, negative message to industry. 
On one hand, some U.S. Government agencies and institutes encourage 
industry to use encryption, but then others talk about the dangers of 
strong encryption and the harmful effects of allowing it to be too 
widely disseminated. At the same time elements from within the 
Government have publically voiced concern about the cost and 
performance decrements associated with the encryption that is currently 
available. The message to industry is that there is something wrong 
with encryption, that strong encryption is something that is used by 
spies and pedophiles, or that, even if industry uses encryption, it 
must understand that the ``best'' encryption is reserved for inner 
pockets of the Government. The net effect is that industry's motivation 
to deploy encryption has been undermined.
    The most unfortunate result is that organizations such as financial 
service providers and hospitals that have the greatest need to use 
encryption too often do not use it. The U.S. Government has in effect 
``poisoned the well'' in a desert to keep outlaws from drinking from 
it. Unfortunately, the nearby villagers meanwhile are dying of thirst.
    Other countries are developing cryptographic technology and making 
it available to the rest of the world anyway. Any country (regardless 
of the status of its relationship with the U.S.) can obtain strong 
cryptography today independently of what the U.S. makes available. 
Worse yet for the U.S., with supportive policies by foreign governments 
in which strong cryptographic technology is developing and strong 
international demand for strong encryption technology, this technology 
will some day in the not-too-distant future exceed the U.S.-based 
technology. The unfortunate result for the U.S. is that our ability to 
control cryptography (a major goal of those who advocate strong 
restrictions) will have passed us by anyway. Our ability to control 
cryptography depends to a large extent on our ability to be the leader 
in cryptography technology.
Additional Pseudoreasons for Restricting Cryptography
    Suppose that, as opponents of easing cryptographic restrictions 
often assert, the U.S. relaxes cryptographic controls, then finds that 
some adversarial or criminal element is using strong cryptography in a 
manner that is significantly harmful to U.S. interests. These opponents 
too often, however, fail to consider the available brainpower and 
resources within the U.S. available to crack the cryptography. 
Overlooking the impressive historical achievements of U.S. 
cryptanalysts in what amounts to a proactive concession of defeat--
saying that the U.S. may or will not be able to cope with any fallout 
that strong cryptography brings should it become more widely available. 
Furthermore, ironically, numerous hostile foreign powers, terrorist 
groups, and criminal organizations almost certainly have the ability to 
break at least some of the cryptography that the U.S. is trying so hard 
to protect.
    Opponents of relaxing U.S. cryptographic restrictions additionally 
fail to come to grips with another firmly established historical 
precedent of which the U.S. is all too aware (e.g., the Walker spy 
case). A cryptographic system, no matter how strong, is only as strong 
as the weakest link. The weakest link is normally a person--a greedy, 
disgruntled, or idealogically-motivated person who thoroughly knows the 
system. If the U.S. needs to crack a cryptosystem that is not 
technically feasible to crack, it can always attempt to crack this 
system by courting the people who know about and work with the system.
Conclusion
    In conclusion, those who have opposed relaxation of cryptography in 
the past have taken a reasonable stand. The major problem today, 
however, is that the technology of the past is not the technology of 
today. Today's networking technology in particular has introduced many 
new, security-related threats, most of which can be addressed by 
today's encryption technology. Computer and telecommunications 
networking are absolutely essential to the U.S. critical 
infrastructure. The sectors within the U.S. that most need to deploy 
this technology, unfortunately, either do not deploy it at all or do 
not use it to its potential. The result is that we are now worse off 
with respect to protecting our critical infrastructure than we were a 
few years ago. This trend will become exacerbated if not reversed. Only 
one reasonable solution exists--to relax restrictions on cryptography 
as soon as possible.

    Mr. Tauzin. Thank you very much, Dr. Schultz. Compelling 
testimony.
    Now, we will hear from a fellow that Mr. Hornstein fears so 
much, Mr. Holahan, executive vice president, marketing, 
Baltimore Technologies, from Dublin, Ireland. Mr. Holahan.

     STATEMENT OF PADDY HOLAHAN, EXECUTIVE VICE PRESIDENT, 
   MARKETING, BALTIMORE TECHNOLOGIES, INTERNATIONAL FINANCE 
                        SERVICES CENTRE

    Mr. Holahan. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Paddy Holahan, executive vice 
president of marketing for Baltimore Technologies. I am 
responsible for the design and marketing of all of Baltimore's 
products.
    I am testifying today to provide the viewpoint of a leading 
information security company that originates from outside the 
USA. I would like to put my comments in context by giving you a 
brief instruction to Baltimore technologies.
    We are a publicly listed company on the London Stock 
Exchange. We develop and market commercial security products 
for use in business and e-commerce. Most of these products use 
encryption technology.
    We have software and hardware development centers in 
Ireland, the UK, and Australia and have sales offices in 16 
cities worldwide and customers in over 40 countries. Many of 
these customers are governments, government bodies, large 
corporations of some of the world's leading financial 
institutions.
    We have business and technology relationships with many 
companies including U.S. corporations such as Intel, Cisco, 
IBM, Netscape, and Security Dynamics/RSA. While we do not 
develope software inside the U.S.A., we are successfully 
selling our products and growing our business throughout 
America.
    We are one of the leading global security companies in the 
world. We export the majority of our products from the country 
of development. These exports are regulated by national 
government of the relevant country, all of which are 
signatories to the Wassenaar Arrangement.
    Accordingly, Baltimore has unrivaled experience in 
operating in the most international of export regulation 
environments. Our business objective is to provide the world 
with the underlying electronic security infrastructure to 
support world commerce.
    The underlying framework of world commerce requires a 
reasonable regulatory environment that transcends national 
boundaries. This framework has to be acceptable to the trade 
requirements of international governments and freedom of the 
individual. Encryption is now a common requirement for almost 
any Internet or e-commerce product.
    This is in contrast to a few years ago when encryption was 
only necessary for specialist products. It is now clear to 
everybody that the regulatory system designed to control 
cryptography in the past cannot be sustained into the future.
    The next move is highly important, and we will encourage 
and support all initiatives to develop the structure that 
supports the requirements of industry and of governments.
    The SAFE Act will completely alter the nature of the 
security market both inside the United States and the rest of 
the world. We welcome the use of cryptography for the 
development of a safe, secure e-commerce structure within the 
United States as proposed within the SAFE Act.
    Security and trust are essential parts of commerce, and 
cryptography is an essential part of e-commerce. The 
prohibition on mandating key escrow will also remove a 
potential technological obstacle to the adoption of secure 
systems.
    The export provisions of the SAFE Act will potentially 
revolutionize the worldwide international e-commerce markets. 
It will clear the way for full-time encryption of a vast range 
of security and general-purpose applications, including Web 
browsers, e-mail, and fine encryption.
    The act will enable the vast majority of non-American 
corporations and consumers to conduct business with each other 
over the Internet using strong security. However, this 
unilateral move comes up soon after 33 leading countries, 
including the United States of America, agreed to harmonize a 
base level of crypto regulation in the Wassenaar Arrangement.
    The SAFE Act may solve a single problem of U.S. export but 
may cause other difficulties in selling and using U.S. security 
products between other countries, as many U.S. corporations 
have development and manufacturing and distribution facilities 
throughout the globe.
    This is not a U.S.-versus-the-rest-of-the-world issue. The 
United States is in a unique position in that it is the largest 
single market for development, export, and purchasing of high-
technology products.
    I would encourage the committee to consider a more 
international approach to the export section of the SAFE Act so 
that we recognize the international aspect of industry and of 
the Internet. I also wish to refute the widespread perception 
that non-U.S. security companies flourish solely because of 
inability of U.S. companies to export products with strong 
crypto.
    As part of my research for this testimony, I was astounded 
by some of the claims presented to other subcommittees. It is 
vital that this subcommittee is not misled into developing 
legislation based on incorrect information. We welcome any 
moves to encourage open markets for encryption products 
throughout the world.
    The current U.S. regulations may appear to give non-
American companies a massively unfair advantage, but in truth 
the advantage gained is slight.
    U.S. companies dominate in the software and technology 
worldwide and will continue to do so. There are tens of 
millions of users of Microsoft and Netscape products outside of 
America, most of whom have reduced-strength cryptography.
    Even though freeware products exist to reinstate the strong 
crypto, a tiny percentage of people have done so. We derive a 
high percent of our revenues from the financial sector, but 
U.S. companies are free to offer strong cryptographic products.
    We compete successfully in the same way as any technology 
does, by bringing the best products to market first. I do not 
know of any significant non-American companies who deliberately 
set out to build a business based on the U.S. export situation.
    The only situations we encounter of companies deliberately 
side stepping U.S. regulations are the international 
subsidiaries of American corporations. While U.S. companies are 
subject to export restrictions, they have a domestic market 
that is the most active and sophisticated in the world, 
comprising 260 million people.
    Many of Baltimore's products emanated from our Ireland 
development center with a domestic market of only 4 million 
people. American companies are not losing the technology, nor 
will they.
    There exist many significant impediments to the development 
of security products, and many American companies would cite 
the commercialization of various patents as being more 
significant. The SAFE Act presents a highly significant 
opportunity to change the security landscape within the United 
States and beyond. It will impact both U.S. and non-U.S. 
security and encryption companies and potentially alter the way 
in which e-commerce and the Internet are secured.
    I would like to thank you for your invitation to present 
here today.
    [The prepared statement of Paddy Holahan follows:]
   Prepared Statement of Paddy Holahan, Executive Vice President of 
                   Marketing, Baltimore Technologies
                              introduction
    The Subcommittee on Telecommunications, Trade and Consumer 
Protection has requested that Baltimore Technologies present testimony 
on the SAFE Act.
    We would like to thank the committee for the opportunity to present 
views and assist the committee with its work. As a leading non-US 
originated developer of security and encryption products with sales 
throughout the world, including the United States of America, we can 
provide a different perspective on the implications of this 
legislation. We are not encouraging the members to vote in a particular 
direction.
    Cryptography is being incorporated into more and more technology 
products every day. The general technology boom and the Internet in 
particular fuel this explosive increase in use of crypto. It is 
apparent to everyone that a regulatory system designed to apply to a 
small number of specialist products cannot be sustained into the 
future.
    Baltimore Technologies is a publicly listed company with 
headquarters in Ireland, UK, Australia and the USA. As a leading global 
supplier of security products for use in enterprise and e-commerce 
systems, we welcome all attempts to encourage worldwide open markets 
for cryptographic products. As a global company, we wish to compete on 
a level playing field and let the consumer choose the best product and 
supplier.
    Baltimore Technologies, along with many other non-American 
originated companies, has no reservations with the underlying concepts 
in the SAFE Act. Indeed, we would welcome the global availability of 
products such as browsers, secure email and emerging technologies that 
will encourage generate the environment for world e-commerce.
    A large portion of Baltimore's business comes from customers who 
are free to choose products from our competitors from the USA, Canada, 
Europe. These customers are either American corporations or financial 
institutions who can obtain export licenses for US products. We believe 
that a very small percentage of our business comes as a direct result 
of American export restrictions.
    Baltimore has technology and business relationships with many 
world-leading technology companies. These relationships are based on 
mutual business benefits and not because Baltimore is a non-US company. 
In the past three years we have worked with companies such as Intel, 
Cisco, IBM, Security Dymanics/RSA, Netscape. These relationships exist 
both inside the United States and in other countries where Baltimore 
operates.
(A) Comments on SAFE Section 2: Sale and Use of Encryption
    As a growing supplier of security and cryptographic products within 
the USA, Baltimore Technologies welcomes the provisions of section 2 
which ensure that businesses and individuals will continue to have the 
right to buy and use security products for legitimate personal or 
business use.
    The prohibition on mandatory key escrow is also welcomed. Key 
recovery has certain legitimate uses in commerce and it remains an 
important optional security system for certain industries.
(B) Comments on SAFE Section 3: Exports of Encryption
    Baltimore Technologies does not develop products in, nor re-export 
products from the USA. As such the provisions in the SAFE Act will not 
change the manner in which we do business--but it will completely 
change the way US companies compete in the global market.
    In considering liberalising cryptography export policy the 
committee should consider the following:
    1. Passing the SAFE Act will not solve all export problems for US 
corporations and will not create the international environment that is 
fundamental for world commerce. US companies develop, manufacture and 
distribute products from many countries worldwide. The SAFE Act will 
enable export from the US, but thereafter companies will have to comply 
with the export regulations of other countries. It is fundamental to 
the success of world commerce that the SAFE Act is consistent with the 
regulatory environment in all key world economies.
    2. The US's current export stance impacts the vast majority of 
computer users worldwide. For example the overwhelming majority of 
Internet access is conducted using US products such as Microsoft 
Windows and Internet browsers that remain crippled at 40-bit encryption 
outside of the US.
    3. This Act will completely revolutionise the Internet and e-
commerce internationally, giving international free access to full 
strength secure Internet browsers and email along with a range of other 
products.
    4. The passage of this Act may encourage other countries to bring 
their export regulations in line with the USA. This will create a freer 
market for cryptographic products worldwide.
    5. Most countries have a cryptography export policy. These policies 
vary from country to country, but it is wrong to assume that the US is 
currently out of step with the rest of the world. The unique part of 
the US export system is the use of restricted key-lengths.
    6. It is true that all security and encryption companies are prone 
to losing business as a result of export, import and usage restrictions 
imposed by national governments. It is important to recognise that US 
companies are not unique in this regard. The United States, as the 
largest exporter of software and high-technology products in the world, 
feels the effects of export restrictions more noticeably than other 
countries.
    7. The SAFE Act, if passed, may contradict the terms of the 
recently agreed Wassenaar Arrangement signed by the governments of 33 
leading nations, including the USA. While the Wassenaar Arrangement 
imposes unwelcome restrictions on cryptographic products, Baltimore 
welcomes the attempts at international consistency and harmonisation.
    8. The SAFE Act correctly distinguishes between products that 
include cryptographic functionality and pure cryptographic 
products.Many technology products now include cryptographic elements in 
order to provide security for Internet users. These products provide 
functionality that is simply made secure by crypto. For example Web 
Browsers and conventional email systems are in widespread use, but they 
also include cryptography which can secure communications if necessary.
    Pure cryptographic products, on the other hand, can be used in a 
more general-purpose manner and can be used to build a wide range of 
security systems for almost any use.
                            other commentary
    The US cryptography debate has generated a great deal of interest 
and debate, but there is much misunderstanding of the global situation.
    1. It is misleading to state that non-American companies are 
flourishing because of the current US policy. Surveys are often 
presented stating the number of programs available internationally that 
include strong crypto (e.g. PGP, Fortify). What these surveys neglect 
to mention is that the dollar value of the sales of all these products 
is very small when compared with sales of similar products in the US. 
The United States dominates the world's software market and will 
continue to do so. While there is no argument that some US companies 
are obviously limited in their non-US markets for strong-crypto 
products, it is not the case that non-US companies are flourishing at 
an exaggerated rate.
    2. Most countries do have effective export restrictions that 
regulate export of cryptographic products. Baltimore Technologies has 
to deal with three export administrations in Ireland, the UK and 
Australia who regulate encryption product exports in different ways.
    3. US Companies operate in the best global environment to develop 
and sell high-technology products including cryptography. A US software 
development company can operate without any restriction on use of 
cryptography. US companies have unregulated access to a market of 260 
million people who are the most advanced and wealthy consumers in the 
world. Contrast this with the situation of non-US developers who cannot 
access the security building blocks provided in operating systems. For 
instance, Baltimore Technologies cannot utilise the cryptographic 
subsystem offered in Microsoft Windows, the most popular operating 
system in the world.
    Non-US companies have always been at a distinct disadvantage to 
their US counterparts, and have only succeeded by building better 
products.
    4. Operating in the international market, Baltimore deals with an 
array of cryptographic regulations that require us to modify our 
products. We, as well as being developers of cryptographic systems, 
support competitive cryptographic systems from many other vendors.
    5. Baltimore will welcome the global availability of strong-crypto 
versions of popular software such as browsers, email programs etc. The 
widespread availability of these products will encourage secure e-
commerce and will enable Baltimore and other American and non-American 
companies to expand their business of providing security systems based 
around these software systems.
    6. In our experience, export licenses are generally available to US 
companies for a great number of sales that Baltimore bids for 
throughout the world. Additionally, many US companies have bought 
foreign companies or establish non-American corporations to enable them 
to sell to a wider market. American companies are a formidable force in 
the global security marketplace.
                            recommendations
    1. The SAFE Act export provisions will let the ``genie out of the 
bottle'' in an inconsistent manner to that of other countries. An 
international approach to addressing the regulation of cryptography 
already exists in the form of the Wassenaar Arrangement.
    Baltimore Technologies suggests that the issue of cryptographic 
export regulations be addressed on an international basis rather than 
in isolation. This is not a matter of the USA versus Rest-of-the-World 
. The twin concerns of the government and citizens of the United States 
are not dissimilar to those in other countries. US-based security 
companies have by-and-large similar experiences to that of non US-based 
companies.
    2. Baltimore Technologies suggests that the differences in 
regulations between general products that include cryptography (e.g. 
Browsers) and pure cryptographic products are maintained.
    3. As the leading nation in world commerce, the United States of 
America has an opportunity to create a global framework for e-commerce 
that incorporates the appropriate encryption policy.

    Mr. Tauzin. Thank you Mr. Holahan.
    Now, Mr. David Dawson, chairman of and CEO of V-One 
Corporation of Germantown, Maryland. Mr. Dawson.

     STATEMENT OF DAVID D. DAWSON, CHAIRMAN AND CEO, V-ONE 
                          CORPORATION

    Mr. Dawson. Thank you, Mr. Chairman. It is a pleasure to be 
with you today. V-One is a public company that has been 
providing network security solutions for over 7 years, which 
sort of makes us an old timer in this space.
    Although we got our start providing security solutions to 
agencies of the Federal Government, Department of Defense, and 
so forth, today our commercial business outstrips our 
government business by two to one.
    Our products are used by some of the world's largest 
companies, largest global corporations, so we have had exposure 
to both the public and private sector perspectives on this 
issues. We support the efforts of this committee to make 
electronic commerce viable and U.S.-developed encryption 
products competitive.
    We agree that such commerce demands strong encryption 
capabilities. We also believe that H.R. 850's goals can be 
achieved through current regulations on the export of strong 
encryption in a matter that satisfies law enforcement, the 
courts, and the concerns of the private sector.
    The issue is how to balance the interests of law 
enforcement while providing protection under the first and 
fourth amendments in an approach that is commercially viable.
    Implementation of a mechanism for recovering encryption 
keys does not need to compromise these protections. We have 
seen techniques attempted and failed because they create undue 
administrative burdens and security risks that are clearly 
unacceptable to the private sector, such as third party or key 
escrow approaches or because they create back door access to 
plain text data.
    Just because these attempts failed does not mean that the 
interests of all parties cannot be served by other solutions. 
V-One has developed a technique for recovering encryption keys 
that leaves the control of the keys with the company while 
providing limited conventional mechanisms for law enforcement 
to recover those keys.
    This method, called ``Trusted First Party,'' was recently 
approved by the Department of Commerce and is shipping today. 
If law enforcement wanted to obtain a document from your 
organization's file or safe, they would first have to convince 
a court that they had probable cause to believe that the 
document was being used in the commission of a crime.
    If they were successful in convincing the court, the court 
could issue an order to have the organization turn over those 
documents to the appropriate law enforcement agent. We have 
lived by these laws and protections from excessive force and 
illegal search and seizure for some time and it would seem that 
they have served us well.
    In crafting the requirements for industry to manage 
encryption, we believe that the Department of Commerce has 
merely attempted to apply current laws and protections for 
recovering documents to recorded secure electronic commerce.
    Properly implemented key recovery simply extends current 
laws to the encrypted electronic world. Key recovery, when 
under the complete control of the corporate entity, is not in 
and of itself a security boon or bane.
    In the realm of data communications, we would concur that 
it serves no useful purpose to the company. What the Trusted 
First Party approach does do is to provide key recovery that 
satisfies the concerns of law enforcement in a way that upholds 
the private sector's privacy and security.
    Recently the U.S. Court of Appeals for the 9th Circuit in 
Berstein v. USDOJ determined that the requirements on Mr. 
Berstein to obtain export approval for his academic research 
constituted prior restraint of his freedom of speech. V-One has 
eliminated need for entities using the Trusted First Party 
technique to obtain prior approval from the Department of 
Commerce.
    Because of this approach's approval by the Department of 
Commerce, individual case-by-case export approval is not 
necessary, thus eliminating the prior restraint issues raised 
by the 9th circuit.
    In conclusion, our Trusted First Party solution works 
within current U.S. encryption law and satisfies, first, the 
courts by eliminating the need for government case-by-case 
export approval, thus avoiding the prior restraint of freedom 
of speech issues cited in the 9th circuit court.
    Second, law enforcement, by providing a reliable mechanism 
for recovering individual session keys with a valid court order 
giving them the same ability they have today with nonelectronic 
communications.
    And third, the private sector by allowing them to keep 
control of their own session encryption keys in a way that 
poses no additional security risks and by allowing them to use 
strong U.S. encryption technology today. This means that under 
the current law, any customer in a nonembargoed country can use 
any strength encryption to protect any application without a 
case-by-case U.S. Government approval.
    And Trusted First Party has proven that this can be done 
today with virtually no additional finance or resource 
requirements on the customer's part. Therefore, we believe that 
current U.S. law relating to encryption exports can meet the 
interests of the private sector, law enforcement, and the 
courts.
    The V-One Trusted First Party technique is a patent pending 
solution which requires significant expenditure and development 
on the part of V-One. In order to accelerate the acceptance of 
U.S.-developed strong encryption solutions without compromising 
the needs of law enforcement, we are willing to share this 
technology with other U.S. companies.
    We appreciate the opportunity to be a constructive part of 
this debate on these important issues facing this committee and 
our country. Thank you for your time and attention.
    [The prepared statement of David D. Dawson follows:]
    Prepared Statement of David D. Dawson, Chairman and CEO, V-ONE 
                              Corporation
    V-ONE Corporation supports the efforts of H.R. 850 to make 
electronic commerce viable and U.S. developed encryption products 
competitive. We agree that such commerce demands strong encryption 
capabilities. We also believe that H.R. 850's goals can be achieved 
through current regulations on the export of strong encryption in a 
manner that satisfies law enforcement, the courts and the concerns of 
the private sector.
    The issue is how to balance the interests of law enforcement while 
providing protection under the 1st and 4th Amendments in an approach 
that is commercially viable. Implementation of a mechanism for 
recovering encryption keys does not need to compromise those rights.
    We have seen techniques attempted and failed because they create 
undue administrative burdens and security risks that are clearly 
unacceptable to the private sector--such as third party or key escrow 
approaches--or because they create ``backdoor'' access to plaintext 
data. Just because these attempts failed does not mean that the 
interests of all parties cannot be served by other solutions.
    V-ONE has developed a technique for recovering encryption keys that 
leaves control the keys with the company while providing limited 
conventional mechanisms for law enforcement to recover those keys. This 
method, called Trusted First Party, was recently approved by the 
Department of Commerce and is shipping today.
    If law enforcement wanted to obtain a document from your 
organization's files (or your safe), they would first have to convince 
a court that they had probable cause to believe that the document was 
being used in the commission of a crime. If they were successful in 
convincing the court, the court could issue an order to have the 
organization turn over the documents to the appropriate law enforcement 
agent.
    We have lived by these laws and protections from excessive force 
and illegal search and seizure for some time and it would seem that 
they have served us well. In crafting the requirements for industry to 
manage encryption, we believe that the Department of Commerce has 
merely attempted to apply the current laws and protections for 
recovering documents to recorded secure electronic communications
    Properly implemented key recovery simply extends current laws to 
the encrypted electronic world. Key recovery--when under the complete 
control of a corporate entity--is not in and of itself a security boon 
or bane. In the realm of data communications, we would concur that it 
serves no useful purpose to the company. What the Trusted First Party 
approach does is to provide key recovery that satisfies the concerns of 
law enforcement in a way that upholds the private sector's privacy and 
security.
    Recently, the U.S. Ninth Circuit Court of Appeals in Berstein vs. 
USDOJ determined that the requirement on Mr. Bernstein to obtain export 
approval for his academic research constituted a prior restraint of his 
freedom of speech. V-ONE has eliminated the need for entities using the 
Trusted First Party technique to obtain the prior approval from the 
Department of Commerce. Because of this approach's approval by the 
Department of Commerce, individual case-by-case export approval is not 
necessary, thus eliminating the prior restraint issues raised by the 
court.
    In conclusion, our Trusted First Party solution works within 
current U.S. encryption export law and satisfies:

First, the courts by eliminating the need for government case-by-case 
        export approval, thus avoiding the prior restraint of freedom 
        of speech issues cited by the Ninth Circuit Court;
Second, law enforcement by providing a reliable mechanism for 
        recovering individual session keys with a valid court order, 
        giving them the same ability they have today with non-
        electronic communications; and,
Third, the private sector by allowing them to keep control of their own 
        session encryption keys in a way that poses no additional 
        security risks, and, by allowing them to use strong U.S. 
        encryption technology today.
    This means that under current law, any customer in any non-
embargoed country can use any strength encryption to protect any 
application without case-by-case U.S. government approval. And, Trusted 
First Party has proven that this can be done today with virtually no 
additional financial or resource requirements on the customer's part. 
Therefore, we believe current U.S. law relating to encryption exports 
can meet the interests of the private sector, law enforcement, and the 
courts.
    The V-ONE Trusted First Party technique is patent pending solution, 
which required a significant expenditure in development on the part of 
V-ONE. We are also keenly aware of the strong encryption export debate 
that has ensued. In order to accelerate the acceptance of U.S. 
developed strong encryption solutions without compromising the needs of 
law enforcement, we are willing to share this technology with other 
U.S. companies.
    We appreciate the opportunity to be a constructive part of the 
debate on this important issue facing this committee and our country. 
Thank you for your time and attention.

    Mr. Tauzin. Thank you, Mr. Dawson.
    The Chair recognizes himself for 5 minutes. Quickly, Mr. 
Schultz, what is your take on Mr. Dawson's solution?
    Mr. Schultz. I would like to see it.
    Mr. Tauzin. Grab a mike. I want to hear Mr. Arnold's take 
on it, too.
    Mr. Schultz. I would like to see it. The idea sounds good. 
I would like to see how it actually works. I would like to see 
how the protocols function; and, if it does work, it would seem 
to squarely address, I believe, some of the problems that have 
been raised today.
    Mr. Tauzin. Mr. Arnold.
    Mr. Arnold. I am not directly familiar with the solution 
itself or its implementation, so I would have to actually take 
a look at it and review it. It may hold a great deal of 
interest to us.
    As it stands right now, I am struck by the fact that there 
is such wide availability through 128-bit cryptography out 
there that people who would be using this that would be 
investigated or, slightly nefarious, would probably not use 
key-recovery technology.
    So any additional expense as far as managing the key-
recovery technology or managing the resources and systems to do 
this would be borne by the people implementing it, basically 
legitimate businesses much like ourselves.
    Mr. Tauzin. Do me a favor. Take a look at and comment in 
writing to us on it. I would like to hear your comments on it, 
your take on it. Anyone else that would like to do that, I 
would appreciate that, just to see if we can get a balanced 
look at what is being proposed.
    Mr. Reinsch, I want to turn to you and Ms. McNamara and Mr. 
Lee. One of the criticisms you make of the bill is that it 
would discourage the growth of voluntary systems. Mr. Lee 
pointed out in your testimony that the witness--that businesses 
already are key recovery to meet their own needs. I assume this 
is because it is in their interest to do so.
    Why would a prohibition as contained in H.R. 850 on 
mandatory key recovery inhibit the growth of voluntary key-
recovery systems or the use of Mr. Dawson's concept if 
businesses saw it in their interest to use that patented 
technology?
    What is in the bill that would say that his solution 
couldn't work for people who wanted to use it and then 
voluntary key recovery is not now available and would continue 
to be available if businesses who want that type of a system? 
Any one of you.
    Mr. Lee. Mr. Chairman, the provision that I was referring 
to is the provision in H.R. 850 that states that the government 
may not require or condition any approval on the requirement 
that the key be built in the hardware or software for any----
    Mr. Tauzin. Right. It is a provision that government cannot 
mandate key recovery. Why is that provision bad for businesses 
who want key recovery, might voluntarily want to adopt one of 
these things?
    Mr. Lee. I think the point is that the government is 
encouraging businesses to take a look, as several of the 
panelists have testified here, at the requirement, the business 
requirement for key recovery.
    One of the points that we would make is that in some cases 
the business requirement, that is the requirement of things 
that you have to do to make a profit and sell your product and 
be out there in the marketplace, includes complying with 
government requirements, regulations, and oversight.
    In some of those cases it may be necessary to meet that 
business requirement for private companies to take a look at 
various systems that will enable them to guarantee them that 
they have access to plain text when they need it for a business 
purpose.
    Mr. Tauzin. You are saying the capacity of the government 
to mandate it serves as an encouragement of citizens to look at 
it. But we know from your testimony that citizens are not 
looking at it. Businesses are now developing it. What is wrong 
with that?
    Mr. Lee. Mr. Chairman, it wasn't my testimony that the 
government seeks to mandate key recovery. Independent of key-
recovery technology--the government has requirements that 
businesses make available certain records for governments, for 
agencies to perform their regulatory functions.
    To meet those requirements, industry may need to take a 
look at various systems that guarantee that they can make plain 
text available. That was the point that I was trying to make.
    Mr. Tauzin. I need to move on, but I am going to ask you to 
please, any one of you, submit to me in writing a clear 
explanation of why you think a prohibition against mandatory 
key recovery in the bill operates to discourage voluntary key 
recovery for those businesses who like it, who want to use it. 
I missed that very badly. I don't understand the argument.
    Quickly, I want to hear something more importantly from 
you, Ms. McNamara and Mr. Reinsch. Mr. Schultz and Mr. Arnold 
made a very compelling case that the national security interest 
of this country are threatened today, even our Gulf War 
operations were threatened because of the lack of highly 
capable encryption technologies being out there, and that 
absent policy to encourage the development of extremely capable 
encryption technologies, that national security is threatened.
    You make the argument that the export and development of 
these encryption technologies itself threatens national 
security. We are getting it from both sides here. And the 
national security argument is very compelling to us in the 
Congress, as you might know, particularly on the day that the 
Cox Committee report is being released.
    But we are hearing it from both sides. We are being told 
don't let this encryption stuff go forward because it will 
threaten national security. We are hearing national security is 
already threatened because of the fact--as well as business 
security and privacy and confidentiality all of the other 
things you are talking about, Mr. Arnold--are threatened 
because of the lack of a good strong encryption policy. Which 
is it? Ms. McNamara?
    Ms. McNamara. Mr. Chairman, first let me comment on our 
concerns about the prohibition of key recovery.
    Mr. Tauzin. Please do so.
    Ms. McNamara. As we read the language, it would prohibit 
the U.S. Government from also specifying that key recovery was 
the choice that they wanted to make.
    Mr. Tauzin. You mean in terms of its own procurements?
    Ms. McNamara. In terms of the U.S. Government's own way of 
dealing with U.S. Government communications. Correct. As 
currently written, it would prevent the U.S. Government from 
specifying that key recovery was an element of choice for them.
    Mr. Tauzin. But your concern is that the bill would prevent 
the government in its procurement policies from choosing a key 
recovery system?
    Ms. McNamara. Yes. In fact, the Department of Defense a 
year and a half ago--Bill, help me--specified that they would 
only use by date certain products that were key recoverable.
    Mr. Tauzin. Your concern is this bill would prevent that?
    Ms. McNamara. That is absolutely correct. That is our 
interpretation. And the government may choose to use that as a 
means of recovering data that they require.
    Mr. Tauzin. That is a separate argument from saying that 
others would not choose voluntary key-recovery systems.
    Ms. McNamara. And I am addressing our concern as the agency 
of government that is responsible for providing security for 
U.S. Government sensitive communications.
    Mr. Tauzin. I understand that concern. That one makes 
sense. The other doesn't and that is where I am lost.
    Ms. McNamara. I wanted to address that from our point of 
view. Regarding Dr. Schultz's remarks, I would say that he 
reinforced my statement that while encryption is available, it 
is not being widely used.
    During the Desert Storm/Desert Shield arena, we have 
records where we did have strong encryption products available 
for use by U.S. Government forces, U.S. military forces 
involved in Desert Storm, Desert Shield; and we know that they 
weren't being used. People don't use it if they have to elect 
to use it.
    Mr. Tauzin. Let me touch on that quickly. Mr. Reinsch, you 
are saying you are amending government policy by granting 
encryption products at 128 bits or higher on request under 
waivers and certain circumstances. Mr. Gillespie points out in 
47 seconds you can down load 128 bit encryption software if you 
want to use it.
    But if I am a bad guy and I want to use it. I can get it 
off the Internet in 47 seconds. What purpose does your policy 
serve in hamstringing or handicapping the sale or the use of 
encryption products and export faith by America when the bad 
guys can already get it in 47 seconds.
    Mr. Reinsch. I think there are several answers to that, Mr. 
Chairman. First of all, I think the downloading is, from our 
point of view, a question of confidence. If you have confidence 
in what you download from the Internet without necessarily 
knowing its providence, then fine, you can use that encryption.
    Mr. Tauzin. You are saying that it is not a good system?
    Mr. Reinsch. I am saying that you don't know that when you 
download it. Sometimes it is and sometimes it isn't. And it is 
not easy for the customer, in particular, to know with 
certainty what he is getting when he obtains encryption through 
that device.
    Now, if you want to do that, that is fine. We have never 
claimed in any of our statements that the effect of our policy 
is perfect in the sense that it prevents terrorists, drug 
dealers, or whoever from obtaining robust encryption and 
utilizing it if that is what they choose to do.
    We are trying to influence market developments at the 
margin. We are not attempting to deal, because we cannot for 
the reasons that you said, with every possible contingency.
    Mr. Tauzin. My time is up, but I want you to comment 
quickly on one of Mr. Hornstein's arguments that the 
regulations of our government, particularly in incapacitating 
his executives from communicating with companies overseas in 
these contracts to which he is saying he is handicapped, is 
harming U.S. companies' abilities to win those contracts. Your 
comments, quick.
    Mr. Reinsch. Well, Mr. Hornstein and I probably need to 
have a private conversation about the particular cases. Let me 
just say with respect to the first one, he has correctly stated 
the status of the item that he wants to export. He came in for 
an advisory opinion, and we told him what he said.
    As far as we know they have not actually applied for a 
license to export that item, and I don't think that it is fair 
to assume that such an application would be denied if he were 
to submit one. We try to work with companies to address the 
kinds of problems that he is reflecting here, and I am not sure 
that we are entirely responsive in his case.
    Mr. Tauzin. I think what he said was in the meantime his 
people can't communicate without violating your regulations. Is 
that true, Mr. Hornstein?
    Mr. Hornstein. Yes.
    Mr. Tauzin. Is that a real problem?
    Mr. Reinsch. What we said in the first case was, in order 
to provide technical assistance to his people, in order to 
provide that communication, his people would need an export 
license. He is correct about this.
    If he would come in and ask us for an export license, which 
he has not done, and then we were to deny it, he would have a 
better point.
    Mr. Tauzin. I want to understand how that works a little 
bit better, and maybe we will get to that later. The gentleman 
from Massachusetts.
    Mr. Markey. Thank you. Mr. Holahan, thank you so much for 
coming from Dublin. It is no wonder you have such a keen 
interest in encryption issues, because without question the 
first commercially available encryption technology did come 
from Ireland. It was James Joyce's ``Ulysses.''
    It was the greatest book every written, although very few 
people have read it; and those that have concluded, finished 
reading, the book have no idea what it was that they read.
    Mr. Holahan. You do have to decrypt it. Ten pints of 
Guinness will decrypt it.
    Mr. Markey. The Irish would be good at this. So my question 
will be this. For instance, as I said earlier that security and 
privacy are the flip sides of the same coin. Obviously, 
Americans want both. The people here can help us maybe to 
square this all up today.
    So when I encrypt my cell phones by subscribing to a 
digital technology so that the contents of my conversation is 
pure and private, at the same time there is a company who knows 
who I called, when I called, from what location I called; and 
that is very highly valuable information. It is both.
    So the company has my valuable information now. That is why 
we have laws and rules over how telephone companies can 
disclose our phone calls. They just can't hand this stuff out 
to people. It is very private, who we call, when we call, from 
where we call.
    Similarly, on the Internet making my on-line purchases more 
secure, my on-line stock trading encrypted and secure and 
encrypting the contents of e-mails and computer files helps to 
foster electronic commerce and promote privacy. And that is 
good. I don't want people to be able to crack in.
    Yet, regardless of whether I send an e-mail or consummate 
an on-line transaction, simply knowing which on-line sites I 
visit, when I visit those sites, how long I linger on certain 
pages is also highly valuable and may be highly personal 
information.
    Shouldn't companies have an obligation as telephone 
companies do today to allow me to protect the confidentiality 
of what places and sites I call upon with my computer?
    Mr. Schultz, do you believe that I should have a legal 
right to block a company from using that information for any 
other purpose other than that which I originally attempted?
    Mr. Schultz. I am hesitant to plunge into that arena from 
the standpoint that the behavior is so firmly established as 
far as being able to tell who hit your web site, who hit your 
file transfer site, and things like that. To reverse that 
around is a radical departure from computing norms.
    Mr. Markey. So your concern is that the government could 
crack in, but you are not concerned that others could crack in?
    Mr. Schultz. In terms of being able to grab the information 
and thus reveal information about individuals, right. And if I 
actually hit Playboy.com or some other site and there is some 
concern now because they are the priest of a church or 
something----
    Mr. Markey. That is very scary.
    Mr. Schultz. But it is well-established behavior.
    Mr. Markey. I know, but we have to reverse that. You are 
here representing ordinary people. You are saying that they 
should be given security. They should be given privacy from the 
government.
    And yet when I raise the question of companies compromising 
or individuals compromising my privacy, my electronic commerce, 
you say it is gone, it is lost. Whereas we could pass a law 
here to get protection for that as well. You don't you think we 
should?
    Mr. Schultz. I don't think that you should.
    Mr. Markey. You think we should.
    Mr. Schultz. I don't think that you should.
    Mr. Markey. Why not?
    Mr. Schultz. The reason is that when you play in a public 
playground, which the Internet and the many other public 
networks are----
    Mr. Markey. Do you consider the telephone network a public 
playground?
    Mr. Schultz. Less so.
    Mr. Markey. Do you think Americans consider their on-line 
commerce, their on-line trading, their children heading out to 
web sites to be in any less need of privacy than the telephone 
calls their children make or their families make? You think 
Americans believe that?
    Mr. Schultz. I believe that many Americans believe that it 
is a different ball game playing out.
    Mr. Markey. You couldn't be more wrong on that. People 
don't want as they move over from the telephone to the computer 
making the same transactions to have that stuff out into the 
public domain so that any company can compromise it.
    My problem with you, Dr. Schultz, is that you can't square 
up this policy. You can't sit here and testify about how 
concerned that we should be that the government could crack 
into the privacy of Americans.
    By the way, I would trust them more in many instances than 
I would trust many of the companies that you are representing 
in terms of preserving and protecting the privacy, the 
security, the integrity of this information.
    I see you here representing corporations, but I don't see 
you here representing the American people today. I support your 
policy on encryption. I think that I have a right to that 
encryption, sir.
    But I think I have a right to be protected against your 
company, too, reusing my information. Is there anyone here, any 
company here, that believes that we should be able to pass a 
law to protect against the reuse of the information which is 
gathered by your companies for purposes other than that which 
the individual, the family intended? Will anyone here testify 
to that? Good. Mr. Arnold.
    Mr. Arnold. Let me jump into this fray if I may, Mr. 
Markey. I think there is several issues on the table with 
regards to privacy and subsequent use of the information both 
by the company and then unintended use by someone who either 
penetrates the system.
    One of the major concerns that I think that we have is the 
longevity that the data sits in various data bases and the 
length of time it may be accessed. I think that is one of the 
major arguments for the use of hardened encryption to these 
systems. It is also to keep private information on individuals, 
on customers, on consumers from being seen by people who have 
absolutely no need to see it within the organization and 
outside the organization.
    Mr. Markey. My question is should you give the individual a 
right by law to deny the reuse of that information? Should it 
remain in the company's purview as to when it is used and 
whether it is sold to other people? How do you believe? What do 
you think?
    Mr. Arnold. I can answer. Personally, I believe that it 
should be up to the person to deny subsequent use.
    Mr. Markey. Thank you. Does anyone else on the panel agree 
with Mr. Arnold? No one else? That is a problem for me. 
Essentially, the policy is burglary is okay as long as the 
company leaves a note saying, well, we took this information, 
and we are giving you notice that we are selling it all.
    But you don't have any legal right to block us from 
reselling any of this information. We can burgle all of your 
private information. All of the information we want to keep 
governments from gaining access to, we can burgle and sell for 
profit for our company.
    I have a problem. Mr. Arnold, at least you believe that the 
individual has some right to protection from a company 
compromising that which we don't want the government to 
compromise.
    Mr. Arnold. I would add also that the major thing that a 
consumer looks for is the fact that they don't want somebody 
masquerading as them on the Internet.
    Mr. Markey. Exactly. Mr. Hornstein.
    Mr. Hornstein. I am just confused at the comparison. I 
understand that we are debating here about encryption and the 
exports internationally. But your example, which is just with 
the Internet, how is that different from Visa and the paper 
process of obtaining information or somebody sending a letter 
in the mail with an address or return address on the corner and 
then people processing that in a manual system. I don't 
understand how those two are brought together in the context of 
this discussion.
    Mr. Markey. Because you are telling us that everything is 
going digital, everything is going on line, all commerce is 
going on line and as a result everything is much more 
vulnerable.
    My question to you is as we move through this era and you 
warn us what the government can do as we move into this era, 
should we also be apprehensive of what it means for individual 
privacy, for children's privacy in our country?
    In other words, the point that I am making again, it is the 
other side of the same coin, privacy and security, the 
government and the private sector. And the question is whether 
or not the industry can have it both ways.
    They can say it is a serious issue when the government is 
going to be able to intrude, but it is not a serious issue if 
they are going to compromise the very same. I don't think that 
you can have it both ways. I think you have got to be on one 
side of the issue or the other. I don't think that you can have 
it both ways. And I genuinely--I will be glad to yield.
    Mr. Stearns. This might be supporting what you are saying. 
If I bought products from L.L. Bean, is L.L. Bean able to make 
public my selections; or, for example, can the telephone 
company make public all of my calls? No. I think that is the 
case that you are making.
    Mr. Markey. The telephone cannot.
    Mr. Stearns. Can L.L. Bean?
    Mr. Markey. Yes.
    Mr. Stearns. So then what you have to decide is 
differentiate between a company like L.L. Bean can make it 
public, but if a phone company can't, the phone company is sort 
of quasi-regulated. We have to be consistent.
    Mr. Markey. If I may----
    Mr. Stearns. Can't MasterCharge and VISA disclose too?
    Mr. Markey. Yes, quite briefly, as all of the health care 
information goes from being in a file where you walk in and the 
doctor and the nurse have your file and have had it and your 
children's files since the day they were born.
    We are moving into an era where the HMOs and the larger 
health care consortiums are now taking all of those files out 
of their hands, computerizing it, finding out who has all of 
these various ailments and whatever; and now they can market it 
to other companies who they would never market it to.
    So what happens is that as we move from this era of where 
we had privacy keepers, we now have the capacity where the data 
mining keepers are able to take it and create information, DNA 
about our families. That's what all of these industries are all 
about.
    They don't want the government to be able to crack in for 
their security. My question is should, as the new era unfolds, 
should we put a set of protection upon the books because it has 
never been possible before. Yes, in limited cases, L.L. Bean or 
whatever, but now we are talking about all of your financial 
records and all of your health care records for you and your 
family.
    I think that we should discuss it. I don't think that as 
yet the industry has squared up their concern about privacy and 
security with the American individuals that also need to be 
protected. You haven't done it.
    Mr. Tauzin. The gentleman's time has expired. Let me, for 
the purposes of the committee, point out that the weekend 
retreat we have scheduled in July we will be focused on this 
and very similar issues involving the movement to digital in 
the Internet.
    I would again encourage you all to make sure that you put 
aside time for that weekend, 14, 16, 17, sometime around then 
to be with us for that retreat. CATO just completed a privacy 
session on many of these issues that Mr. Markey has raised. We 
are going to be faced with them very shortly as the Internet 
becomes a place for telephony.
    You know, the AT&T cable merger is designed specifically in 
that area, to define a new way of us reaching each other over 
the Internet with pictures and audio services. That Internet 
telephony is not covered by the prohibition that prevents the 
telephone companies from marketing that information. That and 
similar issues will be raised at that retreat.
    I use the occasion of Mr. Markey's comments and questions 
to remind you these issues are going to be before us rapidly. 
Make sure that you make time to be with us. We are going to 
have some healthy discussions about them at our retreat. The 
Chair now recognizes the gentleman from Ohio, the Vice 
Chairman, Mr. Oxley.
    Mr. Oxley. Thank you, Mr. Chairman. Mr. Dawson had a 
response, I think, to Mr. Markey's question.
    Mr. Dawson. I was just going to add to what you said. Your 
idea of the company being able to use that information, I think 
if someone visits my web site, the fact that they visited my 
web site as V-One is information that the company has a right 
to, not a right to necessarily to share with other entities. I 
think that's your point.
    I appreciate web sites, when I go to a web site that if I 
put some information about myself and it says check this box, 
do you care if we provide this information to others. I think 
you are correct, that that should be regulated some way to 
prevent massive invasion of privacy. I think that is a bit 
different issue than the encryption export issue.
    Mr. Tauzin. Would the gentleman yield a second? I will give 
him--just for 5 minutes. I want to point out that there is in 
the marketplace today, however, just as you have developed a 
marketplace solution for key recovery, there are marketplace 
software solutions being developed.
    Novell, I know, has one that will allow you to control 
completely your entry into cyberspace, all of your medical, 
financial, all of your records, all of your information in a 
way that you define your own identity in cyberspace.
    There are several other companies. I don't want to cite 
just Novell. There are quite a number of others. We are going 
to get a look at all of those at the retreat again. We have the 
option of either legislating or facilitating the development in 
the private sector, some of these technologies. The gentleman 
is now recognized.
    Mr. Oxley. Thank you, Mr. Chairman. Let me just say we 
discussed this last time. Had we had a situation like the World 
Trade Center bombing, the Oklahoma City disaster, the Littleton 
rampage, and had it been revealed later that the perpetrators 
had planned all of this using encrypted communications, what do 
you think the public outcry would have been had this 
legislation passed?
    My guess is that the public outcry would be strong against 
your department, Mr. Lee, perhaps against yours, Ms. McNamara, 
and perhaps all of us who saw fit to not provide the kind of 
protection for the public that is our solemn responsibility.
    Does anybody have a different feeling about that? If indeed 
that is the case, then doesn't Mr. Dawson's proposal start to 
point us in the right direction as to how we can solve the 
problems of technology with technology?
    I was going to ask Mr. Reinsch, because of the Commerce 
Department's biennial review, whether, as I view it, this 
legislation is unnecessary. Let me ask Ms. McNamara, based on 
your review, is this legislation necessary and if so, why?
    Ms. McNamara. Thank you very much for that question. On 
behalf of the administration, I would say that the 
administration does not believe that export control legislation 
with regard to encryption is either necessary or desirable.
    We believe that relaxation as we demonstrated last October 
and as the Wassenaar Arrangement signaled in December that we 
can relax much more quickly under the current regulatory regime 
that we have.
    Were legislation to be passed each time we wanted to relax, 
we would have to come back to Capitol Hill and say, mother may 
I, or father may I. In this particular case under the 
regulatory process, we have relaxed to a substantial part of 
the world's economy recognizing that there were segments of the 
world's economy that needed to be afforded protection and that 
was with consultation with industry.
    Now we excluded some segments of the world's economy from 
blanket release of encryption or relaxation of encryption and 
encryption products. But we still maintain on a case-by-case 
review the possibility of individual licenses being issued for 
the export of strong encryption and encryption technology to 
other segments that are not covered by the broad relief.
    Those individual licenses are being granted today. They 
have been granted this year. They have been granted because, 
through the technical review afforded under the current 
regulatory regime, we have a technical review of products so 
that we understand how they are going to be used, by whom they 
are going to be used, and what purpose they are going to be 
used.
    Mr. Oxley. Mr. Lee, do you agree with that?
    Mr. Lee. Mr. Oxley, the Department of Justice fully 
supports the administration's view that H.R. 850 is not 
necessary. Our primary interest and mission, of course, is 
domestic, but we fully support the needs of the national 
security community, and we are, of course, a customer or 
partner with the national security community.
    We believe that the existing regulatory regime in which the 
Department of Justice and FBI participate is a flexible one 
that takes into account all of the needs that have to be 
balanced here, the needs of the commercial sector, law 
enforcement, national security, and the needs of individual 
users.
    Mr. Oxley. Would the President veto this legislation, Mr. 
Lee?
    Mr. Lee. I don't have a view or information about that.
    Mr. Oxley. Ms. McNamara?
    Ms. McNamara. I don't have a view, sir.
    Mr. Oxley. I was hoping to ask Mr. Reinsch that, and he had 
to leave. But I would be interested in what the President's 
senior advisors may recommend.
    Mr. Tauzin. If the gentleman would submit a written 
question, he has agreed to answer in writing any questions we 
give him.
    Mr. Oxley. That would be fine. I would appreciate the 
opportunity to do so.
    Mr. Hornstein. Can I make one comment on the licensing 
program we are talking about here? We have done many, many 
licenses for filing with the Commerce Department, and we find 
the process is arbitrary. We have identical consumers, foreign, 
in different countries who for whatever reason when we actually 
did them, we filed for the export license.
    One was denied and one was approved. There is no guarantee 
when you are out there trying to sell a product to a legitimate 
global 1,000 consumers why in one situation they would be 
approved and one situation they would be denied.
    Mr. Oxley. Mr. Hornstein, you mentioned the product from 
Israel?
    Mr. Hornstein. The double check point.
    Mr. Oxley. That you are competing against? Do the Israelis 
have some form of key recovery?
    Mr. Hornstein. Do the Israelis have key recovery? No. Let 
me go through key recovery, if I could take 1 minute with you. 
There is a difference between government key recovery and a 
corporate key recovery. We have had the other panelists down 
there explaining they had a key recovery product. We have had 
key recovery products for years.
    Mr. Oxley. The Israelis have no key recovery at all?
    Mr. Hornstein. I don't know the answer to that. It depends 
upon the consumers, if they want them. We have a corporate key 
recovery product.
    What it does is if you have an individual who is 
communicating within a corporation and if they get hit by a bus 
and they cannot go back and find out what was the 
communications they have had this very day, the CIO or the MIS 
director in that company has a corporate key which will allow 
the person to open up all of the communications within that 
company.
    We have had that as an offering for many years. That is 
something that is built in as a customer offering. But if you 
are talking about whether an international company will 
actually implement that and make a requirement for them to make 
a corporate key recovery, that is something on an individual 
basis.
    But there is an ability for a centralized location in many 
of our products to have a key recovery as a--after the 
corporation, but it is not held by a trust or third party and 
it is not held by a government entity. We have found in 
experiences that nobody will buy that internationally.
    Mr. Oxley. Ms. McNamara?
    Ms. McNamara. Mr. Oxley, first let me say that I don't know 
whether Israel has key recovery or not, but I do know they have 
an export control regime. The Israeli government has in place a 
process to review all products for export. We know that because 
we have had those conversations. That is the first part.
    The second part is we will always have different answers 
through the licensing regime because end use and end users are 
what we use to justify the national--to understand and vote on 
from a national security perspective, whether or not somebody 
should export to a certain end user or particular location. 
That is a matter of U.S. Government policy as well.
    There are a series of pariah nations that fall into that 
category, and the U.S. Government uses that for the enforcement 
of our own foreign policy. With regard to the number of 
denials, this year, 1999, one, precisely one, license has been 
denied.
    Mr. Oxley. Thank you. Mr. Schultz?
    Mr. Schultz. I would just like to add that I think the 
problem is not being adequately scoped. The problem is we are 
fighting battles over encryption which now is really considered 
fairly weak by international standards, but we are still 
drawing the line there.
    We need to move our sights up into even stronger encryption 
and let go the little battles over the weaker encryption. I 
will tell you right now most 128-bit encryption is weak 
encryption now.
    Second of all, real important, and I will yield, but it is 
important to understand that crypto doesn't work unless you 
establish a culture of cryptography within your organization, 
within your institution, within your industry. That is the 
problem with this license-by-license application problem.
    It does not let encryption enfuse itself in the culture. It 
now becomes an ``iffy'' question for corporations, for 
industry, whether or not they are going to use it. I therefore 
strongly do not favor that.
    Mr. Oxley. Mr. Dawson and then we will----
    Mr. Tauzin. Yes.
    Mr. Dawson. I think Dr. Schultz makes a good point about 
establishing a culture of crypto and people won't use it if it 
is difficult to use. I want to clarify one thing. The key 
recovery mechanism that we are talking about, we have included 
free of charge to our customers.
    So No. 1, it doesn't create that kind of a burden. And from 
an administrative burden, I think it is reasonable if a company 
has a security administrator for the corporation, which most 
do, that person is also the key recovery agent, should a court 
order appear on the doorstep. Beyond that, there is very little 
required. I just wanted to clarify that, that this isn't an 
onerous hard-to-use burdensome-type of approach.
    Mr. Tauzin. Thank you, Mr. Dawson. The Chair is going to 
have to excuse Ms. McNamara on her time request as well. Before 
you leave, Ms. McNamara, let me ask you to respond in writing. 
Our language in the SAFE Act, H.R. 850, says that encryption 
products are allowed to be exported when they are generally 
available, I think is the term we use in the act in the world 
market.
    If that is not a workable standard--and it may not be--we 
should hear from you on it. I would very much like to you hear 
from you if there is a better standard. If we are going to pass 
an act what should be in the act other than this generally 
available standard and whether you could suggest one, and would 
you be willing to suggest one. No need to respond now, but 
perhaps you could communicate this in writing.
    Mr. Largent. Would the gentleman yield? If she is leaving, 
I just have a question I would like her to respond to.
    Mr. Tauzin. Let me do this. Let me ask each one of you to 
do that right now. Anna Eshoo is up next. Anna, if you have a 
question for Ms. McNamara, go ahead and ask it now, and we will 
get a response in writing.
    Ms. Eshoo. Thank you, Mr. Chairman. Since you need to 
leave, I want to pursue what the chairman just brought up about 
standards and your concern that if the standard is not correct 
it opens the flood gate to exporting any and all encryption 
products.
    My frustration on this issue since January 1993 is that the 
administration has really never come up with anything. The 
administration has shopped around different ideas and there 
have not been takers.
    But the responsibility still lies with the administration 
and all of its agencies to come up with something and to work 
with the Congress. Now, the Congress has a bill on the table, a 
bipartisan bill that has, I think, today 253 cosponsors.
    So I understand that the agencies have come to the Hill; 
they have literally scared the heck out of members that don't 
know very much about encryption, saying you are going to have 
blood on your hands if there is another World Trade Center 
bombing.
    There isn't any Member of the Congress that doesn't want 
the security of our Nation protected, but we also want our 
economic security to continue to expand.
    Ms. Eshoo. So I really urge the administration in every 
way, shape and form to come up with something. I think that you 
need to come back to this committee, as we do our 
consideration, to place before us language that would agree to 
allow the export of encryption products and to find what is 
currently available--what is out there in the business world 
that is currently available, you are rejecting today. So you 
are going to have to come up with something.
    Another question that I want to ask you is, just over 2 
weeks ago, the Ninth Circuit Appeals Court affirmed an earlier 
decision that in the name of national defense the U.S. 
Government should not restrict the very liberties it is 
supposed to be defending, which really exemplifies the judicial 
branch's understanding of the encryption debate. Would you 
comment on that?
    Ms. McNamara. I believe the chairman asked that question 
earlier, Congresswoman; and I believe Mr. Reinsch agreed to 
submit in writing an answer to that question, if I recall.
    Ms. Eshoo. But do you have views on it?
    Ms. McNamara. The administration----
    Ms. Eshoo. I can read the record. I am asking you.
    Ms. McNamara. I have my own personal views, and we are----
    Ms. Eshoo. Not personal, public views on it.
    Ms. McNamara. We--we as part of the administration--are 
looking at that decision and deciding what our options are.
    Mr. Tauzin. Will the gentlelady yield?
    Ms. Eshoo. Yes.
    Mr. Tauzin. Just to point out, then I will ask you to yield 
to gentleman from Oklahoma, too, that the Chair announced at 
the beginning of this session that we will be joining in a 
letter to the administration urging them not to appeal that 
decision, rather to work with us on appropriate legislation, 
and the gentlelady may have an interest in that.
    Would the gentlelady now yield to the gentleman from 
Oklahoma?
    Mr. Largent. Yes. I have just have a brief question, so you 
can respond in writing. I won't keep you any longer.
    I found it interesting when you responded to Mr. 
Hornstein's comments about denying certain questions and your 
consideration is the end user. And I guess my question that I 
want to have you respond in writing is, what is the NSA's view 
as an end user of the People's Republic of China and the Red 
Army in terms of transferring military, missile, computer 
technologies?
    So if you could respond to that question, I would 
appreciate it, too. You don't need to respond now.
    Ms. McNamara. Let me just tell you, I am pleased with the 
question. I was expecting a question related to China 
particularly, because of the Cox Commission report being 
released today; and as part of my homework assignment, I read 
the Chinese regulations with regard to the use of computers, 
Internet, and encryption and what the impact of that is on--
both in terms of both import and exports. So I will be happy to 
answer that question, Congressman.
    Mr. Tauzin. The gentlelady's time is extended.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Thank you, Mr. Arnold, for coming across the country. Mr. 
Arnold, I should state for the record, is a constituent.
    I am sorry that I wasn't here for everyone's testimony, but 
I want to thank you for being here today and working with us on 
this. You can tell from my statement to Ms. McNamara that this 
is an area, both in terms of encryption and export control, 
this is highly frustrating and an area where, in my service in 
the Congress, we have made very, very little progress on. So we 
have to try to keep pushing the edges of the envelope out.
    For Mr. Lee, currently, the 128-bit encryption is generally 
available, we know, from many domestic companies for sale 
within our own country and from a number of companies for sale 
abroad. Does the Department of Justice oppose raising the 
allowable exportable limit to 128 bits; and, if so, why?
    Mr. Lee. Congresswoman, as you are aware, the 
administration in the recent export regulation updates 
permitted the export of 128-bit encryption to a number of very 
important sectors, and those include U.S. companies for their 
internal use, and they include the use of on-line merchants for 
use in securing transactions with their customers abroad and 
other sectors. So the Department of Justice fully supports the 
spread of 128-bit encryption when we believe it is consistent 
with the public safety needs of our Nation.
    We would be pleased to participate, and we are in ongoing 
regulatory reviews that look at to what extent encryption can 
be made available, very strong encryption to other users, other 
sectors abroad, consistent with public safety and law 
enforcement needs.
    Ms. Eshoo. How do you define public safety in this area, 
just briefly?
    Mr. Lee. We define----
    Ms. Eshoo. You are responding to it in your response to me.
    Mr. Lee. Yes, ma'am. We use public safety to refer to our 
mission and our responsibilities to enforce the laws of the 
United States. That accounts for any number of statutes. It is 
a very broad reach.
    Ms. Eshoo. Very broad. It is just--it really is quite 
instructive to me how the element of fear, which is one of the 
most powerful emotions on the scale for human beings that has 
been used very effectively in this whole debate, and I don't 
know how we can, Mr. Chairman, move that one aside, to set it 
aside and have the discussion about the technologies.
    My sense is that both within security agencies, the law 
enforcement agencies, that they are having an enormously 
difficult time keeping up with the technologies and being able 
to handle the codes and break them in the work that they do, 
very legitimately, in law enforcement. And, as a result of 
that, the national emergency brake has been pulled up and said, 
no, no, no, wait a minute, we have to slow this down, we have 
to keep a lid on it, because we can't keep up with you.
    I can't help but sense, after all of the hearings I have 
been in, and I have gone from one committee to the other to 
hear the presentations that both national security and law 
enforcement have made, and I can't help but come to that 
conclusion.
    Did you have a comment that you wanted to make?
    Mr. Gillespie. I did, Congresswoman. Thank you very much. I 
think you raise a very valid point.
    And we saw here today even and we have seen it in the past, 
is that administration has shifted the nuance of their argument 
quite a bit. You know, they used to come up here and say, we 
have to stop this. We have to have these export restrictions. 
Because, if we don't, this strong encryption is going to become 
very widely available. And, of course, they can't counter the 
fact that there are now over 650 products on the market from 
over 29 different countries.
    And so, if you noticed today, the nature of the arrangement 
changed to be, well, yes, it is widely available, but nobody is 
using it yet, and we ought to stop them before they start using 
it. Of course, it is widely available because of the consumer 
command.
    I think in terms of the point that you made about the 
national security aspect, there is some new thinking going in 
the national security community. I would commend to the 
committee's attention a report released by the Center for 
Strategic International Studies. The report was chaired by 
Judge William Webster, who is a former director of the FBI and 
the CIA, and a former U.S. circuit judge. That report is called 
Cybercrime, Cyberterrorism, Cyberwarfare, Averting Electronic 
Waterloo.
    And if I may just read one quote from the report released 
by Judge Webster, he notes here that it calls for the 
intelligence-gathering communities, law enforcement and foreign 
intelligence to examine the implications of the emerging 
environment and alter their traditional sources and means to 
address the strategic information warfare needs of the 21st 
century. Continued reliance on limited availability of strong 
encryption within the development of alternative sources and 
means will seriously harm law enforcement and national 
security.
    That is not industry saying that.
    If I may make one other point, Congresswoman and Mr. 
Chairman, there has been a lot of discussion today about the 
Cox report. And if the committee is amenable, perhaps 
Congressman Cox's own OpEd in the San Jose Mercury News from 
March 27th in which he says some have inferred from his report 
this should mean clamping down on commercial exports. To the 
contrary, the committee found--his committee found the current 
export licensing processes riddled with errors and plagued with 
delays. It often does very little to protect our national 
security, while frequently doing a great deal to damage 
America's competitiveness in world markets. He says, I disagree 
with the Clinton-Gore administration that the current 
prohibition on American businesses export encryption software 
is necessary for our national security.
    So I think, in terms of the implications of the Cox report, 
perhaps we ought to have the chairman's words speak for--rather 
than some others representing and inferring from it.
    Ms. Eshoo. Mr. Chairman, just--thank you for that, Mr. 
Gillespie.
    I just have a quick question to Mr. Arnold. While I have 
this going through my mind, I think that we should have a 
review of that report presented by someone that helped to write 
it when we have our retreat, because I think it fits into that.
    For Mr. Arnold, you covered briefly in your opening 
remarks, but I would like you to expand a little bit on what 
effect you see the administration's current encryption policy 
having on emerging E-commerce? It is a huge area in our 
country. It is a great interest not only of the chairman of 
this full committee but all of its members. Maybe you can tell 
us what you have found with your international customers. Are 
they demanding stronger encryption products than you are 
currently allowed to offer? Just throwing you a softball ball, 
because I think I know the answer. I think it is important to 
have it in the record.
    Mr. Arnold. I think they are demanding, there is no 
question about that. And, given the current policy, we had an 
encryption--we had a permit issued to us 2 years ago for a 
product that we had to the merchant sites to allow the 
merchants to communicate securely with us, and we made 
application of a new product going out.
    The application went out in the January timeframe, and the 
product was launched in the March timeframe, and only as of 
late last week we were told we have another 60 days to wait 
before we are reviewed. We have not even seen an office action 
or even a question back to what we are doing.
    And I think there is a great deal of confusion when we look 
at Internet commerce and electronic commerce here. Because 
looking at individual uses and what is the user who, you know, 
is getting it out there, there is hundreds of merchants out 
there, and what we are protecting is private information of the 
company, delivery information potentially that is going out 
there, that they are using to communicate with the delivery 
source.
    We are protecting, of course, the financial information on 
the credit card; and we are protecting the information on the 
consumer themselves, is what is actually happening there.
    But the individual end users are wide and varied. There are 
hundreds of them. And for the products that they themselves are 
selling, there is tons of those products as well that they are 
selling out there. So, you know, that has been probably one of 
the major issues for us going forward, is just trying to 
educate and to allow people to understand what this marketplace 
is that is expanding on the Internet.
    On the other side of it, I would suggest to you that the 
criminal and nefarious acts that are going on, on average, run 
about 12 percent of the total transactions per day. And trying 
to gain some visibility within the law enforcement community 
over the past several years has been extremely hard to do and 
to educate on this.
    And I really applaud the administration recently on setting 
up the Internet Fraud Council through the FBI. I think that is 
an absolutely excellent first start. I think the piracy work 
that the FBI is beginning to step in and do is absolutely 
excellent. But they are just barely touching the surface of 
what is actually going on out there.
    Ms. Eshoo. Thank you.
    Mr. Tauzin. Thank the gentlelady.
    I might out point out, before I yield to my friend from 
Illinois, that our sessions have indicated several things; and 
maybe you all can think about that in terms of responding for 
us.
    One is that, FBI, the reason we put the language in the 
bill regarding the establishment of a lab at the FBI was the 
concerns we heard from the FBI. While they can use the NSA 
labs, they can't necessarily use the NSA personnel in a case to 
try to catch the criminal and can't necessarily use the people 
as witnesses to try the criminal because that would compromise 
NSA facilities and personnel. There is some real problems there 
that we are going to invite a lot of you to think about and 
help us resolve.
    The gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    As a cosponsor of this legislation, I found the debate and 
discussion very interesting. I also found it interesting of the 
continued comments about there is no need for this legislation. 
And I would submit, Mr. Chairman, that because of our movement 
on legislation last year that maybe the administration has, as 
I said, moved to at least relax some of their export controls. 
And whether you don't get the end result by passing laws, the 
movement of the legislative process does make some--you know, 
starts opening up the competitive market field. So the question 
what comes first, the chicken or the egg in this case, and I 
think our legislation which we tried to move last year.
    Mr. Lee, in reference--since you are the only 
administration person left, I guess I have to direct this 
toward you. The administration's current policy doesn't require 
encryption product exported to certain market segments to be 
recoverable, that is, new relaxed plan. Doesn't this undermine 
your claim that all encryption products should be recoverable?
    Mr. Lee. I think what I have testified both in this forum 
and other fora is that law enforcement has needs that, in order 
to continue to protect public safety, need to be met. There is 
a balance here. We participated in and fully supported the 
balance that was struck with the updates last fall.
    We recognize, as with all encryption, as many of the 
members have stated, that there is an upside and a downside. It 
seems to us that the needs for strong encryption in those 
sectors, which we supported, really outweighed the possible 
harm to the public safety, but it would be remiss of me not to 
say on this record that there is a possibility that that strong 
encryption out there can be used for nefarious purposes by 
criminal elements.
    So, again, there is a balance. We are trying to participate 
in that balance, but the ultimate goal is, when there is lawful 
authority for an interception or to seize stored data that 
happens to be encrypted, the ultimate goal would be that we 
able to obtain the plain text of that information.
    Mr. Shimkus. When we relax export controls, you are, in 
essence, shut out of some communications, use in these market 
segments, am I correct?
    Mr. Lee. When you say ``you,'' are you directing that at 
me?
    Mr. Shimkus. The administration, the Department of 
Commerce. When we decide, when we make a decision--I mean, it 
is really just follow-up to what you just said. We can't be--if 
we are going to allow and ease export controls, you can't 
assure me that that possibility now--there is a possibility out 
there that you can't have access to some information?
    Mr. Lee. I think you have put your finger on the central 
dilemma with any effort to relax export controls. That is 
correct.
    Mr. Shimkus. And let me move to Mr. Holahan.
    I was interested in your statement, and I think we have 
this perception, you probably said it in your opening comments, 
but I would like you to elaborate. And I am a cosponsor of the 
legislation, and I like our high-tech industry. I want it to be 
competitive.
    But just elaborate on, you say that Baltimore Technologies 
refutes suggestions often made that nonAmerican companies 
flourish solely because of the current export policy.
    Mr. Holahan. Yes.
    Mr. Shimkus. If you mentioned it before, I apologize----
    Mr. Holahan. No problem. That was actually a comment taken 
from the testimony before the Committee on the Judiciary. That 
phrase was used, ``flourish solely,'' because--just to give 
some examples, and this probably applies to Checkpoint software 
from Israel. We actually do sell our products inside the United 
States, and we were the first people to offer a job of 
cryptolography, not because we could do it, we just did it. And 
we sold it to, at the time, the leading security company, 
Security Dynamics; and they licensed it.
    So we set inside the U.S., based on just our technical 
merits, not because we have got some advantage outside. So if 
it is a question of us not on a level playing field, why would 
we actually succeed in here?
    We also--the major people that buy security, you know, the 
criminals don't come to us and buy security. Criminals will 
steal the security software if they want to. The people that 
buy security from us are people like banks, okay?
    Banks--if a bank comes up with a requirement for security, 
they will go to a U.S. corporations, to Baltimore Technologies. 
They will go everywhere. And they can get an export license for 
the U.S., and we regularly compete against American 
corporations and win deals purely based on technical merits.
    I would like to add that actual crypto is available 
everywhere, but the industry, you know--crypto is available 
everywhere, including the United States, but people are not 
even using it. The reason they are not using, because the 
software companies don't exist.
    What we do is not just write crypto, we actually use crypto 
from the U.S., from the UK, from Canada, from France and 
Ireland. And what we do is build products on top of it to 
encourage people, as Dr. Schultz said, to actually use the 
crypto. Because crypto has been around for 25 years, but no one 
needed to use it. So it has been incorporated into the software 
products.
    And that is--our job is not writing crypto. A very small 
percentage of our business is based on crypto, as is here is 
something that generates keys for you. The vast majority of our 
business is in the management systems which--actually, what we 
call cryptoagnostic. We don't care what crypto you use--U.S., 
recovered key crypto, IBM crypto, Intel crypto. We don't care 
what it is, because our value is in the management of crypto 
which is, in general, encouraging them to use, and that is why 
we succeed inside the U.S. So flourish solely, absolutely 
refute that, yes.
    Mr. Shimkus. So you probably have multiple product lines 
then, in essence.
    Mr. Holahan. Yes.
    Mr. Shimkus. And there is a separate one for U.S. import?
    Mr. Holahan. Unfortunately, yes.
    Mr. Shimkus. Yes, sir.
    Mr. Gillespie. Mr. Chairman, I was going to point out that 
the fact is perhaps Baltimore does not flourish solely because 
of the encryption laws. But there are a number of companies who 
aren't flourishing because of the encryption laws.
    And, in fact, if you go on to the Siemens website, you will 
see where they market specifically directed at the export 
restrictions; and it says, here is where you can purchase the 
strong encryption products that American companies are not 
allowed to sell you. And that is the kind of marketing that is 
taking place across Europe.
    I should also point out, because the Wassenaar Arrangement 
isn't brought up here, it was brought up by Mr. Holahan and 
others, the fact is that the Wassenaar Arrangement sets a 
floor, not a ceiling, in terms of crypto policy. And, frankly, 
our administration is below the floor that it set in the 
Wassenaar Arrangement, because Wassenaar allows for 64 bit, and 
we are still operating at 56 bit. So it would be nice if they 
would bring our policy up consistent with the floor at least in 
the Wassenaar.
    Mr. Shimkus. And that is one of my questions I would have 
asked the Commerce guy. When do they perceive moving up to that 
level of 64?
    Mr. Hornstein. I don't know.
    Mr. Tauzin. A good question. Submit it in writing. We will 
do that for you.
    Mr. Gillespie. If I might, Mr. Shimkus, in terms of 
Wassenaar, there were a number of points I would like to have 
cleared up about that, I think, for the record.
    It should also be noted that H.R. 850, the SAFE Act, is 
completely consistent with Wassenaar's. It was inferred that 
maybe it wasn't. Somehow, it would violate the Wassenaar 
Arrangement. It does not at all. In fact, it allows for the 
very kind of review process that Wassenaar calls for.
    It contains, among other things, a provision that gives the 
Secretary of Commerce a one-time, 15-day technical review of 
all crypto products prior to export. Second, it allows the 
President to stop exports to terrorist nations and to impose 
embargoes. And, third, it provides the Secretary of Commerce 
with the ability to stop the export of specific encryption 
products to specific individuals or organizations in specific 
countries if there is substantial evidence that such products 
will be used for military or terrorist purposes.
    So the bill itself is completely consistent with Wassenaar. 
I think that ought to be on the record here today.
    Thank you.
    Mr. Shimkus. Mr. Holahan, did you want to follow up?
    Mr. Holahan. Just in terms of companies marketing 
themselves as being able to sidestep U.S. regulations, it is 
actually different from the companies actually flourishing. 
Someone like Siemens, they don't flourish because U.S. export 
restrictions--I can't speak for them. But an awful lot of 
people would say, we have got, you know, strong crypto outside 
of the States. You can actually get a freeware and shareware. 
Shareware and freeware companies don't flourish because of 
that. They may offer it.
    But the question is, if used, people want it in American 
software products. The desktops of the world are populated by 
U.S. software products, and people do want it in the American 
products. Being able to offer it for free or a small amount of 
money will not cause us to flourish because of that. We have to 
offer something better than that. So the commercial argument is 
different from the actual technical argument.
    Mr. Shimkus. We understand marketing.
    Mr. Holahan. Okay. So don't confuse the idea of having 650 
products with actually some kind of a business market being out 
there, which is massively beyond belief, and we are all out 
there making tons of money just because we can develop crypto. 
Anyone can do that. That doesn't matter.
    Mr. Shimkus. Does anyone else also want to add--I was also 
interested on the comments by Mr. Gillespie, the Wassenaar by 
Mr. Holahan. Anyone else want to add on the agreement?
    Mr. Holahan. Just on the Wassenaar, my term was it may 
violate the Wassenaar Arrangement. My point is that I would 
like to encourage--to perhaps look at if it sort of wouldn't 
violate----
    Mr. Tauzin. Would the gentleman yield? Where? Where might 
it violate Wassenaar?
    Mr. Holahan. Because if--my understanding of the act is 
that the Department of Commerce can regulate it. So if--for 
instance, there is no actual requirement to notify export of 
crypto above 64 bit or whatever it is that might do it or 
outside the 33 countries of Wassenaar.
    I think there could be a few points whereby this might, you 
know, literally open the floodgates, rather than be contained, 
potentially. It depends on what way it is implemented.
    Mr. Hornstein. Can I point out Wassenaar is only for 33 
countries? I mean, Israel is not a Wassenaar member, and they 
are not subject to the regulations of other countries, India 
and so on. So a lot of our serious competitors out there in the 
world are not subject to this regulation at all.
    Mr. Shimkus. It has been a good panel, Mr. Chairman. I 
yield back the balance of my time.
    Mr. Tauzin. Thank the gentleman.
    Mr. Hornstein, before we wrap, in regards to your comments 
about the handicaps to some of the contracting you are trying 
to engage in. Once the Commerce Department does, in fact, give 
you an export license, does Commerce Department regulations 
prevent you from servicing after the sale in any way or inhibit 
you from servicing after the sale?
    Mr. Hornstein. No. As Under Secretary Reinsch said, once 
you do get a license, then you would be able to support that.
    Mr. Tauzin. So there is no problem with servicing the 
contract once you get your export license and you do your sale. 
Your problem is in communicating prior to the award of the 
contract?
    Mr. Hornstein. Can I walk through a quick process with you?
    Mr. Tauzin. Quickly do that for me.
    Mr. Hornstein. No problem. You develop a product, and then 
you have to go for a review. Your engineers are developing it. 
They have got to keep the export people involved so we can 
actually go through, and it takes 90 to 120 days to get this 
product reviewed by Commerce.
    Mr. Tauzin. By Commerce.
    Mr. Hornstein. It goes out, and then you try to sell the 
product. Now you have a review. It is potentially--it may be 
exportable, it may not be, may be restricted or regulated. I 
now go out there. I have--most of the transactions I do are 
small deals, $25,000, $50,000. I am a billion dollar software 
company. Can you imagine 30 or 40 percent?
    Mr. Tauzin. Everyone takes that review.
    Mr. Hornstein. If I actually had to go through that sort of 
a process for a mass--I am selling mass market products. These 
are products that come off the store shelf and turnkey, and my 
consumers can use them for nonnefarious purposes.
    Mr. Tauzin. You don't have a general waiver on them. You 
have to go contract by contract?
    Mr. Hornstein. Correct, contract by contract.
    Mr. Tauzin. While your product is being reviewed, you are 
in the process of negotiating with the company who wants to buy 
it who is also negotiating with these foreign suppliers as 
well, right--well, maybe?
    Mr. Hornstein. I wouldn't file a license before I have a 
sale. Many times customers come to me and want the products 
that day, and there are other competitors out there. It takes 
90 days or whatever period of time to get clearance from the 
Commerce Department.
    Mr. Tauzin. So even if you were able to clear all of these 
hurdles within the timeframes, your competitors have no such 
hurdles?
    Mr. Hornstein. Exactly.
    Mr. Tauzin. They can sell that day to the purchaser?
    Mr. Hornstein. Baltimore, based out of Ireland and the UK, 
has no restrictions whatsoever.
    Mr. Tauzin. Mr. Holahan, do you do that? Can you sell on 
a----
    Mr. Holahan. The way we regulate what is under Wassenaar 
and the European Union and the national legislation, that we 
actually allowed certain products to be exported on a 
notification basis.
    Mr. Tauzin. So you just notify them and then export?
    Mr. Holahan. Correct.
    Mr. Tauzin. You have no review process? You don't have to 
wait for anyone to say it is okay?
    Mr. Holahan. There is a continuing review process.
    Mr. Tauzin. Nobody has to tell you it is okay?
    Mr. Holahan. Okay.
    Mr. Tauzin. You can just notify and sell?
    Mr. Holahan. Correct.
    Mr. Tauzin. He has to go through an okay process.
    Mr. Holahan. Actually, I contest that, because Network 
Associates have bought two non-U.S. companies who are quite 
capable of exporting. My understanding, correct me----
    Mr. Hornstein. I can't export anything. All of my engineers 
are in the United States.
    Mr. Holahan. Do you have PGP engineers in Europe?
    Mr. Hornstein. No, PGP is in United States.
    Mr. Holahan. In Holland, no?
    Mr. Hornstein. No. I just have my sales people out there.
    Mr. Holahan. My understanding is that PGP is available 
internationally, downloaded free of charge, and that is outside 
the U.S.; is that right?
    Mr. Hornstein. That is correct.
    Mr. Tauzin. But his engineers are here, and you can't 
communicate before the sale; is that the problem?
    Mr. Hornstein. Correct.
    Mr. Holahan. Actually, I would contest. I think the term in 
the contract is render technical assistance in the development 
of products. I think you can actually market products outside 
the States. You can say, this product does this, this, this, 
and this. You can't get an engineer to help someone that is 
outside of the States. So, as far as we see, U.S. companies are 
able to market the products. If someone wants to build a 
product, they can't render engineering assistance----
    Mr. Hornstein. I can market, but most of my marketing is 
done by my borrowers who are international people. And for me 
to give them a demonstration version is another violation of 
the U.S. laws.
    Mr. Tauzin. I think we have the picture.
    Mr. Holahan. I am not arguing for those certain things. I 
am not trying to stop him from competing. But I think a 
demonstration of a product is actually allowed under the 
current legislation----
    Mr. Hornstein. As long as it is under my control and a 
controlled environment. I don't install it. My customers----
    Mr. Tauzin. There are a type of restrictions on which you 
can or cannot do?
    Mr. Holahan. I would agree with that.
    Mr. Tauzin. Right.
    Mr. Dawson, do you want to add something before we wrap?
    Mr. Dawson. Quickly. By way of a quick walk-through, there 
is no prior approval required with the approach that we have 
implemented under the current resolution.
    Mr. Tauzin. Because Commerce has approved it?
    Mr. Dawson. Commerce has approved this, and there is no--
our customers have no preapproval. It is preapproved for any 
customer, and they simply have to register themselves on our 
website, not with the U.S. Department of Commerce. So that is 
within the current regulations, et cetera. So I think it works, 
and I think it works without----
    Mr. Tauzin. But only people using your product?
    Mr. Dawson. Only people that are using that technique.
    Mr. Tauzin. That technique. That is correct.
    Mr. Schultz.
    Mr. Schultz. If I can, just for 1 more second. Just with 
respect to law enforcement, I would like to give some 
encouragement in that area. If we relax our current encryption 
restrictions, there will be ways of getting keys even if the 
crypto is stronger.
    Look at the Walker spy case, right? People reveal keys. We 
must always keep in mind the role of people in any technology. 
That is very important. That means one person in an 
organization that is using crypto for criminal purposes may be 
aware of that key and reveal the key. We must never lose the 
fact that we always have a very strong potential form of 
control.
    And, second of all, with respect to crypto, we have heard 
somebody from the NSA tell us that, yeah, they monitor what 
goes on out there. And now some special vigilante organization 
that is very scary starts encrypted traffic lot using strong 
encryption. That is a heads-up. There are signs, there are 
telltales that the law enforcement community will get from the 
use of stronger encryption that will enable them----
    Mr. Tauzin. Mr. Schultz, that makes my point; and that is 
it is not sufficient for FBI purposes that NSA have that 
capability. FBI has to have its own capability, and that is the 
reason why the lab language, and perhaps we need to talk more 
about that. If we are going to successfully pass a bill that 
relaxes these export restrictions and, in fact, encourages 
stronger and stronger encryption products, which I support, we 
are going to have to make sure that there is strong cooperation 
between the industry and the manufacturers and the product 
developers and the FBI in terms of a lab that gives them 
capability to serve this country's needs in terms of catching 
the bad guys when they are out there using those products.
    Mr. Hornstein.
    Mr. Hornstein. Can I just give a couple of examples?
    Network Associates in the past couple of years has worked 
very closely with the FBI. In the last year, I had 12 different 
meetings and conversations with different agencies.
    Mr. Tauzin. That is what I am talking about.
    Mr. Hornstein. For instance, you have heard of the Melissa 
virus potentially.
    Mr. Tauzin. Of course.
    Mr. Hornstein. The moment the Melissa virus was discovered, 
Network Associates worked very, very closely with the FBI, not 
only detecting and cleaning and decrypting the virus but we 
also worked with the FBI in assisting them on backtracking and 
locating the person who was out of I think it was New Jersey. 
And we worked very closely with them, the Remote Explore Virus.
    Mr. Tauzin. I think the FBI gave some credit to the 
industry for its assistance.
    Again, thank you for that. That is exactly what we are 
going to be looking for if we can develop successful 
legislation.
    Mr. Hornstein. I guess my point is, for a company like 
Network Associates, which is trying to grow a security company, 
we are a global company, not a local company; and for us to 
remain viable and to be able to provide support to the FBI, we 
need to build and grow as a business. If our business isn't 
growing, we will lose our engineers.
    Mr. Tauzin. This has been an excellent discussion. I will 
just reaffirm, Mr. Markey and I have always been able to 
appreciate and enjoy James Joyce. What I can't appreciate and 
enjoy is that 7 million word Tax Code, and if any one of you 
can decipher that book, I would be happy.
    Let me thank you very much. It has been very enlightening. 
We may call upon some of you again as we move toward our 
retreat. We want to understand a great deal more of some of--
you raised some extraordinary problem areas for us in your 
testimony, with Mr. Arnold and Mr. Schultz, that I want to 
pursue further. We may want to come back to you with some 
additional questions.
    And, all of you, your written record is a part of the 
record by unanimous consent. All members' written records are a 
part of the record. And the Chair will grant 30 days for anyone 
to submit additional and other information for the record.
    Mr. Gillespie, you have the article from Mr. Cox that will 
be made a part of the record, as well as my letter from the 
Louisiana Sheriff's Association. Without objection, so ordered.
    [The information referred to follows:]

                [March 27, 1999--San Jose Mercury News]

         China: Export of technology would be liberating force
                           By Christopher Cox
    American policy toward the People's Republic of China should 
proceed from this central premise: It is our sincere hope for the 
Chinese people that they will no longer live under a communist 
government.
    To this end, America's--and California's--world leadership in high-
tech enterprise promises far more than economic benefits. The export of 
these products to the Chinese people can be a great democratizing and 
liberating force.
    In January, the People's Republic sentenced Lin Hai, a 30-year-old 
software executive and Web page designer, to prison for supposedly 
``inciting subversion of state power.'' His so-called ``crime'' 
consisted of exchanging e-mail addresses with an anti-communist group 
in America. But if Lin Hai had been able to keep the contents of his 
computer messages away from the prying eyes of the Ministry of State 
Security--using strong encryption in commercially available software--
he would be a free man today.
    That is why America's companies, the leaders in encryption 
technology, must be able to export their products to China and around 
the world. Strong encryption is--as Beijing's communist leadership is 
well aware--a massive threat to totalitarian regimes and their 
government-maintained monopoly on information, because it permits 
individuals to communicate privately without fear of government 
eavesdropping or interception.
    In this and the previous Congress, I have sponsored the Security 
and Freedom through Encryption Act, together with a broad coalition of 
Republican and Democratic lawmakers. I disagree with the Clinton-Gore 
administration that the current prohibition on American businesses 
exporting encryption software is necessary for our national security.
    Yet the Clinton-Gore administration would go beyond the current 
prohibition, endorsing not just restrictions on encryption exports, but 
also requiring every encryption program sold--even within the United 
States--to have a secret key to permit eavesdropping by law enforcement 
officials or foreign governments.
    The Clinton-Gore administration seems to place a higher priority on 
stopping the export of encryption software to the Chinese people than 
on preventing the theft of our nuclear weapons technology by the 
People's Liberation Army.
    This is exactly backward. Rather than control commercially 
available computers, software and technology, we should safeguard our 
most critical military secrets.
Transfer of technology
    For the past nine months, I've chaired a congressional select 
committee investigating the transfer of militarily sensitive technology 
to the People's Republic of China. The committee's classified report, 
unanimously approved by all five Republicans and four Democrats, found 
overwhelming evidence that such transfers--including theft through 
espionage--have caused serious harm to U.S. national security, and 
continue to this day.
    But some have inferred that this should mean clamping down on 
commercial exports. To the contrary: The committee found that the 
current export-licensing process is riddled with, and plagued by 
delays. It often does very little to protect our national security--
while frequently doing a great deal to damage America's competitiveness 
in world markets.
    The committee has therefore recommended streamlining export rules. 
The United States should provide a new ``fast track'' for most items, 
while focusing greater resources and expertise on the limited targets 
that we know from our intelligence are the subject of specific 
collection efforts by the People's Republic of China and others.
    Trade in innovative technologies, goods and services can help 
undermine inefficient state-run industries and bring hope of a better 
life to the Chinese people.
    In areas like transportation, telecommunications and financial 
services, it is the means by which communist China--whose economy is 
smaller on a per capita basis than Guatemala's--can become a developed 
nation.
    In fields such as medicine, biotechnology and farming, U.S. trade 
offers hope for the desperately poor millions who are still China's 
majority that they will be able to eat and survive.
    Encouraging exports to China that promote individual freedom and 
well-being is in the United States' national security interest. For 
this reason, in addition to allowing the export of encryption software, 
U.S. policy should focus on unleashing the Internet as an engine of 
freedom in China. Among the 1.2 billion people in the People's Republic 
of China, only one in a thousand is an Internet user. But Internet use 
is growing at a rate that threatens the Communist Party's grip on 
China.
    As Chinese journalist Sang Ye has observed: ``New ways of thinking, 
of communicating, of organizing people and information--the Net takes 
aim squarely at things that since Mao's earliest days have been the 
state's exclusive domain.''
    Today, China's communist dictatorship is working hard to re-route 
its citizens away from the information superhighway and onto the state-
controlled ``Intranet.'' This new Intranet allows communication only 
among approved users who share communist-approved content. The Ministry 
of Post and Telecommunications supervises and approves all networks, 
and it screens virtually all news and even financial information that 
citizens may receive from foreign sources. While the Chinese Communist 
Party argues, on the Internet home page of the People's Daily, that the 
open flow of communications would be destabilizing, Americans know from 
our own experience that technology is best used as a means to an end: a 
promise of greater freedom. The United States should move aggressively 
to frustrate the Chinese government's censorship of the Internet by 
condemning it as a barrier to free trade, an impediment to joining the 
World Trade Organization, and a violation of the several human rights 
covenants it has signed. And we should encourage the construction of an 
expanded Internet architecture that frustrates censorship and control 
by repressive states.
    At the same time, the United States should work with all nations 
for the establishment of the Internet as a global free-trade zone, 
which not only will make it increasingly difficult for governments 
including China's to choke off access but also will pressure them 
further to reduce protectionist trade barriers.
    Finally, we should recognize that while our currently limited trade 
with China's protectionist government may be better than nothing, the 
object of U.S. policy must be a liberalization of trade that is 
fundamentally at odds with the nation's communist system.
Truly free trade
    Despite America's free-trade policy, we still sell less to the 
billion-plus People's Republic of China than to the 22 million people 
of Taiwan. Instead of business ventures being approved one at a time by 
the Communist Party's Politburo, truly free trade means a billion 
Chinese interacting independently with a quarter-billion Americans.
    A policy toward the People's Republic of China that frustrates this 
objective is both shortsighted and cruel.
    The recent public attention to espionage raises proper concerns 
about our lack of security, but it should not distract us from our 
objective of freedom for China's people--a result that American 
technology exports can help bring about.
    Today, we have the worst of both worlds: Military technology that 
the communist government can use to hold the Chinese people in terror 
is being stolen, while commercial technology that can liberate the 
Chinese people is delayed in the export-licensing bureaucracy.
    It's time to focus not on whether to engage--we should all be 
agreed on that--but rather on the terms of engagement. We should have 
no illusions about with whom we are dealing. We should have no doubt 
about where our policy is taking us. Freedom--not engagement and 
possibly marriage to a communist dictatorship--is what our policy 
toward China should be seeking to achieve.
    U.S. Rep. Christopher Cox, R-Newport Beach, is chair of the House 
Select Committee on U.S. National Security and Military/Commercial 
Concerns with the People's Republic of China. He wrote this article for 
the San Jose Mercury News Sunday Perspective section.
                                 ______
                                 
                            Louisiana Sheriffs' Association
                                                       May 17, 1999
The Honorable John C. Cooksey
U.S. House of Representatives
434 Cannon House Office Building
Washington, D.C. 20515
    Dear Congressman Cooksey: I am writing today to call your attention 
to H.R. 850, the SAFE Act, which will be heard tomorrow in the 
International Economic Policy & Trade subcommittee of the International 
Relations Committee. This legislation deals with issues that are of 
some concern to the sheriffs in Louisiana and law enforcement in 
general. I hope that you will work to prevent any weakening amendments 
and report this bill favorably to the full House of Representatives.
    Our association passed the enclosed resolution last year in 
opposition to a proposal that would have ``escrowed'' encryption keys 
for use by the government. This resolution speaks to the concerns and 
problems that such a proposal would create. This year we are seeking to 
guarantee the security of encryption by preventing the government from 
taking such steps as ``escrowing'' encryption keys. That is why we need 
H.R. 850 passed favorably without any amendments.
    Please review the enclosed resolution and support H.R. 850 in the 
subcommittee hearing tomorrow. Should you have any questions regarding 
this issue, please contact me at the number above.
            Sincerely,
                                A.R. ``Trey'' Hodgkins, III
                                  Manager of Governmental Relations
                               RESOLUTION
    WHEREAS, In today's digital age, individuals, private organizations 
and government agencies store and transmit ever-increasing amounts of 
confidential information within and over computer and 
telecommunications networks; and
    WHEREAS, This activity necessitates that individuals, organizations 
and agencies need to protect their confidential information with the 
strongest available computer encryption technology to deter access or 
theft of this information; and
    WHEREAS, Without powerful encryption security in Louisiana's 
information networks, the computer and telecommunications systems that 
control such critical law enforcement functions as communication and 
emergency response, as well as the vital services providing air traffic 
control, financial systems, the power grid and the public telephone 
system would become vulnerable to attack from high tech terrorists; and
    WHEREAS, The confidential nature of a number of law enforcement 
functions, including investigative evidence keeping, witness 
information and prison and corrections records keeping would also be 
vulnerable to unauthorized access without these powerful encryption 
systems; and
    WHEREAS, Legislation proposed by the Federal Bureau of 
Investigation would require all users of encryption to deposit a key 
with a ``key escrow'' agent that would be available to FBI access; and
    WHEREAS, This FBI access would create and maintain a dangerous and 
unnecessary vulnerability to Louisiana's information and computer 
infrastructure while failing to offer any increased level of protection 
these systems require; and
    WHEREAS, While the FBI's efforts toward recovering information 
about criminal access to high security encryption are well intentioned, 
the ``key escrow'' plan poses too many severe threats to public safety, 
confidentiality and legitimate computer users that far outweigh the 
isolated benefits it may provide; and
    WHEREAS, Americans for Computer Privacy is a broad-based national 
coalition of groups representing law enforcement, industry, taxpayers, 
financial institutions, civil liberties and online commerce dedicated 
to ensuring that all Americans are permitted to protect their privacy 
with the strongest possible encryption without mandatory government 
access to information; now, therefore, be it
    RESOLVED, That the Louisiana Sheriffs' Association, at it's meeting 
on May 20, 1998 registers its' opposition to any compromise to the 
security and privacy that strong encryption affords the ability of law 
enforcement to provide public safety, and, be it further
    RESOLVED, That the Louisiana Sheriffs' Association wishes to become 
an active member of the Americans for Computer Privacy coalition and 
win devote any available resources to passage of pro-computer privacy 
legislation and opposing any ``key escrow'' mandates; and
    RESOLVED, That the Louisiana Sheriffs' Association wishes that a 
copy of this resolution be sent to each member of the Louisiana 
Congressional Delegation.
                             CERTIFICATION
    This is to certify that the above and foregoing is a resolution 
adopted by the Executive Board of the Louisiana Sheriffs' Association 
on May 20, 1998.

DATE 5-20-98
                                  R.B. ``Bucky'' Rives, Jr.
                                                 Executive Director

    Mr. Tauzin. The hearing stands adjourned. Thank you very 
much.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                       from the State of Virginia
    Mr. Chairman, I would like to thank you for holding today's 
important hearing on legislation I have introduced--H.R. 850, the 
Security and Freedom through Encryption (SAFE) Act of 1999--to 
encourage the use of strong encryption.
    This much-needed, bipartisan legislation, which currently has 255 
cosponsors, including a majority of the Republican and Democratic 
leadership, three-fifths of the members of the Commerce Committee, and 
over two-thirds of the members of this Subcommittee, accomplishes 
several important goals. First, it aids law enforcement by preventing 
piracy and white-collar crime on the Internet. Several studies over the 
past few years have demonstrated that the theft of proprietary business 
information costs American industry hundreds of billions of dollars 
each year. The use of strong encryption to protect financial 
transactions and information would prevent this theft from occurring. 
With the speed of transactions and communications on the Internet, law 
enforcement cannot stop thieves and criminal hackers by waiting to 
react until after the fact.
    Only by allowing the use of strong encryption, not only 
domestically but internationally as well, can we hope to make the 
Internet a safe and secure environment. As the National Research 
Council's Committee on National Cryptography Policy concluded, ``If 
cryptography can protect the trade secrets and proprietary information 
of businesses and thereby reduce economic espionage (which it can), it 
also supports in a most important manner the job of law enforcement. If 
cryptography can help protect nationally critical information systems 
and networks against unauthorized penetration (which it can), it also 
supports the national security of the United States.''
    Second, if the Global Information Infrastructure is to reach its 
true potential, citizens and companies alike must have the confidence 
that their communications and transactions will be secure. The SAFE 
Act, by allowing all Americans to use the highest technology and 
strongest security available, will provide them with that confidence.
    Third, with the availability of strong encryption overseas and on 
the Internet, our export controls only serve to tie the hands of 
American business. Due in large part to these export controls, foreign 
companies are winning an increasing number of contracts by telling 
prospective clients that American encryption products are weak and 
inferior, which is robbing our economy of jobs and revenue. In fact, 
one noted study found that failure to address the current export 
restrictions by the year 2000 will cost American industry $60 billion 
and 200,000 jobs. Under the current system, America is surrendering our 
dominance of the global marketplace.
    The SAFE Act remedies this situation by allowing the export of 
generally available American-made encryption products after a 15-day, 
one-time technical review. Additionally, the bill allows custom-
designed encryption products to be exported, after the same review 
period, if they are commercially available overseas and will not be 
used for military or terrorist purposes.
    Removing these export barriers will free U.S. industry to remain 
the leader in software, hardware, and Internet development. And by 
allowing our computer industry to market the highest technology with 
the strongest security features available, America will lead the way 
into the 21st century Information Age.
    This bipartisan legislation enjoys the support of members and 
organizations across the entire spectrum of ideological and political 
beliefs. The SAFE Act enjoys this support not only because it is a 
common-sense approach to solving a serious problem, but also because 
ordinary Americans' privacy and security is being assaulted by this 
Administration.
    Amazingly enough, the Administration wants to mandate a back door 
into peoples' computer systems in order to access their private 
communications. In fact, the Administration has stated that if people 
do not ``voluntarily'' create this back door, it may seek legislation 
forcing them to give the government access to their information, by 
mandating a ``key recovery'' system requiring people to give the keys 
to decode their communications to a government-approved third party. 
This is the technological equivalent of mandating that the government 
be given a key to every home in America.
    The Administration is proposing an Industrial Age solution to an 
Information Age problem. The SAFE Act, on the other hand, prevents the 
Administration from placing roadblocks on the information superhighway 
by prohibiting the government from mandating a back door into the 
computer systems of private citizens and businesses. Additionally, the 
SAFE Act ensures that all Americans have the right to choose any 
security system to protect their confidential information.
    With the millions of communications, transmissions, and 
transactions that occur on the Internet every day, American citizens 
and businesses must have the confidence that their private information 
and communications are safe and secure. That is precisely what the SAFE 
Act will ensure. I urge each of my colleagues to support this 
bipartisan legislation, and thank you for holding today's hearing.
                                 ______
                                 
                                   Global Integrity
                              West Lafayette, IN 47906-1182
                                                       June 1, 1999
The Honorable W.J. Tauzin
Chair
Committee on Commerce
U.S. House of Representatives
316 Ford Building
Washington, DC 20515
    Dear representative Tauzin: In response to your request for 
additional information at the Committee on Commerce hearing on H.R. 850 
last Tuesday, I am pleased to submit this letter.
    Your first question was whether the cryptographic product 
(SmartGate) described at the hearing by Mr. David Dawson of V-ONE 
corporation provides a solution for the concerns associated with 
relaxation of current U.S. encryption export restrictions. After 
visiting the V-ONE web site and reading the descriptions of V-ONE's 
SecureGate product, I learned that this product provides encryption for 
pager devices using Triple-DES (a reasonably strong encryption 
algorithm). It was certainly generous of Mr. Dawson to offer to share 
the code used to implement this product. On the other hand, SecureGate 
is a rather specialized product that does not address many of the 
issues discussed at last week's hearing. This product does not, for 
example, encrypt network links to web servers, nor does it help in 
securing telecommunications links. As such, SecureGate does not provide 
a sufficiently general solution--the kind of solution, unfortunately, 
that would be needed to address the many issues related to U.S. 
encryption export controls.
    Your second question was whether prohibitions against mandatory key 
recovery would discourage voluntary key recovery. It seems to me that 
the critical issue here is not the relationship between the two, but 
rather the particular party that would be in charge of voluntary 
recovery. If the U.S. Government establishes the role of voluntary key 
recovery agent and postures itself accordingly, I am confident that the 
result would be firm resistance even to voluntary key recovery. The 
fiasco with the Clipper Chip and Capstone should by now have taught us 
that not only U.S. commercial entities, but also especially foreign 
organizations are less than enthusiastic about the U.S. Government 
serving in the role of key recovery agent. In short, few organizations 
trust the Government and its potential intentions sufficiently. If, on 
the other hand, commercial entities continue to provide key recovery 
services on a widespread basis, I am confident that the negative 
reaction towards voluntary key recovery will in general soften over 
time.
    The only possible link between prohibition of mandatory key 
recovery and the popularity of voluntary key recovery might result from 
the inference that somehow since the U.S. Government prohibits 
mandatory key recovery, something must be wrong with key recovery in 
general (regardless of whether it is mandatory or voluntary). I do not, 
however, believe that such an inference is sufficiently logical to be 
held widely among those who are considering key recovery solutions.
    Thank you for allowing me to serve the Commerce Committee. I look 
forward to the possibility of working with you and the others on this 
Committee in the future should your needs so dictate. I am in 
particular eager to explain the concept of an ``encryption culture'' 
and to show its bearing on H.R. 850.
            Sincerely yours,
                            E. Eugene Schultz, Ph.D., CISSP
                     Trusted Security Advisor and Research Director

</pre></body></html>
